Petition
Appendix

NOTICE: All slip opinions and orders are subject to formal
revision and are superseded by the advance sheets and bound
volumes of the Official Reports. If you find a typographical
error or other formal error, please notify the Reporter of
Decisions, Supreme Judicial Court, John Adams Courthouse, 1
Pemberton Square, Suite 2500, Boston, MA, 02108-1750; (617) 5571030; SJCReporter@sjc.state.ma.us
SJC-12683
COMMONWEALTH

Suffolk.
Present:

vs.

KEVIN FRANCIS.

November 4, 2019. - June 24, 2020.

Gants, C.J., Lenk, Gaziano, Lowy, Budd, Cypher,
& Kafker, JJ.

Constitutional Law, Assistance of counsel, Fair trial, Waiver of
constitutional rights. Due Process of Law, Assistance of
counsel, Fair trial. Fair Trial. Practice, Criminal,
Assistance of counsel, Fair trial, Waiver, Postconviction
relief.

Indictment found and returned in the Superior Court
Department on December 17, 1981.
Following review by this court, 391 Mass. 369 (1984), a
motion for a new trial, filed on September 29, 2015, was heard
by Mitchell H. Kaplan, J.
A request for leave to appeal was allowed by Gants, C.J.,
in the Supreme Judicial Court for the county of Suffolk.
Amy M. Belger (Ira L. Gant, Committee for Public Counsel
Services, also present) for the defendant.
Dara Z. Kesselheim, Assistant District Attorney (Craig
Iannini, Assistant District Attorney, also present) for the
Commonwealth.

1a

2
KAFKER, J.

The defendant, Kevin Francis, was convicted of

murder in the first degree in 1982.

This is the defendant's

appeal, pursuant to G. L. c. 278, § 33E, from the denial of his
second motion for a new trial.

The victim, who was the

defendant's former girlfriend, had been stabbed multiple times
in the chest and skull.

The defendant had previously threatened

her and had been identified by an eyewitness chasing the victim
with a knife.
At the time of his arraignment, the defendant was nineteen
years old, indigent, and entitled to court-appointed counsel.
Stephen Hrones, an experienced criminal defense lawyer, appeared
at the defendant's arraignment to try to represent him at trial.
Hrones was not on a list of attorneys who were approved by the
court to serve as assigned counsel in murder cases, but it was
his practice to be on the lookout for such cases.

In a sidebar

discussion with the judge and prosecutor that excluded the
defendant, Hrones asked if he had been added to the approved
list of appointed counsel and informed the judge that he would
represent the defendant privately pro bono if he could not be
appointed by the court.

The court informed Hrones that he was

not on the approved list but allowed Hrones to serve as private
counsel so long as he would not be paid with any public funds.
The judge did not seek the defendant's approval of the
arrangement or inform the defendant in a colloquy or otherwise

2a

3
that he was entitled to court-appointed, State-funded counsel.
Hrones also did not explain the arrangement or secure his
appointment as private counsel through any prior or subsequent
discussions with the defendant.

Hrones nonetheless represented

the defendant at trial and in his direct appeal.
After this court affirmed his conviction, the defendant
represented himself when filing his first motion for a new trial
in May 1991.

At that time, he had in his possession his trial

and arraignment transcripts, including the arraignment judge's
summary of the sidebar discussion that took place during the
arraignment, which stated that Hrones was private counsel and
not appointed public counsel.

The defendant's case was also

screened by the Committee for Public Counsel Services (CPCS) in
1992-1993 and again in 2000 without the issue being raised in
any motion.

It was not until his second motion for a new trial,

filed in 2015, that a claim was raised that Hrones's appointment
violated the defendant's rights under the Sixth Amendment to the
United States Constitution or art. 12 of the Massachusetts
Declaration of Rights.

This is the sole issue presented here.

There is no suggestion that Hrones's representation at trial was
ineffective apart from the appointment itself, as no ineffective
assistance of counsel claims are made here by appellate counsel
in the second motion for a new trial.

3a

Nor were any identified

4
in our G. L. c. 278, § 33E, review in 1984.

See Commonwealth v.

Francis, 391 Mass. 369 (1984).
The first dispositive question at issue is whether the
defendant's Sixth Amendment and art. 12 rights were violated
when he was deprived of the opportunity to choose between paid,
court-appointed counsel and the representation offered by Hrones
and, relatedly, whether excluding the defendant from the sidebar
discussion that established this arrangement violated the
defendant's right to be present at a critical stage of his
criminal proceedings.

Second, if the defendant's rights were

violated, we must determine whether they warrant a new trial
more than thirty-seven years after the defendant's conviction.
We conclude that the defendant's right to choice of private
counsel and right to be present during a critical stage of the
proceedings under both the Federal and State Constitutions were
violated.

Although a novel question, we also conclude that

these violations of his constitutional rights are structural
errors requiring automatic reversal absent waiver, as the choice
of private counsel is a fundamental right to be made by the
defendant -- not by the court and counsel and without the
defendant's consent.

Nonetheless, the delay of more than thirty

years in bringing these claims in these circumstances, where the
claim was not first brought until 2015, but the transcript
clearly depicting the constitutional violations was available

4a

5
for the defendant in 1991 and for the public defense counsel
screening his claims in 1992-1993 and 2000, waives the claims
under State and Federal constitutional law.

We also conclude

that there was no substantial risk of a miscarriage of justice,1
as the defendant was capably represented at trial by an
experienced criminal defense counsel, and no errors in the
quality of that representation have been identified -- the only
error identified is the appointment itself.
1.

Background.

The conviction of murder in the first

degree underlying this appeal was reviewed by this court in
Francis, 391 Mass. 369.

We summarize the relevant facts.

On

September 19, 1981, an eyewitness, Terrence Smith, was driving
along Blue Hill Avenue toward Mattapan Square in Boston at
approximately 7 P.M.

Id. at 370.

Smith saw a young woman on

the sidewalk running toward him, and saw that she was carrying a
stick and wearing a "rain or shine" jacket, new boots, and
dungarees.

Id.

Smith then saw a man running about forty or

fifty yards behind the woman.

Id.

As the man got closer, the

Because we are not currently reviewing the defendant's
conviction of murder in the first degree under G. L. c. 278,
§ 33E, we do not review whether the claimed errors caused a
substantial likelihood of a miscarriage of justice, the standard
uniquely designated for § 33E review. See Commonwealth v.
Randolph, 438 Mass. 290, 296 (2002). Instead, we review the
claimed errors under a slightly more stringent standard
designated for all other unpreserved claims on appeal, namely
whether the errors created a substantial risk of a miscarriage
of justice. Id.
1

5a

6
eyewitness saw he was carrying a knife.

Id.

Smith testified

that the man came within fifteen feet of him and that he saw "a
very good side view" of the man.

Id.

At 7:15 P.M. that

evening, the police received a call to report to the Franklin
Field area, and upon arrival they discovered the body of the
victim, Vanessa Marson, who was the defendant's former
girlfriend.

Id. at 370-371.

The medical examiner testified

that the victim died of multiple stab wounds to her chest and
skull.

Id. at 370.

Smith identified the defendant from an

array of ten or twelve photographs as the man he saw the evening
of the murder and identified by means of a photograph the victim
as the woman he saw running.
defendant at trial.

Id.

He later identified the

Id. at 370-371.

The evidence also showed

that the defendant had threatened the victim two months before
the murder occurred.

Id. at 371.

The defendant was charged with murder in the first degree
and arraigned on January 8, 1982.

At the time of the

arraignment, the defendant was nineteen years old and indigent.
Attorney Hrones appeared at the defendant's arraignment on his
own initiative.
Hrones had been a member of the bar since 1972.

He had

represented defendants pro bono in murder cases on four or five
occasions before representing the defendant, and had tried
numerous serious felony cases.

Nevertheless, neither the

6a

7
defendant nor his family had any contact with Hrones before the
arraignment or had otherwise arranged to retain Hrones's
services.

The defendant met Hrones for the first time at the

arraignment.
At the time of the arraignment, there was a Superior Court
rule in effect that provided that "[n]o person shall be assigned
as counsel in a murder case unless he is included in the
official Standing List of Counsel established by a majority vote
of the justices."
(1982).

Rule 53(1) of the Rules of the Superior Court

Hrones was not included in the official Standing List

of Counsel at the time of the defendant's arraignment in 1982,
and was reminded of this fact at the arraignment during a
sidebar discussion with the judge.

The court conducted this

sidebar discussion in court with the prosecutor and Hrones, out
of the presence and earshot of the defendant.

The judge

explained the substance of that sidebar discussion, as reflected
in the record:
"I would like the record to show that when the case of
Kevin Francis was called for arraignment, Mr. Rhones [sic]
stepped up and asked if he and the assistant district
attorney could approach the bench. I allowed them to do
so.
"Mr. Rhones said to me that he would represent the young
man for no pay if he could not be appointed, and asked me
if his appointment to the list of attorneys who may
represent indigents accused of murder had been approved at
the last meeting of the judges. I told him it had not.

7a

8
"As chairman of the committee involved I know that Mr.
Rhones has applied three or four times and been turned down
each time.
"This in itself does not prevent him from private
representation, and I am allowing him to represent the
defendant privately.
"I just want the record to show that at no time throughout
the trial should any judge consider paying him out of
public funds."
After the sidebar discussion, in open court, the judge asked
Hrones if he was going to file an appearance for the defendant
as private counsel.

Hrones answered in the affirmative.

The judge knew at the arraignment that the defendant was
entitled to counsel who met the requirements to be courtappointed counsel in murder cases, at no charge to the
defendant, and that Hrones was not on the list of attorneys who
satisfied these requirements.

Yet at no point during the

arraignment did the judge conduct a colloquy with the defendant
to ensure that the arrangement was acceptable to him.

Nor did

the judge ensure that Hrones had conferred with the defendant
regarding his representation.

He only ensured that the record

reflected that Hrones was to receive no public funds in
compensation for his representation.
After a jury trial, the defendant was convicted of murder
in the first degree on September 21, 1982, and sentenced to life
imprisonment.

After the trial, Hrones was appointed by the

court as public counsel to represent the defendant on appeal on

8a

9
May 6, 1983, and received public funds for doing so.

This court

conducted plenary review pursuant to G. L. c. 278, § 33E, and
affirmed the defendant's conviction.

Francis, 391 Mass. at 376.

Seven years later, the defendant filed a pro se motion for a new
trial on May 24, 1991.

In that motion, the defendant raised an

ineffective assistance of counsel claim.

He also argued that

the trial judge gave improper instructions to the jury.

At the

time the defendant filed the motion, he had transcripts of the
trial and the arraignment in his possession -- including a
transcript with the trial judge's summary of the sidebar
conference discussed supra.

Nowhere in the defendant's motion

or its accompanying memorandum of law did the defendant raise a
Sixth Amendment or art. 12 claim based on his right to choose
counsel.

The motion was denied without a hearing by the trial

judge on September 23, 1993.
An attorney for CPCS screened the defendant's case in 19921993.

As part of that process, the attorney wrote to the

defendant and asked him to provide copies of all police reports
and other documents or information in the defendant's
possession.

The defendant did so, yet neither the defendant nor

CPCS raised the Sixth Amendment or art. 12 issue in the trial
court.

Although it is not clear whether the attorney had the

transcripts, he certainly could have requested them.

9a

10
On August 18, 1999, the defendant wrote a letter to a
second attorney at CPCS requesting an assignment of
postconviction screening counsel.

In response to an earlier

inquiry from CPCS regarding whether the defendant's trial
counsel was hired by him or court appointed, the defendant
responded:

"Court appointed."

At the time, CPCS was reviewing

the defendant's request for postconviction screening counsel.
CPCS assigned counsel to screen the defendant's case on February
17, 2000.

Counsel did not file an appearance on the defendant's

behalf until 2013.
Twenty-two years after the defendant's first postconviction
motion was denied, the defendant, through counsel, filed a
motion for dismissal of the indictment pursuant to Mass. R.
Crim. P. 25 (b) (2), as amended, 420 Mass. 1502 (1995), or in
the alternative for a new trial pursuant to Mass. R. Crim. P.
30 (b), as appearing in 435 Mass. 1501 (2001).

The defendant

argued in his motion that he was denied his right to counsel
under the Sixth Amendment and art. 12 when he made no knowing
and intelligent waiver of his right to a court-appointed lawyer
approved to try murder cases.2

On September 29, 2016, a judge in

The other arguments raised by the defendant -- i.e., that
the Commonwealth withheld exculpatory evidence; that the
defendant was convicted with inadmissible and prejudicial
testimony admitted solely for the purpose of impeachment; that
the trial judge failed to give proper jury instructions related
to the reliability of eyewitness identifications; and that the
2

10a

11
the Superior Court (motion judge)3 allowed the defendant's
request for an evidentiary hearing on the motion.

The hearing

was held in January 2018.
At the evidentiary hearing, Attorney Hrones testified that
the substance of the sidebar discussion with the arraignment
judge in 1982 was never shared with the defendant.

Hrones

testified that he did not remember whether he discussed with the
defendant that Hrones was not court appointed.

However, Hrones

also testified that he did not want the defendant to know he was
trying the case for free because he did not want the defendant
to fire him.

Hrones testified that it was his practice to find

arraignments in cases of murder in the first degree so that he
could offer his services as counsel to defendants.
The defendant also testified at the evidentiary hearing.
He testified that he first met Hrones at the arraignment, and it
was his understanding that Hrones was court appointed.

The

defendant testified that he would not have agreed to proceed to
trial with Hrones if he had known that Hrones was not getting
paid and was not on the list of counsel qualified for
appointment in murder cases.

The defendant explained:

prosecutor improperly vouched for the innocence of the victim's
boyfriend -- were rejected by the motion judge and are not the
subject of this appeal.
The motion judge was not the trial judge, who had long
since retired.
3

11a

12
"I wanted to win . . . I woulda took the paid attorney.
It's just . . . to me, it just makes sense. I just think
he would -- no disrespect to anybody, but I just think he
probably would have been more qualified."
The defendant also testified that he did not know about the
sidebar discussion with the arraignment judge -- nor had he been
present for it.

The defendant further testified that he first

understood what pro bono representation means after his current
counsel explained it to him over a decade after the defendant's
pro se motion for a new trial had been denied, and years after
the defendant responded that his attorney had been "Court
appointed" in his 1999 letter to CPCS.
Following the evidentiary hearing, the motion judge denied
the defendant's motion on February 22, 2018, finding "no
constitutional right to court appointed counsel that the
defendant has unwittingly waived."

The defendant then filed an

application for leave to appeal from this ruling under G. L.
c. 278, § 33E.

Following a hearing on the matter before a

single justice, the matter was remanded to the motion judge for
certain factual findings.

The questions to be resolved on

remand were the following:
"1. On or about January 8, 1982, when Mr. Hrones filed an
appearance to represent the defendant as his private
attorney, had he been retained by the defendant or any
member of his family?
"2. Did the defendant believe at the time of the
arraignment that the court had appointed Mr. Hrones to
represent him as his attorney? If so, when and how did the

12a

13
defendant learn that the court had not appointed Mr.
Hrones?
"3. Did the defendant believe at the time of arraignment
that Mr. Hrones was being paid by the court to represent
him? If so, when and how did the defendant learn that Mr.
Hrones was representing him pro bono?"
After remand, the motion judge offered both parties the option
of another evidentiary hearing to put forward additional
evidence on the questions of fact presented by the single
justice, but both parties declined the opportunity.

The judge

found in response to the first question that "at or about the
time that Mr. Hrones filed his notice of appearance in this case
he had not been retained by the defendant or a member of his
family."

The judge credited Hrones's testimony at the January

2018 hearing that "it was his practice to be on the look-out for
arraignments in first degree murder cases so that he could offer
his services as counsel to the accused."

The judge concluded

that there was "no discussion with the defendant in which either
the defendant or his family 'retained' Mr. Hrones as the
defendant's attorney in this case."
In response to the second and third questions, the motion
judge found that "the defendant [had] not proved that, at or
about the time of his arraignment, he was unaware that the court
had not appointed Mr. Hrones to represent him or that Mr. Hrones
was not being paid by the Commonwealth."

The judge stated that

Hrones's concession that he did not remember whether he had ever

13a

14
told the defendant that he had not been appointed by the court
was "inadequate to meet the defendant's burden of proof" on his
second motion for a new trial.

The judge did not credit the

defendant's testimony that "he did not know that Mr. Hrones was
representing him pro bono as opposed to as court appointed
counsel until relatively recently and had never discussed it
with [Hrones]."

The judge did not find that the defendant was

intentionally misrepresenting what he remembered; rather, the
judge did not credit the defendant's testimony because he found
that "this issue would not have been a noteworthy matter to the
defendant in 1982."

That is because, the judge explained, "the

defendant was totally unaware of the significance of the
distinction between being represented by a court appointed
lawyer or a private attorney appearing pro bono, until his
present post-conviction counsel developed the Sixth Amendment
argument presented in the pending motion and explained it to
him."

The defendant thus would not have found the sidebar

exchange between the arraignment judge and Hrones significant,
which is why, the motion judge reasoned, he failed to mention it
in his first motion for a new trial.
Following remand, the single justice granted the
defendant's application for leave to appeal from the denial of
his second motion for a new trial, concluding that the issues

14a

15
raised in the defendant's application were both new and
substantial within the meaning of G. L. c. 278, § 33E.
2.

Discussion.

a.

Standard of review.

"We review the

disposition of a motion for a new trial for a significant error
of law or other abuse of discretion" (quotation and citation
omitted).

Commonwealth v. Robinson, 480 Mass. 146, 149 (2018).

"When . . . the motion judge did not preside at trial, we defer
to that judge's assessment of the credibility of witnesses at
the [evidentiary] hearing on the new trial motion, but we regard
ourselves in as good a position as the motion judge to assess
the trial record" (citation omitted).
479 Mass. 479, 486 (2018).

Commonwealth v. Drayton,

Furthermore, "we make an independent

determination as to the correctness of the judge's application
of constitutional principles to the facts as found" (quotation
and citation omitted).
b.

Id.

The right to counsel and the right to choose counsel.

The Sixth Amendment provides that, "[i]n all criminal
prosecutions, the accused shall enjoy the right . . . to have
the Assistance of Counsel for his defence."

The United States

Supreme Court has interpreted the Sixth Amendment to mean that
"counsel must be provided for defendants unable to employ

15a

16
counsel unless the right is competently and intelligently
waived."

Gideon v. Wainwright, 372 U.S. 335, 339-340 (1963).4

The Sixth Amendment right to counsel also encompasses the
right to private counsel of one's choice, subject to certain
restrictions.

See United States v. Gonzalez-Lopez, 548 U.S.

140, 144 (2006); Caplin & Drysdale, Chartered v. United States,
491 U.S. 617, 625-626 (1989) (Caplin & Drysdale); Wheat v.
United States, 486 U.S. 153, 162-164 (1988).

In Gonzalez-Lopez,

supra at 142, the defendant hired a California attorney to
represent him on a Federal drug charge in Missouri.

The

District Court twice denied the California attorney's
application for admission pro hac vice.

Id. at 142-143.

The

defendant appealed from his conviction, arguing that denial of
his attorney's pro hac vice motions was erroneous and violated
his Sixth Amendment right to paid counsel of his choosing.
at 143-144.

The Court agreed.

Id.

It began by rejecting the

government's argument that the defendant's right to choose

The court may not "forc[e] a lawyer upon an unwilling
defendant," as this would be "contrary to his basic right to
defend himself if he truly wants to do so." Faretta v.
California, 422 U.S. 806, 817 (1975). As such, the Sixth
Amendment right to counsel can be waived, but such waiver must
be knowing and intelligent: "Although a defendant need not
himself have the skill and experience of a lawyer in order
competently and intelligently to choose self-representation, he
should be made aware of the dangers and disadvantages of selfrepresentation, so that the record will establish that he knows
what he is doing and his choice is made with eyes open"
(quotation and citation omitted). Id. at 835.
4

16a

17
counsel was satisfied so long as the counsel with whom he was
left was competent and the over-all trial was fair.

The Court

held that the Sixth Amendment "commands, not that a trial be
fair, but that a particular guarantee of fairness be provided -to wit, that the accused be defended by counsel he believes to
be best."

Id. at 146.

As a result, "[d]eprivation of the right

[to private counsel of one's choice] is 'complete' when the
defendant is erroneously prevented from being represented by the
lawyer he wants, regardless of the quality of the representation
he received."

Id. at 148.

Arguing otherwise "confuse[s] the

right to counsel of choice -- which is the right to a particular
lawyer regardless of comparative effectiveness -- with the right
to effective counsel -- which imposes a baseline requirement of
competence on whatever lawyer is chosen or appointed."

Id.

As

such, "[a] choice-of-counsel violation occurs whenever the
defendant's choice is wrongfully denied."

Id. at 150.5

In a dissent joined by three other justices, Justice Alito
wrote: "I would hold that the erroneous disqualification of
counsel does not violate the Sixth Amendment unless the ruling
diminishes the quality of assistance that the defendant would
have otherwise received." United States v. Gonzalez-Lopez, 548
U.S. 140, 155 (2006) (Alito, J., dissenting). This would
require the defendant to "show an identifiable difference in the
quality of representation," and also prejudice resulting from
the disqualification, even in cases involving the erroneous
interference with choice of counsel (quotation omitted). Id. at
156. See Wheat v. United States, 486 U.S. 153, 159 (1988)
("Thus, while the right to select and be represented by one's
preferred attorney is comprehended by the Sixth Amendment, the
essential aim of the Amendment is to guarantee an effective
5

17a

18
The Court did, however, stress that the right to choose
one's counsel is not absolute:

for example, it "does not extend

to defendants who require counsel to be appointed for them.

Nor

may a defendant insist on representation by a person who is not
a member of the bar, or demand that a court honor his waiver of
conflict-free representation" (citations omitted).
152.

See Wheat, 486 U.S. at 162-164.

Id. at 151-

The court need not unduly

delay trial to provide the defendant with counsel of his choice.
See Burton v. Renico, 391 F.3d 764, 771 (6th Cir. 2004), cert.
denied, 546 U.S. 821 (2005).
We have similarly defined and limited the right to choice
of counsel under art. 12.

Article 12 provides that, in criminal

proceedings, "every subject shall have a right . . . to be fully
heard in his defense by himself, or his council at his
election."

This court has held that, "as a general rule, a

defendant should be afforded a fair opportunity to secure
counsel of his own choice" (quotation and citation omitted).

advocate for each criminal defendant rather than to ensure that
a defendant will inexorably be represented by the lawyer whom he
prefers"). Justice Alito also concurred in a later structural
error case involving the right to public trial to further
emphasize that prejudice is ordinarily "based on the reliability
of the underlying proceeding," and that challenging a conviction
"means that the defendant must show a reasonable probability
that, absent the errors, the factfinder would have had a
reasonable doubt respecting guilt" (quotation and citation
omitted). Weaver v. Massachusetts, 137 S. Ct. 1899, 1915 (2017)
(Alito, J., concurring).

18a

19
Commonwealth v. Pena, 462 Mass. 183, 191 (2012).

However, this

right "is not an absolute right, and in some circumstances, it
may be subordinate to the proper administration of justice,"
and, "[w]ith regard to an indigent defendant, the right to an
attorney does not guarantee the right to any particular courtappointed counsel" (quotations and citations omitted).

Id.

Although indigent defendants do not have the right to
choose who is appointed for them, they nevertheless have "the
right to be represented by an otherwise qualified attorney whom
that defendant can afford to hire, or who is willing to
represent the defendant even though he is without funds."
Gonzalez-Lopez, 548 U.S. at 144, quoting Caplin & Drysdale, 491
U.S. at 624-625.

This establishes a choice, even for an

indigent defendant:

the defendant can choose between appointed

counsel and one who offers his or her services for free at the
time counsel must be selected, or at least for an amount that
the defendant can afford.

See Gonzalez-Lopez, supra; Caplin &

Drysdale, supra.
Here, the defendant was indigent, and thus qualified for
court-appointed counsel at the time of his arraignment.
Although the defendant did not have the right to choose between
court-appointed attorneys, he did have the right to choose
between an appointed attorney and counsel who had offered his
services for free.

In making this selection, the defendant

19a

20
could have weighed which attorney he believed was best qualified
to represent him.

See Gonzalez-Lopez, 548 U.S. at 140.

In this

instance, the defendant was entitled to be informed of and to
consider his choice between a court-appointed attorney -- who
would have to have been approved by the court to represent
indigent defendants in murder cases, and would have been
compensated for his or her work, see Rule 53 of the Rules of the
Superior Court6 -- and Hrones, who volunteered his services for
free, but was not on the list of approved counsel.
The defendant did not hire Hrones as private counsel.

He

was not given the opportunity to exercise his choice between
appointed counsel and Hrones, the attorney offering services for
free.

Instead, the arraignment judge, without consulting the

defendant, essentially appointed Hrones as the defendant's
"private" counsel without pay.

The judge's decision to "allow[]

[Hrones] to represent the defendant privately" without inquiring
whether the defendant approved of the arrangement, or understood
that he was entitled to court-approved, court-appointed counsel
at no cost, interfered with the defendant's Sixth Amendment and
art. 12 rights to choose private counsel.

The selection of

This rule no longer governs how counsel is assigned to
indigent defendants. Instead, the Committee for Public Counsel
Services has established and currently supervises and maintains
"a system for the appointment or assignment of counsel at any
stage of a proceeding, either criminal or noncriminal in
nature." G. L. c. 211D, § 5.
6

20a

21
private counsel is for the defendant, not the court.

The court

cannot appoint private counsel, and that is what the court did
here.
At a minimum, in these circumstances, the arraignment judge
should have conducted a colloquy with the defendant explaining
that he had a right to appointed counsel from a list of
qualified attorneys who would be paid for their services, or the
right to choose Hrones as his private counsel, who was offering
his services for free.

Such a colloquy would have ensured that

the defendant made an informed exercise of his constitutional
rights regarding counsel.

The judge did not, however, educate

the defendant regarding this choice, and thus deprived the
defendant of his rights under the Sixth Amendment and art. 12.7

Such a colloquy occurred in 1974 in another case where
Hrones represented a defendant charged with murder in the first
degree. In Commonwealth vs. Lacy, Mass. Super. Ct., No.
7484CR79994 (Suffolk County), a transcript of an evidentiary
hearing shows that the judge conducted a colloquy with the
defendant, Leonard Lacy, who forwent appointed public counsel to
be represented by Hrones. The court ensured that Lacy
understood his right to appointed public counsel: "Nor, do I
say . . . that you cannot have counsel of your own choosing and
if Mr. Hrones is counsel of your own choosing, you certainly can
have him, provided, of course, that . . . Mr. Hrones as
counsel . . . is thoroughly aware that he will defend you with
the complete understanding that this Court is not appointing him
as counsel under the terms of Rule 53. Therefore, he will not
be compensated by the Commonwealth of Massachusetts. . . .
[S]ince you indicate to me that you are indigent, . . . you are
entitled, therefore, to have competent counsel appointed for
you." We also note that this court now has rules requiring a
judge to inform an indigent party that he has the right to be
represented by counsel at public expense. S.J.C. Rule 3:10,
7

21a

22
c.

Right to be present.

Rule 18 of the Massachusetts

Rules of Criminal Procedure, 378 Mass. 887 (1979), provides that
criminal defendants shall have the right to be present "at all
critical stages of [court] proceedings."

"This right to be

present derives from the confrontation clause of the Sixth
Amendment . . . , the due process clause of the Fourteenth
Amendment to the United States Constitution, and art. 12
. . . ."

Robinson v. Commonwealth, 445 Mass. 280, 285 (2005).

Although rule 18 does not identify what stages of court
proceedings are "critical," "fairness demands that the defendant
be present when his substantial rights are at stake."

Id.,

quoting Reporters' Notes to Mass. R. Crim. P. 18 (a), Mass. Ann.
Laws Court Rules, Rules of Criminal Procedure, at 1429
(LexisNexis 2005).
As we have recently held, "[c]ounsel's presence at sidebar
and intention to relay information to a defendant does not
substitute for the defendant's presence" during a critical stage
of the proceedings.
173 (2019).

Commonwealth v. Colon, 482 Mass. 162, 172-

This holding is on all fours with the present case,

where excluding the defendant from the sidebar discussion among

§ 2, as appearing in 475 Mass. 1301 (2016) ("If any party to a
proceeding appears in court without counsel where the party has
a right to be represented by counsel under the law of the
Commonwealth, the judge shall advise the party . . . that . . .
the party may be entitled to the appointment of counsel at
public expense . . .").

22a

23
the judge, Hrones, and the prosecutor at the arraignment denied
the defendant his right to be present at a critical stage of the
proceeding, and effectively usurped his constitutional right to
choose which counsel he believed would be best suited to
represent him.

Moreover, his presence was particularly

important where Hrones later admitted at the evidentiary hearing
in 2018 his reticence in telling the defendant he was not court
appointed in 1982 because he did not want the defendant to fire
him, and therefore had no intention or incentive to relay full
and accurate information to the defendant.
As discussed supra, because Hrones, who was not on the list
of approved counsel for murder cases, had volunteered to
represent the defendant without pay in his murder case, the
defendant had a choice of counsel.

Where a defendant has such a

choice of counsel, it is critical that the defendant be present
and informed of that choice.

The defendant's rule 18 and

constitutional rights to be present were therefore violated when
he was excluded from the sidebar discussion and no subsequent
colloquy was conducted explaining his rights.
d.

Structural error.

Because we hold that the defendant's

constitutional right to choice of counsel and to be present at a
critical stage in the proceeding were violated, we must next
assess whether these constitutional violations amount to
structural error warranting automatic reversal absent waiver.

23a

24
Generally, there are "two classes" of constitutional error.
First, there are "trial errors," which can be "quantitatively
assessed in the context of other evidence," and which comprise
"most constitutional errors."

Gonzalez-Lopez, 548 U.S. at 148,

quoting Arizona v. Fulminante, 499 U.S. 279, 306-308 (1991).
These errors are assessed for whether they are harmless beyond a
reasonable doubt.

Gonzalez-Lopez, supra.

Second, there is a "very limited class of cases" presenting
structural errors that require automatic reversal absent waiver
(citation omitted).
(1999).

Neder v. United States, 527 U.S. 1, 8

See Gonzalez-Lopez, 548 U.S. at 148-149.

Such errors

include the denial of counsel or the right to public trial, the
omission of an instruction on the standard of beyond a
reasonable doubt, racial discrimination in the selection of a
jury, or trial before a biased judge.
supra at 149; Neder, supra.

See Gonzalez- Lopez,

These errors contain a "defect

affecting the framework within which the trial proceeds, rather
than simply an error in the trial process itself."
supra, quoting Fulminante, 499 U.S. at 310.

Neder,

They are

"constitutional error[s] of the first magnitude."

See

Commonwealth v. Valentin, 470 Mass. 186, 196 (2014), quoting
United States v. Cronic, 466 U.S. 648, 659 (1984).
Most structural errors "deprive defendants of 'basic
protections'" that are essential for a criminal trial to

24a

25
"reliably serve its function as a vehicle for determination of
guilt or innocence" and ensure that a "criminal punishment may
be regarded as fundamentally fair."

Neder, 527 U.S. at 8-9,

quoting Rose v. Clark, 478 U.S. 570, 577-578 (1986).
Valentin, 470 Mass. at 196.

See

There are, however, structural

errors with more subtle effects.

In these, the structural

problem is fundamental, but the effect on the trial is much more
difficult to evaluate.

Gonzalez-Lopez, 548 U.S. at 149 n.4.

The Supreme Court has emphasized that this is true in choice-ofcounsel cases.

See Weaver v. Massachusetts, 137 S. Ct. 1899,

1908 (2017); Gonzalez-Lopez, supra at 150.

Regardless,

structural errors tend to pervade "the entire trial process" and
thus "defy analysis by 'harmless-error' standards" (citations
omitted).

Neder, supra at 7-8.

Reversal may therefore be

required even when there is overwhelming evidence of the
defendant's guilt.

Tumey v. Ohio, 273 U.S. 510, 535 (1927) ("No

matter what the evidence was against [the defendant], he had the
right to have an impartial judge").
We conclude that the violations of the defendant's Sixth
Amendment and art. 12 rights here constitute structural error.
For guidance we turn first to Gonzalez-Lopez, 548 U.S. at 152,
where the Supreme Court concluded that depriving a defendant of
his or her choice of private counsel is structural error
requiring reversal.

In that case, counsel was fully qualified,

25a

26
but the court declined to admit him pro hac vice and failed to
give any explanation as to why.

Id. at 142.

The court also

declined to allow him to be present at counsel's table during
the trial or contact the defendant during the proceedings.

Id.

at 143.
The Supreme Court ruled that "erroneous denial of [private]
counsel [of choice] bears directly on the 'framework within
which the trial proceeds.'"
U.S. at 310.

Id. at 150, quoting Fulminante, 499

For no reason whatsoever, the defendant was

deprived of the lawyer he chose to pay to represent him.

The

person he felt would best protect him was prevented in an
arbitrary fashion from doing so.

See id. at 146, 149.

As the

court in Gonzalez-Lopez further explained:
"We have little trouble concluding that erroneous
deprivation of the right to counsel of choice, with
consequences that are necessarily unquantifiable and
indeterminate, unquestionably qualifies as 'structural
error.' Different attorneys will pursue different
strategies with regard to investigation and discovery,
development of the theory of defense, selection of the
jury, presentation of the witnesses, and style of witness
examination and jury argument. And the choice of attorney
will affect whether and on what terms the defendant
cooperates with the prosecution, plea bargains, or decides
instead to go to trial. In light of these myriad aspects
of representation, the erroneous denial of [private]
counsel [of choice] bears directly on the framework within
which the trial proceeds -- or indeed on whether it
proceeds at all. It is impossible to know what different
choices the rejected counsel would have made, and then to
quantify the impact of those different choices on the
outcome of the proceedings. . . . Harmless-error analysis
in such a context would be a speculative inquiry into what

26a

27
might have occurred in an alternate universe."
and citations omitted.)

(Quotations

Id. at 150.
We recognize that this is not a classic private counsel
case like Gonzalez-Lopez, where the defendant was improperly and
arbitrarily denied the right to the private counsel he had
chosen.

As explained supra, the defendant was indigent.

Had

Hrones not volunteered, the defendant would have had no choice
of counsel.

However, once Hrones did volunteer, the defendant

did have a choice, albeit a limited one.

See Gonzalez-Lopez,

548 U.S. at 150 ("A choice-of-counsel violation occurs whenever
the defendant's choice is wrongfully denied").

Because the

defendant had "the right to be represented by an otherwise
qualified attorney whom [the] defendant [could] afford to hire,
or who [was] willing to represent the defendant even though he
[was] without funds," id. at 144, quoting Caplin & Drysdale, 491
U.S. at 624-625, the defendant could have picked Hrones as his
private counsel, or have had the court appoint a lawyer from the
list of counsel qualified to defend defendants in murder cases.
When the court, in collaboration with Hrones, removed that
choice and appointed Hrones as private counsel without the
defendant's knowledge or consent, it committed constitutional
error that affected the framework of the trial.

27a

28
Although the error here affected the framework within which
the trial proceeds, and was therefore structural, it was not one
of those structural errors that "necessarily render[ed] [the]
trial . . . an unreliable vehicle for determining guilt or
innocence."
196.

Neder, 527 U.S. at 9.

See Valentin, 470 Mass. at

Indeed, as explained infra, Hrones was competent counsel,

and there is no argument to the effect that his representation
at trial was ineffective.

Rather, the error here fell into the

category of structural error with subtle, widespread effects.
It is thus structural for the reasons quoted at length supra in
Gonzalez-Lopez.

Any comparison of Hrones's performance and that

of counsel on the list qualified to try murder cases would be
speculative.

See Gonzalez-Lopez, 548 U.S. at 151.

Compare

Valentin, supra at 188, 197 (no structural error where
substitute counsel, who was law partner of counsel, only served
for short period of time during jury deliberations and preserved
all prior objections to jury instructions, thus providing firm
basis for determining that brief substitution would have made no
difference in representation).

As Hrones represented the

defendant at every step of the trial and on his direct appeal,
his improper appointment had a pervasive effect.

See Neder,

supra at 7-8.
We therefore conclude that the constitutional error here
was the type of structural error identified in Gonzalez-Lopez,

28a

29
even though it did not render the trial itself an unreliable
vehicle for determining guilt or innocence.

It therefore

constituted a structural error in violation of the Sixth
Amendment and art. 12.8
e.

Waiver of the right to choose counsel.

Even though the

error here was structural, we must determine whether it was
waived and, if so, whether the error created a substantial risk
of a miscarriage of justice.

Robinson, 480 Mass. at 154-155.

Commonwealth v. Randolph, 438 Mass. 290, 296 (2002).

See

Commonwealth v. Smith, 460 Mass. 385, 396 (2011) ("An error
creates a substantial risk of a miscarriage of justice unless we
are persuaded that it did not materially influence[] the guilty

We note that Gonzalez-Lopez was a five-to-four decision
with a vigorous dissent. That being said, we interpret art. 12
to provide protection just as great as, if not greater than, the
Sixth Amendment. See Commonwealth v. Amirault, 424 Mass. 618,
624 (1997). Should the Supreme Court standard change, and we
make no projections whatsoever in that regard, as that is not
our prerogative, see Bosse v. Oklahoma, 137 S. Ct. 1, 2 (2016)
(per curiam) ("[I]t is [the Supreme] Court's prerogative alone
to overrule one of its precedents"), we would still interpret
art. 12 as providing a separate, adequate, and independent basis
for determining that the arraignment judge's improper blurring
and crossing of the lines between public and private counsel -which resulted in his denial of the defendant's right to
qualified appointed counsel and instead his selection of a
lawyer for the defendant as private counsel, all without the
defendant's knowledge or consent -- is structural error. Cf.
Michigan v. Long, 463 U.S. 1032, 1041 (1983) ("If the state
court decision indicates clearly and expressly that it is
alternatively based on bona fide separate, adequate, and
independent grounds, we, of course, will not undertake to review
the decision").
8

29a

30
verdict" [quotation and citation omitted]).

We conclude that

the defendant waived his right to counsel of choice by failing
to raise this right until thirty-three years after the violation
took place.

See Robinson, supra at 152; Commonwealth v.

Jackson, 471 Mass. 262, 268-269 (2015), cert. denied, 136 S. Ct.
1158 (2016).

See also Weaver, 137 S. Ct. at 1911-1912.

We also

conclude that there was no substantial risk of a miscarriage of
justice arising out of the waiver, as the defendant was
competently represented by experienced counsel:

no errors

arising out of Hrones's representation have been claimed here
apart from the appointment itself or identified in the court's
previous G. L. c. 278, § 33E, review.

See Robinson, supra;

Randolph, supra at 294-295.
We do not fault the defendant for failing to raise the
issue at the arraignment -– where he was excluded from the
sidebar discussion -- or in his direct appeal, because Hrones
was representing the defendant at the time and appears, based on
his testimony and the motion judge's supplementary findings, to
have kept the defendant in the dark.

This issue could and

should have been raised and resolved with the defendant at
trial, but the fault here was defense counsel's and the court's,
and not the defendant's.
We do consider, however, that the defendant did not raise
this issue in his first motion for a new trial even though he

30a

31
could have done so, as he had the transcript documenting the
constitutional violation.

As the motion judge found,

"[c]ertainly, in or about 1989, when the defendant reviewed a
copy of the transcript of the proceedings in the Superior Court
in connection with his pro se motion for a new trial, he would
have read the transcript of the sidebar colloquy in which the
court specifically stated that Mr. Hrones could represent the
defendant pro bono but would not be appointed and could not
apply for funds."9

The transcript would have also indicated to

the defendant that Hrones was not on the list of counsel
approved to be appointed to try murder cases, but had still been
allowed to represent the defendant in such a case.
We also consider that public counsel screened this case in
1992-1993 and 2000 without bringing a motion for a new trial,
and did not bring such a motion until 2015.
time period, the transcript was available.

All throughout this
As the motion judge

found, the transcript was also in the defendant's possession,
and it was available to CPCS.
Although it may not have been clear in 1991 that this was
structural error, as Gonzalez-Lopez was not decided until 2006,
it was obvious that it was error.

It was an abuse of the

However, the motion judge also found that "this issue
would not have been a noteworthy matter to the defendant in
1982" because he did not understand the difference between pro
bono private counsel and appointed public counsel.
9

31a

32
appointment process because Hrones was not on the list of
approved counsel.
Court.

See Rule 53(1) of the Rules of the Superior

It was a violation of the defendant's right to choose

between appointed counsel and a lawyer who had offered his
services for free, Caplin & Drysdale, 491 U.S. at 624-625;
Wheat, 486 U.S. at 162-164, and a violation of the defendant's
right to be informed of his choice.

One need not have been

clairvoyant in 1991, as Justice Lenk's opinion concurring in
part and dissenting in part suggests, to recognize this was
error.10

It may not have been obvious that it was structural

error, but it was obviously improper.

At a minimum, the

transcript should have raised questions for public counsel
regarding how Hrones could have been appointed when he had not
been on the list of attorneys approved to be appointed in murder
cases, without at least a colloquy with the defendant.11
"[I]n the case of a structural error where there is an
objection at trial and the issue is raised on direct appeal, the

As we discuss infra, this case does not warrant
application of the clairvoyance exception, as the error here was
identifiable, and the right to choose counsel one believes to be
best was already established when the defendant reviewed his
arraignment transcript and filed his first motion for a new
trial in 1991. See, e.g., Caplin & Drysdale, Chartered v.
United States, 491 U.S. 617, 624-625 (1989) (Caplin & Drysdale).
10

As noted supra, such colloquy occurred in 1974 when
Hrones did the same thing in another case, Commonwealth vs.
Lacy. The judge in that case clearly and correctly identified
the problem.
11

32a

33
defendant generally is entitled to 'automatic reversal'
regardless of the error's actual 'effect on the outcome.'"
Weaver, 137 S. Ct. at 1910, quoting Neder, 527 U.S. at 7.
Notwithstanding the importance of the rights preserved, however,
structural rights can be procedurally waived.

Robinson, 480

Mass. at 150; Jackson, 471 Mass. at 269; Commonwealth v. Wall,
469 Mass. 652, 673 (2014).
In a series of structural error cases involving public
trial violations, we have found that those errors were waived
when the issue was not raised at trial, on direct appeal, or in
the first motion for a new trial.

See Robinson, 480 Mass. at

150; Commonwealth v. Celester, 473 Mass. 553, 577-578 (2016);
Jackson, 471 Mass. at 269; Wall, 469 Mass. at 673.

See also

Weaver, 137 S. Ct. at 1907, 1913 (no reversal despite structural
error later raised in motion for new trial claiming ineffective
assistance of counsel, where defendant failed to demonstrate
prejudice).

We stressed the importance of the passage of time

in these cases.

See Robinson, supra at 152 ("Cases noting that

a defendant . . . failed to raise the claim in his or her first
motion for a new trial or on direct appeal only serve to
emphasize the egregiousness of the defendant's delay in raising
the claim -- like here, where the defendant first raised the
issue approximately thirteen years after his convictions").

See

also Weaver, supra at 1912 ("if a new trial is ordered on direct

33a

34
review, there may be a reasonable chance that not too much time
will have elapsed for witness memories still to be accurate").
We have also found these errors waived even where the defendant
was not aware of the violation at trial.

See Robinson, supra at

152-153; Jackson, supra at 269; Wall, supra at 672-673.
In the instant case, we conclude that there was a waiver.
Between 1982, when the case was tried, and 2015, when the second
motion for a new trial was filed, this issue was not raised by
the defendant or defense counsel despite the available
transcript.

As demonstrated by the fine work done on the second

motion for a new trial in 2015, the issue could and should have
been identified and raised more than two or three decades
earlier.

As demonstrated by a 1974 arraignment in another case

-- Commonwealth vs. Lacy, see note 7, supra -- the need at least
for a colloquy in these circumstances was clear in that era as
well as ours.
This great passage of time has huge consequences.

Even if

witnesses have not died or disappeared, their memories have
certainly dissipated.

See Weaver, 137 S. Ct. at 1912 (when

appellate courts adjudicate preserved errors raised on direct
appeal, "the systemic costs of remedying the error are
diminished to some extent . . . because, if a new trial is
ordered on direct review, there may be a reasonable chance that
not too much time will have elapsed for witness memories still

34a

35
to be accurate and physical evidence not to be lost").

When the

documentation for challenging a conviction is in the hands of
the defendant or the defense team for decades, but no claim is
brought, important concerns about judicial efficiency, the
finality of judgments, public confidence in the judicial system,
and the renewal of trauma for victims are implicated.

See

Commonwealth v. Morganti, 467 Mass. 96, 102-103, cert. denied,
574 U.S. 933 (2014).

"To conclude otherwise would tear the

fabric of our well-established waiver jurisprudence that 'a
defendant must raise a claim of error at the first available
opportunity.'"

Id., quoting Randolph, 438 Mass. at 294.

See

Commonwealth v. LaChance, 469 Mass. 854, 858 (2014), cert.
denied, 136 S. Ct. 317 (2015) (discussing need to raise claims
as soon as possible to serve "the core purposes of the waiver
doctrine:

to protect society's interest in the finality of its

judicial decisions, and to promote judicial efficiency").

In

sum, in these circumstances, the defendant waived his right to
raise these claims.

The claim of error here was certainly not

raised at the first available opportunity.
Given this waiver, we review the defendant's constitutional
claims for a substantial risk of a miscarriage of justice.
Robinson, 480 Mass. at 147 & n.3.

See

We have interpreted this

standard, as we must, to be no less protective than the United
States Supreme Court standard of review in Weaver.

35a

See

36
Robinson, supra at 147 n.3.

See also Weaver, 137 S. Ct. at 1913

("In sum, petitioner has not shown a reasonable probability of a
different outcome but for counsel's failure to object, and he
has not shown that counsel's shortcomings led to a fundamentally
unfair trial"); Smith, 460 Mass. at 396 (in determining whether
there is substantial risk of miscarriage of justice, "we
consider the strength of the Commonwealth's case against the
defendant . . . , the nature of the error, [and] whether the
error is sufficiently significant in the context of the trial to
make plausible an inference that the [jury's] result might have
been otherwise but for the error" [quotation and citation
omitted]); Randolph, 438 Mass. at 297-298 ("In analyzing a claim
under the substantial risk standard, '[w]e review the evidence
and the case as a whole,' and ask a series of four questions:
[1] Was there error?
error?

[2] Was the defendant prejudiced by the

[3] Considering the error in the context of the entire

trial, would it be reasonable to conclude that the error
materially influenced the verdict?

[4] May we infer from the

record that counsel's failure to object or raise a claim of
error at an earlier date was not a reasonable tactical decision?
Only if the answer to all four questions is 'yes' may we grant
relief" [citations omitted]).
In the instant case, it was not reasonable to conclude that
the error materially influenced the verdict or that a

36a

37
fundamentally unfair trial took place.
at 1913; Randolph, 438 Mass. at 297-298.

See Weaver, 137 S. Ct.
Hrones, an experienced

criminal defense lawyer who had previously tried four or five
cases of murder in the first degree pro bono, performed capably:
no issue of ineffective assistance of counsel has been raised in
this appeal, and none has previously been identified by this
court pursuant to its original G. L. c. 278, § 33E, review.
Most importantly, as this court stated in 1984, "[t]he
identification by the eyewitness Smith of the defendant as the
victim's pursuer, when coupled with the evidence of the
defendant's and the victim's prior relationship, its subsequent
dissolution, and the threats made by the defendant to the victim
prior to her death, amply supports the jury's conclusion that
the defendant was guilty of murder in the first degree."
Francis, 391 Mass. at 375-376.

We therefore discern no

substantial risk of a miscarriage of justice under our case law,
nor a probability of a different outcome or fundamental
unfairness as defined by the Supreme Court.
f.

Issues raised in the opinions concurring in part and

dissenting in part.

Chief Justice Gants's opinion concurring in

part and dissenting in part mistakenly concludes that the issue
is not waived here.

To do so, it mischaracterizes the motion

judge's findings and this court's analysis; ignores this court's
landmark decision in Randolph, 438 Mass. 290, which clarifies

37a

38
that a waiver is not an all-or-nothing proposition, but rather
one that shifts the focus to a substantial risk of a miscarriage
of justice; and turns the logic of our public trial cases on its
head, including our most recent pronouncement of the law in
Robinson, 480 Mass. 146.
Similarly, the opinion by Justice Lenk mistakenly reasons
that the "clairvoyance exception" applies, thus foreclosing
waiver of the defendant's structural error claim.

The error

here was obvious at the time of the defendant's arraignment,
even if it was not clear that the error was structural until the
Supreme Court issued its opinion in Gonzalez-Lopez.12

Her

opinion also ignores clear precedent establishing that
structural errors can be procedurally waived just like any other
constitutional error, and that "the term 'structural error'

The opinion by Justice Lenk also claims that there is no
case law that identifies a choice of counsel for indigent
defendants, or that even identified the right to counsel of
choice as a constitutional right before the Supreme Court's
opinion in Gonzalez-Lopez. However, the Court in Gonzalez-Lopez
drew upon prior case law that identified such a right, even if
that right has been circumscribed. See Gonzalez-Lopez, 548 U.S.
at 144; Caplin & Drysdale, 491 U.S. at 624-625; Wheat, 486 U.S.
at 159. Further, the Court in Caplin & Drysdale identified the
defendant's right to counsel he can afford to hire, including
pro bono counsel offering services for free, clearly
establishing a defendant's right to choice of counsel before the
defendant filed his first motion for a new trial in 1991. See
Caplin & Drysdale, supra ("the Sixth Amendment guarantees a
defendant the right to be represented by an otherwise qualified
attorney whom that defendant can afford to hire, or who is
willing to represent the defendant even though he is without
funds").
12

38a

39
carries with it no talismanic significance as a doctrinal
matter."

Weaver, 137 S. Ct. at 1910.

By so doing, her opinion

collapses the categories of structural error identified in
Weaver, and assumes there will always be a presumption of
prejudice when a structural error is raised, even when
subsequent motions have failed to raise the issue over the
course of more than thirty years since the error took place.
We will address these errors in turn.

The first is the

argument that the judge exercised his discretion to resurrect
the waived argument, which is flawed factually and legally.
begin with, it relies on cases predating Randolph.

To

Before

Randolph, there was a great need to resurrect waived claims to
avoid a substantial risk of a miscarriage of justice, as waived
claims were essentially unappealable.

Commonwealth v. Layne,

386 Mass. 291, 297 (1982) (by declining to permit defendant to
assert waived claims, judge "effectively den[ies] the defendant
appellate review of the merits of those claims").

Thus, to

avoid a substantial risk of a miscarriage of justice, a motion
judge would need to resurrect the claim.

Id.

In Randolph,

however, we made clear that we always review even waived claims
for a substantial risk of a miscarriage of justice.
Randolph, 438 Mass. at 294-295.

See

See also Robinson, 480 Mass. at

147.

39a

40
Even without this necessary context, Chief Justice Gants's
analysis of pre-Randolph resurrection law is incorrectly applied
here.

The conclusion that the motion judge resurrected the

claim is wrong both as a matter of fact and law.

For a judge to

permit a waived claim in a subsequent motion, he or she must
"indicate in some affirmative manner that [he or she] is
permitting the argument to be raised."

Layne, 386 Mass. at 297

(finding judge below did not permit waived argument to be raised
even though he listened and responded to argument on merits at
motion hearing).

There was, however, no affirmative indication

by the motion judge that he was permitting the waived argument
to be resurrected in this case.
Instead, the motion judge found that the defendant did not
have any constitutional right to waive in the first place.
specifically, the judge stated:

More

"the court does not find that a

failure to conduct . . . a colloquy results in some manner of
structural error as the defendant suggests, since the court
finds no constitutional right to court appointed counsel that
the defendant has unwittingly waived" (emphasis added).

If the

judge made any finding whatsoever about waiver, it was that
there was an unwitting waiver.

He certainly did not

affirmatively state that he was resurrecting a waived claim.
Even more confusing is the Chief Justice's analysis of our
decision and our more recent case law.

40a

This case law has, as

41
explained supra, emphasized the purpose and importance of
raising a claim as soon as possible in any context so it can be
corrected at the earliest possible moment.
Mass. at 150-151.

See Robinson, 480

See also LaChance, 469 Mass. at 856-858

(holding defendant procedurally waived his Sixth Amendment
public trial claim by not raising it at trial, but reviewing
error in postconviction context of claim of ineffective
assistance of counsel); Wall, 469 Mass. at 672-673 (upholding
finding of waiver where defendant first raised violation of
right to public trial in second motion for new trial); Randolph,
438 Mass. at 294 (requirement for defendant to raise claim of
error at first available opportunity "serves a dual purpose:

it

protects society's interest in the finality of its judicial
decisions, and promotes judicial efficiency" [citations
omitted]).
The passage of time necessarily affects this interest,
particularly when the result would be a new trial requiring
accurate witness memories and intact physical evidence.

See

Weaver, 137 S. Ct. at 1912; Robinson, 480 Mass. at 151-152.

We

have stressed the importance of contemporaneous objections in
the public trial cases discussed supra, even as we recognize
that the defendant and counsel may not be at fault or have even
known the error took place at all, but have nevertheless waived
their claims.

See, e.g., Robinson, supra at 146-147; Jackson,

41a

42
471 Mass. at 268-269.

In these cases, we found waiver absent a

contemporaneous objection at trial, even when court personnel
were at fault and the defendant and defense counsel were unaware
of the closure.
In this case, the defendant had the opportunity to review
the arraignment transcripts -- yet did not raise the present
issue in his first motion for a new trial.

It was at that point

that the error could and should have been first raised so that
it could have been quickly addressed and corrected if the
defendant had wanted different counsel.

As the issue would not

have been waived at this point, it likely would have culminated
in a relatively timely new trial.

Even if we spare the

defendant the rigors of the requirements of the case law that
hold him to the same standards as counsel, see Maza v.
Commonwealth, 423 Mass. 1006, 1006 (1996); Mmoe v. Commonwealth,
393 Mass. 617, 620 (1985), his failure to raise the issue in his
first motion for a new trial is important to consider in our
waiver analysis, and is not irrelevant, as it resulted in the
passage of more time and made retrial more difficult.

We have

made that point repeatedly in the public trial context, even
where the waivers occur inadvertently.
Of course, we do not rely on the defendant's conduct alone
in finding a waiver.

We also consider the case's long history

with CPCS, and the availability of the transcript revealing the

42a

43
problem with Hrones's appointment for decades.

This is not, we

emphasize, a case where the prosecution concealed evidence from
the defendant, see Commonwealth v. Healy, 438 Mass. 672, 677-678
(2003) (relied on by Chief Justice Gants's opinion, post
at

), or where the evidence was unavailable.

The evidence

establishing the constitutional violation was in the hands of
the defendant and available to defense counsel for decades.
Although CPCS screening is different from CPCS review once
CPCS has accepted a case, it is not irrelevant or unreasonable
to consider those screenings in the over-all calculation whether
a waiver has occurred, as the opinions concurring in part and
dissenting in part suggest.
private counsel.

CPCS is not the equivalent of

Rather, it alone controls the public counsel

appointment process, and ultimately decides whether a case will
be taken and, as a result, whether an issue will then be raised
for the court.

Deputy Chief Counsel for the Pub. Defender Div.

of the Comm. for Pub. Counsel Servs. v. Acting First Justice of
the Lowell Div. of the Dist. Court Dep't, 477 Mass. 178, 179
(2017) ("CPCS has the sole authority under G. L. c. 211D for the
assignment of counsel to indigent criminal defendants . . .").
This is a significant responsibility that entails the
identification of legal issues during the screening process, and
is not comparable to private counsel's decision to take a case.
Additionally, CPCS screening contributes to delay, and delay is

43a

44
a significant factor as it makes it more and more difficult to
retry the case with each passing year.

As explained supra, CPCS

did not raise the present claim until 2015.

Given the existence

and availability of the transcript throughout the time period at
issue of more than thirty years, and the failure of the
defendant or CPCS to raise the issue at any point in that time,
we consider it appropriate to conclude that the choice-ofcounsel issue has been waived.

It was certainly not raised at

the first available opportunity as our cases emphasize and
require.

Morganti, 467 Mass. at 102-103.

Our public trial waiver case law clearly compels that
result.

The attempts by Chief Justice Gants and Justice Lenk to

distinguish that case law are unavailing.

They ignore the core

logic of a long line of our decisions stressing the importance
of bringing an error to the attention of the court as soon as
possible to correct the problem.

See, e.g., Robinson, 480 Mass.

at 150-151; LaChance, 469 Mass. at 858; Morganti, 467 Mass. at
102-103.

They also turn the logic of our public trial

jurisprudence on its head.

There, as discussed supra, we

stressed the need for a contemporaneous objection, even when the
fault is the court's alone, and not the fault of the defendant
or defense counsel, who were unaware of the violation.

Chief

Justice Gants's and Justice Lenk's opinions both rest on the
assumption that the current situation is different and that

44a

45
these cases are completely inapplicable because the defendant
was unaware of the violation at arraignment and could not have
made a contemporaneous objection.

In both this context and in

our public trial cases, we still apply our waiver analysis and
emphasize the need to raise the issue as soon as possible, even
where the defendant was unaware of the problem at trial and not
at fault.

See, e.g., Robinson, supra at 146-147; Jackson, 471

Mass. at 268-269.
Recognizing the stringency of that case law, in the instant
case, we have not relied simply on the defendant's failure to
raise the issue at trial or in his first motion for a new trial,
but have also considered the multiple opportunities counsel had
to correct the problem before deciding there was a waiver.

We

have relied in particular on the availability of the evidence to
the defendant and defense counsel for decades prior to any
motion being filed to correct the error.
Nor is the defendant saved by the clairvoyance exception to
our waiver doctrine.

Under the clairvoyance exception, if a

constitutional theory on which the defendant relies was not
sufficiently developed at the time the defendant should have
raised it at trial or on appeal, the defendant did not have a
genuine opportunity to raise the claim, and the reviewing court
must treat that claim as if it has been properly preserved.

See

Randolph, 438 Mass. at 295; Commonwealth v. Rembiszewski, 391

45a

46
Mass. 123, 126 (1984).

However, this theory applies in cases

where constitutional rights have not yet been defined or
clarified.

See, e.g., Rembiszewski, supra at 126-128 (allowing

challenge to reasonable doubt instruction where case was argued
at time when there was no foreshadowing of governing rule
prohibiting examples of events from jurors' lives); DeJoinville
v. Commonwealth, 381 Mass. 246, 247, 248-251 (1980) (jury
instruction that every man is presumed to have intended natural
or probable consequences of his voluntary acts and in absence of
evidence to contrary he intended such consequences was not yet
deemed unconstitutional at time it had been given, and could be
reviewed on appeal as if properly preserved).
The case before us does not warrant application of the
clairvoyance exception.

In 1991, there was no unsettled law

that later created or clarified a new constitutional right for
the defendant; instead, the error here was identifiable and
could have been brought at least as a matter of ineffective
assistance.

Supreme Court precedent identified a right to

choose counsel well before the Court issued Gonzalez-Lopez, and
the Court drew upon that precedent when characterizing a
violation of the right to choose counsel as a structural error
in Gonzalez-Lopez.

In Wheat, 486 U.S. 153, the Supreme Court

emphasized the Sixth Amendment presumption in favor of counsel
of choice that may only be overcome by a showing of a serious

46a

47
potential for a conflict of interest.

Id. at 164 (concluding

there was serious potential for conflict of interest that
rebutted presumption in favor of counsel of choice).

In Caplin

& Drysdale, 491 U.S. 617, the Supreme Court emphasized that,
pursuant to the Sixth Amendment, the defendant has the right to
be represented by an attorney he or she can afford to hire,
including counsel, like Hrones, offering his services for free,
thus establishing the right of the defendant to choose the
counsel he considers best.
548 U.S. at 144, 146.

Id. at 624-625.

See Gonzalez-Lopez,

Both of these cases were decided before

1991.
Even without this governing case law, the inequity of the
court's error here was obvious to anyone who reviewed the
arraignment transcript.

The defendant himself testified that he

would not have agreed to proceed to trial with Hrones if he had
known Hrones was not getting paid and was not on the list of
counsel qualified to be court-appointed attorneys in murder
cases.

This is not the type of unclear error that implicates

the clairvoyance exception, as Justice Lenk argues in her
opinion, but is one that could have reasonably been uncovered
upon a review of the arraignment transcript.13

Just because the

A review of the arraignment transcript would also have at
least alerted the reader to the fact that the defendant was not
privy to important information concerning his case, which
violated his well-established right to be present during
13

47a

48
consequences of the particular error were not clear, i.e., that
it automatically warranted a new trial because it was structural
error, does not mean that the error itself was too obscure to
recognize and raise in a motion for a new trial in a timely
fashion.
Further, the opinion authored by Justice Lenk ignores that
structural errors can be procedurally waived just like any other
constitutional error.

It confuses the Court's holding in

Weaver, which appreciated the difficulty of gauging the effects
of structural errors while also stating that, once waived, only
a structural error that results in fundamental unfairness will
create a presumption of prejudice if brought as an ineffective
assistance of counsel claim.

Weaver, 137 S. Ct. at 1908-1910.

Justice Lenk's opinion ignores Weaver's holding that only a
structural error that results in fundamental unfairness creates
a presumption of prejudice, and instead essentially adopts the
approach set out in Justice Breyer's dissenting opinion in
Weaver.

See id. at 1917 (Breyer, J., dissenting).

critical stages of the proceedings. See Commonwealth v. Colon,
482 Mass. 162, 172-173 (2019) ("[c]ounsel's presence at sidebar
and intention to relay information to a defendant does not
substitute for the defendant's presence" during critical stage
of proceedings); Commonwealth v. Robichaud, 358 Mass. 300, 303
(1970) (presence of counsel insufficient to remedy absence of
defendant during critical stage of proceedings). This issue was
not raised until the defendant filed his second motion for a new
trial.

48a

49
The majority in Weaver clearly rejected this approach.

Id.

at 1910-1913 (distinguishing between different types of
structural errors and recognizing that there is category of
structural error that, once waived, is not presumed to be
prejudicial and requires "show[ing] a reasonable probability of
a different outcome but for" error or that error "led to a
fundamentally unfair trial").
In sum, in deciding that there is waiver here, we cannot
ignore that the defendant had the transcript depicting the error
and that the issue was not raised for more than thirty years.
We recognize, as does the Supreme Court, that the passage of
time, particularly the great passage of time, matters.

See

Weaver, 137 S. Ct. at 1912; Robinson, 480 Mass. at 152.

Of

course, we still review to determine whether there is a
substantial risk of a miscarriage of justice, but there is none
in the instant case.

The defendant was capably represented at

trial with no error being identified apart from the appointment
of Hrones himself.

This kind of structural error, as explained

supra, is a peculiar type with subtle effects.

Those subtle

effects, as we have explained, do not amount to a substantial
risk of a miscarriage of justice, and they certainly do not
require the retrial and release of this defendant where the
evidence, as this court previously found, proved beyond a

49a

50
reasonable doubt that he chased down and killed his exgirlfriend in a premeditated act of vengeance.
3.

Conclusion.

The trial court violated the defendant's

right to choice of counsel and to be present for a critical
stage in his proceeding.

However, these errors, although

structural, were waived by the defendant in this case.

In

reviewing the waived claims, we also discern neither a
substantial risk of a miscarriage of justice nor a probability
of a different outcome or fundamental unfairness.

The denial of

the second motion for a new trial is therefore affirmed.
So ordered.

50a

GANTS, C.J. (concurring in part and dissenting in part,
with whom Budd, J., joins).

I agree with the court that "the

defendant's right to choice of private counsel and right to be
present during a critical stage of the proceedings under both
the Federal and State Constitutions were violated," in this
case, and that "these violations of his constitutional rights
are structural errors requiring automatic reversal absent
waiver."

Ante at

.

I dissent because, in my view, the court

errs in holding that the defendant waived the violations of
these essential rights by not presenting them sooner than he
did.
The court refers on multiple occasions to the passage of a
significant amount of time from the defendant's arraignment in
January 1982, when attorney Stephen Hrones began representing
him, until September 2015 when, in a motion for a new trial, the
defendant first raised his challenge to Hrones's representation.
The passage of so much time appears to be a primary concern for
the court and its principal reason for finding a waiver.

The

mere passage of time, however, even a lengthy period of time,
does not amount to a waiver.

As the court noted in Commonwealth

v. Francis, 411 Mass. 579, 585 (1992), where the defendant
brought a motion for a new trial twenty years after we affirmed
his conviction of murder in the first degree, Mass. R. Crim. P.
30 (b), as appearing in 435 Mass. 1501 (2001), "provides that a

51a

2
trial judge may grant a defendant's postconviction motion for a
new trial 'at any time.'"

The court added:

"Furthermore, the history of rule 30 (b) also suggests that
delay does not constitute a waiver of the right to bring a
new trial motion. Rule 30 (b) is derived directly from the
former G. L. c. 278, § 29. Prior to 1964, G. L. c. 278,
§ 29, expressly imposed a one year time limitation after
which a Superior Court judge could not grant a defendant's
request for a new trial. In 1964, the Legislature repealed
this time limitation, amending § 29 to allow new trial
motions to be granted 'at any time, upon motion in writing
of the defendant.'" (Citations omitted.)
Id. at 585-586.

The court definitively declared, "[i]n light of

the history and language of rule 30 (a), (b), we conclude that a
defendant's delay in bringing a rule 30 motion does not in
itself constitute waiver."

Id. at 586.

Here, as in Francis, supra, there is no evidence that the
defendant intentionally delayed in bringing his claim in order
to gain some strategic advantage, so we need not consider what
would happen if that were so; indeed, the Commonwealth does not
even press such an argument here.
I agree, of course, that a defendant can waive a claim,
even a claim of structural error, if he fails to object to the
error at or before trial despite having an opportunity to do so,
or by not including the claim in a motion for a new trial when,
at the time he files his motion, the claim is reasonably
available to him.

I therefore turn to these specific points to

examine whether a waiver occurred on the facts of this case.

52a

3
The court acknowledges that the defendant did not waive the
structural errors in this case by failing to object to Hrones's
representation of him at the time of arraignment or before
trial.

See ante at

.

I agree.

As the court notes, the

defendant was not present at the sidebar discussion where the
arraignment judge allowed Hrones to represent him pro bono
without his knowledge or consent.

Moreover, Hrones represented

the defendant throughout the trial, so it would not be realistic
to expect Hrones, on the defendant's behalf, to object at trial
to his own conduct.

Therefore, this is not among the type of

cases where we have found that a defendant waived a structural
error by failing to make a contemporaneous objection when the
error occurred, thereby depriving the judge of an opportunity to
correct the error or to explain the judge's reasons for so
ruling.

See, e.g., Commonwealth v. Robinson, 480 Mass. 146, 151

(2018), quoting Weaver v. Massachusetts, 137 S. Ct. 1899, 1912
(2017) ("A contemporaneous objection [to closure of a court
room] is indispensable for purposes of preserving the claimed
error on appeal because when the alleged error is raised
contemporaneously with the closure, 'the trial court can either
order the court room opened or explain the reasons for keeping
it closed'").
The court also correctly recognizes that the defendant did
not waive these structural errors by failing to raise them in

53a

4
his direct appeal, because, again, Hrones was his attorney for
the appeal.

It is not reasonable to expect Hrones to have

argued on appeal that his own conduct was error, especially
automatically reversible structural error.

Compare Commonwealth

v. Azar, 435 Mass. 675, 686 (2002) ("In cases like this, where
the same attorney represents a defendant both at trial and on
appeal, a claim of ineffective assistance of counsel is not
waived when it is raised for the first time in a postappeal new
trial motion"); Commonwealth v. Lanoue, 409 Mass. 1, 3-4 (1990)
("It would be unrealistic to expect Lanoue's first attorney to
have raised a claim calling his own competence into question").
I disagree with the court that the defendant waived his
claim of structural error when staff attorneys at the Committee
for Public Counsel Services (CPCS), in deciding whether to
assign counsel to represent him to seek a new trial in 1992-1993
and 2000, apparently failed to identify this issue and did not
cause CPCS to file an appearance on his behalf at those times.
This clearly cannot constitute a basis to find waiver.

CPCS

staff counsel, when screening the defendant's case in 1992-1993
and 2000, were deciding whether CPCS would represent him; they
did not represent him at the time they conducted the screening,
and their failure to spot and raise this issue cannot reasonably
be held against him.

It would be unreasonable to have, and

highly impractical to administer, a rule saying that a defendant

54a

5
waives a claim because an attorney reviewed the file in his case
but ultimately decided not to represent him.

It would be

equally unreasonable and impractical to, as the court suggests,
invent a new and distinct ground for waiver applicable to CPCS
alone.

By concluding that CPCS's failure to spot a

constitutional issue during its screening process may result in
a waiver of that constitutional issue, the court imposes on CPCS
an unjustified and profound dilemma in deploying its limited
screening resources -- either conduct a comprehensive screening
review or risk waiver of an issue its screeners failed to spot.
And this case illustrates just how comprehensive that screening
review would need to be, because this error would not have been
spotted even if the screeners read every page of the trial
transcript.

It would be spotted only if they read the

transcript of the arraignment.1

In short, we have never rested a

finding of waiver on this ground, the court cites no authority
for doing so, and it would be wholly unreasonable to do so here.

Moreover, the court's holding that the defendant's rights
under the Sixth Amendment to the United States Constitution were
violated here leans heavily on United States v. Gonzalez-Lopez,
548 U.S. 140, 148 (2006), where the Supreme Court declared that
"[d]eprivation of the right [to private counsel of one's choice]
is 'complete' when the defendant is erroneously prevented from
being represented by the lawyer he wants, regardless of the
quality of the representation he received." The constitutional
error found here might not have been as obvious before the
decision in Gonzalez-Lopez.
1

55a

6
Finally, I consider the defendant's failure to raise his
claim of structural error in the first motion for a new trial
that he filed pro se in 1991.

The court attributes significance

to this failure, but after careful analysis, I conclude that a
finding of waiver on this ground would be unwarranted and unjust
given the second motion judge's decision in 2018 not to find
waiver and the facts of this case as found by that motion judge.
Rule 30 (c) (2) of the Massachusetts Rules of Criminal
Procedure, as appearing in 435 Mass. 1501 (2001), provides that
a defendant must assert all grounds for relief in the "original
or amended motion" that he files under rule 30 (b).

"Any

grounds not so raised are waived unless the judge in the
exercise of discretion permits them to be raised in a subsequent
motion, or unless such grounds could not reasonably have been
raised in the original or amended motion."

Id.

Here, both of

the "unless" alternatives are satisfied.
The judge who decided the defendant's second motion for a
new trial found that four of the defendant's claims had been
waived under rule 30 (c) (2) because "all of these claims could
and should have been raised on direct appeal to the Supreme
Judicial Court, or in his previous motion for post-conviction
relief."

Significantly, the judge did not find that the

defendant's claim of structural error, at issue in this appeal,
had been waived.

Instead, the judge conducted an evidentiary

56a

7
hearing regarding this claim and decided it on the merits, with
written findings of fact and rulings of law.

Therefore, in the

exercise of discretion, he permitted the structural error claim
to be raised in the defendant's second motion for a new trial.
Moreover, the second motion judge's findings demonstrate
that the defendant could not reasonably have been expected to
raise these issues in his first motion for a new trial.

See,

e.g., Commonwealth v. Healy, 438 Mass. 672, 677-678 (2003) (no
waiver where issue was not known at time of appeal or prior
motions for new trial); Commonwealth v. Wooldridge, 19 Mass.
App. Ct. 162, 169-170 (1985) (no waiver where issue could not
reasonably have been raised in first motion).

When the

defendant brought his first motion for a new trial in 1991, he
had no right to have counsel appointed to assist him, because
his direct appeal had already been decided and his conviction
had been affirmed by this court.
388 Mass. 255, 261-264 (1983).

See Commonwealth v. Conceicao,
He therefore filed and pursued

this first motion pro se.
The motion judge on the second motion for a new trial found
that the defendant had received a transcript of the proceedings
in the Superior Court in or about 1989, which included the
sidebar discussion between the arraignment judge and Hrones (but
not the defendant) where the arraignment judge allowed Hrones to
represent the defendant pro bono.

57a

The motion judge found,

8
however, that the defendant would not have attached any
significance to the sidebar discussion between the arraignment
judge and Hrones, because "the defendant was totally unaware of
the significance of the distinction between being represented by
a court appointed lawyer or a private attorney appearing pro
bono, until his present post-conviction counsel developed the
Sixth Amendment argument presented in the pending motion and
explained it to him."
Given these findings, it was neither an abuse of discretion
nor an error of law for the second motion judge to conclude that
the defendant did not waive his claim of structural error by
failing to recognize and assert this novel, fairly subtle
constitutional issue in his first motion for a new trial.
Indeed, it is perfectly understandable and reasonable to
conclude that the defendant, without the benefit of counsel and
with no apparent legal training, could not at that time have
perceived, much less appreciated the significance of, an issue
such as this that eluded the trained attorneys at CPCS who later
reviewed the case and who initially decided not to assign CPCS
counsel to represent the defendant.

I therefore agree with the

motion judge that any waiver in failing to raise the issue in
the first motion for a new trial should be excused.2

The court contends that this analysis rests on the nowabandoned analysis of resurrection of a waived claim. It does
2

58a

9
The court appears to rest its finding of waiver on the
numerous cases where we concluded that a defendant waived a
structural error arising from the closure of a trial court room
during jury selection by failing to object, even where the
defendant and his counsel were not aware of the court room
closure.

See, e.g., Robinson, 480 Mass. at 153 ("[A] defendant

procedurally waives a court room closure claim by failing to
contemporaneously object to the closure, regardless of whether
the defendant or counsel was factually aware that the court room
was closed"); Commonwealth v. Jackson, 471 Mass. 262, 269
(2015), cert. denied, 136 S. Ct. 1158 (2016) (waiver occurs
regardless of defendant's or counsel's knowledge of court room
closure); Commonwealth v. Wall, 469 Mass. 652, 672-673 (2014)
(waiver can occur even where failure to timely object is
inadvertent).

Some of these cases noted that the defendants had

failed in their earlier motions for a new trial to raise the
claim that they were denied their right to public trial.

See,

e.g., Commonwealth v. Celester, 473 Mass. 553, 577 (2016) ("In
his second motion for a new trial, the defendant argued for the

not. Rather, it rests on the current language of Mass. R. Crim.
P. 30 (c) (2), as appearing in 435 Mass. 1501 (2001), which
declares that any grounds for relief not raised in the original
or amended motion for a new trial "are waived unless the judge
in the exercise of discretion permits them to be raised in a
subsequent motion, or unless such grounds could not reasonably
have been raised in the original or amended motion." As noted
supra, both these grounds were satisfied in this case.

59a

10
first time that his Sixth Amendment right to a public trial was
violated . . ."); Jackson, supra ("The issue also was not raised
in his first motion for a new trial that preceded sentencing");
Wall, supra at 673 ("[T]he defendant failed to raise the claim
in his first motion for new trial").
We made clear in the closed court room cases that the
determination whether a claim of structural error is preserved
or waived depends solely on whether the defendant raised a
contemporaneous objection at trial.

See Robinson, 480 Mass. at

151 ("[O]nly where a defendant raises a contemporaneous
objection to an improper court room closure at trial has this
court held that the defendant's claimed Sixth Amendment public
trial violation was preserved").

The importance of

contemporaneous objection, the court posited, is that it allows
for "the trial court . . . [to] either order the court room
opened or explain the reasons for keeping it closed."

Id.,

quoting Weaver, 137 S. Ct. at 1912.
"Absent a contemporaneous objection, it is immaterial when
or in what form the defendant later raises the claim in
postconviction proceedings."

Robinson, 480 Mass. at 152.

See

Commonwealth v. Kolenovic, 478 Mass. 189, 203 n.13 (2017)
("[T]he important distinction is not whether the claim was made
in the direct appeal or in the motion for new trial, but rather
whether the court room closure issue was preserved at trial").

60a

11
As we explained in Robinson, supra, "[c]ases noting that a
defendant also failed to raise the claim in his or her first
motion for a new trial or on direct appeal only serve to
emphasize the egregiousness of the defendant's delay in raising
the claim."

Where, as here, the court accepts that the

defendant's failure contemporaneously to object at the
arraignment or at trial does not permit a finding of waiver,
these precedents do not compel a finding of waiver.
"The purpose of the structural error doctrine is to ensure
insistence on certain basic, constitutional guarantees that
should define the framework of any criminal trial."
S. Ct. at 1907.

Weaver, 137

A finding of structural error is highly

significant and has great consequence; it means that "the
government is not entitled to deprive the defendant of a new
trial by showing that the error was 'harmless beyond a
reasonable doubt.'"

Id. at 1910, quoting Chapman v. California,

386 U.S. 18, 24 (1967).

Where we apply our waiver doctrine to

avoid that consequence, we must do so judiciously, lest we
undercut the very purpose of the structural error doctrine.
It is appropriate to find waiver where a defendant failed
to make a contemporaneous objection at trial that could have
prevented the error.

But in my view, it is not appropriate to

find waiver, as the court does here, where the defendant could
not have prevented the error at the arraignment, at trial, or in

61a

12
his direct appeal; where the defendant, without the right to or
benefit of counsel, failed to recognize this rather unique
constitutional claim, and therefore failed to raise it when he
filed his first motion for a new trial; where the claim was, for
all practical purposes, raised at the first opportunity, i.e.,
in the second motion for a new trial; where the second motion
judge himself did not find a waiver, but instead addressed the
defendant's claim at the time it was raised on the merits; and
where the second motion judge found that "the defendant was
totally unaware of the significance of the distinction between
being represented by a court appointed lawyer or a private
attorney appearing pro bono, until his present post-conviction
counsel developed the Sixth Amendment argument presented in the
pending motion and explained it to him."

Because I conclude

that the motion judge did not abuse his discretion or make an
error of law in deciding that the defendant did not waive the
structural error in this case, and because a finding of waiver
here would be unfair, would diminish the importance of the
structural error doctrine, and would unjustly allow a conviction
to stand that was tainted by structural error, I dissent.

62a

LENK, J. (concurring in part and dissenting in part).

I

agree with the court that the defendant's rights to choice of
counsel and to be present at critical stages of his trial were
violated in this case, and that these violations constituted
structural error.

See ante at

.

I also agree that a

defendant may waive a claim of structural error, like any other
claim, by failing diligently to pursue it.

I write separately

because I disagree with the court's conclusion that this
defendant procedurally waived his particular claims of
structural error.

Further, the court's analysis of waived

structural errors fails to capture the competing interests that
must be balanced when assessing constitutional violations that
undermine the fundamental fairness of a trial.
Like the court, I do not fault the defendant for failing to
raise his claims of structural error either at trial or on
direct appeal.

See ante at

.

At both stages, he was

represented by an attorney who had every incentive not to raise
these errors or to draw a judge's attention to their existence.
Nor is the defendant at fault for not having brought forward
these issues in his first motion for a new trial in 1991.
Although, ordinarily, a defendant waives a claim by failing to
raise it at the "first available opportunity," we long have
recognized exceptions to this general rule.
Randolph, 438 Mass. 290, 294 (2002).

63a

See Commonwealth v.

Relevant here is the

2
"clairvoyance exception," which "applies to errors of a
constitutional dimension 'when the constitutional theory on
which the defendant has relied was not sufficiently developed at
the time of trial or direct appeal to afford the defendant a
genuine opportunity to raise his claim at those junctures of the
case'" (emphasis added).

Id. at 295, quoting Commonwealth v.

Rembiszewski, 391 Mass. 123, 126 (1984).

While waiver does not

require "a holding on an issue squarely on point," the state of
the law must provide "sufficient guidance" that a defendant is
"fairly on notice" that he or she has a live issue (citations
omitted).

See Commonwealth v. Amirault, 424 Mass. 618, 643–644

(1997).
The clairvoyance exception clearly applied to the
defendant's first, pro se motion for a new trial.

Prior to the

court's decision today, we have never held that an indigent
defendant has a constitutional right to choose between two
options for appointed counsel:
paid by the Commonwealth.

pro bono counsel and counsel

Cf. Commonwealth v. Drolet, 337 Mass.

396, 400–401 (1958) ("The choice of counsel for an indigent
person is to be made by the court in its discretion").

Nor, for

that matter, has any other court of which I am aware.1

To

The court maintains that, at the time of the defendant's
trial, Superior Court judges were aware that defendants had a
constitutional right to choose between appointed and pro bono
counsel. In support of this assertion, the court points to
1

64a

3
support the conclusion that such a right exists, the court
relies primarily on the reasoning of a case decided by the
United States Supreme Court fifteen years after the defendant
filed his first motion for a new trial.
Gonzalez–Lopez, 548 U.S. 140 (2006).

See United States v.

In that decision, the

United States Supreme Court clarified that a defendant has a
right to choose counsel, independent of his or her right to a
fair trial, and that the "[d]eprivation of the right is
'complete' when the defendant is erroneously prevented from
being represented by the lawyer he wants, regardless of the
quality of the representation he received."

Id. at 148.

We

should not expect a defendant to have had the clairvoyance to
foresee this development of the law, nor the extension of that
logic that the court makes today.

Commonwealth vs. Lacy, a case in which a judge conducted a
colloquy with a defendant about his choice to proceed with a
specific attorney (Stephen Hrones), rather than counsel
appointed under the then-existing rules of criminal procedure.
See ante at note 7 &
. Of course, the mere fact that the
judge felt it necessary to inform that defendant of his right to
appointed counsel under the procedural rules does not mean that
the judge recognized the constitutional dimension of the
defendant's rights. A review of the transcript from that
colloquy shows that the judge did not address the constitutional
right we recognize today. Rather, as the judge who ruled on the
defendant's second motion for a new trial noted, "it is apparent
that the judge [in Commonwealth vs. Lacy] preferred that the
defendant accept a court appointed lawyer that the judge
recommended rather than Mr. Hrones, and the judge wanted the
record to be clear concerning his preferences and that Mr.
Hrones was not appointed and would not be paid."

65a

4
Rather than alerting the defendant that he had a viable
claim, the state of the law in 1991 suggested that the defendant
had no claim at all.

Where asserting an error at the time

"would have been futile, . . . we review the constitutional
error as though preserved."
350, 352 (2010).

Commonwealth v. Vasquez, 456 Mass.

This court's decisions at that time suggested

that indigent defendants had no say in the matter of appointed
counsel.

See Commonwealth v. Moran, 388 Mass. 655, 659 (1983)

("A defendant has no constitutional right to any particular
court-appointed counsel"); Drolet, 337 Mass. at 400–401 ("The
defendant need not accept court appointed counsel, but the
alternative is to be represented by himself, or such attorney as
he can hire"); Commonwealth v. Smith, 1 Mass. App. Ct. 545, 547–
548 (1973) ("an indigent defendant . . . is not entitled to his
choice of counsel").
Moreover, contrary to the court's view, Federal decisions
at the time were similarly discouraging.

See Caplin & Drysdale,

Chartered v. United States, 491 U.S. 617, 626 (1989) ("Whatever
the full extent of the . . . protection [under the Sixth
Amendment to the United States Constitution]

of one's right to

retain counsel of his choosing, that protection does not go
beyond the individual's right to spend his own money to obtain
the advice and assistance of . . . counsel"); Wheat v. United
States, 486 U.S. 153, 159 (1988) ("a defendant may not insist on

66a

5
representation by an attorney he cannot afford").2

Faced with

these precedents, it is not surprising that the defendant did
not pursue a seemingly impossible argument.
The subsequent appellate history of this case further
reflects the novelty of the constitutional right that the court
correctly recognizes today.

As the court notes, screening

attorneys for the Committee for Public Counsel Services (CPCS)
did not accept the defendant's case to press this issue through

The court suggests that, in both Caplin & Drysdale,
Chartered v. United States, 491 U.S. 617, 624-625 (1989), and
Wheat v. United States, 486 U.S. 153, 159 (1988), the United
States Supreme Court recognized the constitutional right to
choice of counsel that underlies the defendant's claim of
structural error. It did not. In Caplin & Drysdale, Chartered,
the Court acknowledged that a defendant has a constitutional
right to be represented by qualified counsel who volunteers his
or her services pro bono. See Caplin & Drysdale, Chartered,
supra. The Court did not, however, recognize an indigent
defendant's right to choose between volunteer counsel and
counsel appointed by a judge. See id. Cf. ante at
.
Indeed, the Court suggested that no such right existed:
2

"Petitioner does not, nor could it defensibly do so, assert
that impecunious defendants have a Sixth Amendment right to
choose their counsel. The Amendment guarantees defendants
in criminal cases the right to adequate representation, but
those who do not have the means to hire their own lawyers
have no cognizable complaint so long as they are adequately
represented by attorneys appointed by the courts."
Caplin & Drysdale, Chartered, supra at 624. Similarly, in
Wheat, the Court stated that a defendant has no right to an
attorney he or she cannot afford; it said nothing about a
defendant's right to a pro bono attorney. Wheat, supra.

67a

6
an appeal when they initially reviewed the defendant's case in
1992 through 1993, and again in 2000.

See ante at

.

If, as

the court suggests, the constitutional dimension of this error
had been apparent, it is seemingly inexplicable that CPCS did
not pursue this claim of automatically reversible error.
Moreover, when denying the defendant's second motion for a new
trial in 2018, the motion judge remarked, "the question of
whether an indigent defendant is entitled to a court appointed,
government compensated attorney, when a competent lawyer has
offered to represent the defendant without compensation is
certainly novel."

He went on to note that the defendant "cites

no case in support of either formulation of his claim, and the
court has not been able to find one."

As recently as 2018,

then, an experienced jurist treated the issue before us as
previously unexplored territory.
The court claims that, by concluding there was waiver here,
we merely would be holding the defendant to the same standards
as an attorney.

To the contrary, we would be holding the

defendant to a higher standard than the judge who oversaw his
arraignment, the screening attorneys at CPCS who twice reviewed
his case, and the Superior Court judge who denied his second
motion for a new trial.

I would not impose this unreasonably

high bar on any attorney, let alone a pro se defendant.

68a

7
I further disagree with the court that the defendant waived
his claim during the twenty-four years between his first and
second motions for a new trial.

The court focuses on the

supposed inaction of both the defendant and CPCS during that
time to justify its conclusion that a waiver occurred.

Over

those years, however, the defendant was not sitting idly on his
hands; rather, he was seeking representation for his appeal.

We

should not fault a defendant for waiting to learn if he would
receive the assistance of counsel, rather than forging ahead pro
se, especially after he already had attempted unsuccessfully to
do so.

Nor can we hold the defendant responsible for CPCS's

apparent decision not to raise this issue on appeal prior to
2015.

CPCS was not representing the defendant before any

court -- or indeed representing him at all -- until that time.
In any event, it was not until the Gonzalez-Lopez decision in
2006, six years after CPCS's second screening process took place
in 2000, that the legal foundation for the defendant's claim was
laid.
In determining that this delay caused procedural waiver,
the court also asserts that our "public trial waiver case law
clearly compels that result."

See ante at

.

Those decisions

do not control our analysis here, however, because they concern
a fundamentally different kind of constitutional error.

69a

8
When a closure of a court room occurs at trial, this error
is both easily recognized and easily remedied.

A defendant need

only look around and see that expected family or friends are
absent to know that something has gone wrong.

Moreover, for

many years, it was an open secret that certain court rooms in
the Commonwealth at least occasionally were closed during voir
dire, and therefore defense counsel were effectively on notice
that violation of the public trial right could occur.

See

Commonwealth v. Lang, 473 Mass. 1, 9 (2015) (Hines, J.,
concurring) ("experienced trial counsel was aware that the court
room was routinely closed to spectators during the jury
empanelment process and did not object at trial to the partial
closure"); Commonwealth v. Alebord, 467 Mass. 106, 113, cert.
denied, 573 U.S. 921 (2014) (accord).

At the moment such a

violation occurs, counsel has every incentive to bring the
closure to the judge's attention, so that the judge may correct
the issue or may make findings on the record as to why the
closure was warranted.
Here, however, the violation of the defendant's right to
choose counsel presents the opposite scenario.

Where a

defendant is excluded from a sidebar conversation at which the
court appoints counsel, the defendant has no way of knowing that
a critical stage of his or her trial is occurring.

Neither

counsel nor the judge, who are the architects of the error, have

70a

9
any incentive to rectify it.

As a result, a defendant is

unlikely to learn that his or her constitutional rights have
been violated until after the trial has concluded.

Indeed, in

this case, the very earliest that the defendant might have known
that his right to choice of counsel had been violated was when
he received the transcripts of his arraignment, while he was
incarcerated and preparing his direct appeal.
Our waiver doctrine with respect to court room closures has
developed to take account of both the obvious nature of that
error and the ease with which it can be rectified at trial.

It

is for those reasons that we require defendants either to raise
an objection contemporaneously or to waive it.

See Commonwealth

v. Robinson, 480 Mass. 146, 152 (2018) ("Absent a
contemporaneous objection, it is immaterial when or in what form
the defendant later raises the claim in postconviction
proceedings").

By applying that analysis to the radically

different structural error we confront today, the court ignores
the distinct characteristics of violations of public trial
rights that led us to develop that analysis in the first place.
"In the criminal justice system, the constant, indeed
unending, duty of the judiciary is to seek and to find the
proper balance between the necessity for fair and just trials
and the importance of finality of judgments."
Massachusetts, 137 S. Ct. 1899, 1913 (2017).

71a

Weaver v.
Granting the

10
defendant a new trial thirty-eight years after his conviction
undoubtedly would burden very significantly the "limited legal
and judicial resources" that our waiver doctrine is designed to
preserve.

See Commonwealth v. Pisa, 384 Mass. 362, 366 (1981).

This long passage of time, however, although an important factor
in our analysis, is not dispositive.

We must balance the

interest in finality against the "full realization of a
defendant's rights."

Amirault, 424 Mass. at 640–641.

The

defendant's rights were not fully recognized, let alone
realized, prior to our decision today, and the deprivation of
those rights pervaded his entire trial.

Accordingly, I conclude

that the defendant did not waive his claim of structural error.
Moreover, even where a claim of structural error is waived,
we still must consider whether that caused a substantial
likelihood of a miscarriage of justice.

The court's analysis of

prejudice stops short of assessing the full impact of the
violation of the right to counsel on the fundamental fairness of
the defendant's trial.
The court rightly acknowledges that, when considering
waived claims of structural error, our substantial risk of a
miscarriage of justice standard must "be no less protective than
the United States Supreme Court standard of review in Weaver."
See ante at

.

Under that standard, a defendant is entitled

to a new trial if he or she can establish "a reasonable

72a

11
probability of a different outcome" but for the structural
error, or that the error resulted in "a fundamentally unfair
trial."

See Weaver, 137 S. Ct. at 1913.

While recognizing the importance of the United States
Supreme Court's decision in Weaver, the court misapprehends its
teaching.

Although the court refers to the issue of fundamental

unfairness, its analysis ultimately turns on the impact that the
structural error had on the jury's verdict.
The problem with this approach is two-fold.

First, by

focusing solely on the impact of the error on the jury's
verdict, it fails to consider the nature of the right that was
violated.

Such "preoccupation with the outputs of criminal

processes stands in marked contrast with criminal procedure's
broader ethical vision, which encompasses a diverse array of
non-truth-furthering interests" (quotation and citation
omitted).

Murray, A Contextual Approach to Harmless Error

Review, 130 Harv. L. Rev. 1791, 1795 (2017).

Indeed, as the

United States Supreme Court noted in Weaver, 137 S. Ct. at 1908,
some errors, including deprivation of the right to choice of
counsel, are deemed structural in part because "harm is
irrelevant to the basis underlying the right."

Id., citing

Gonzalez–Lopez, 548 U.S. at 149 n.4.
Second, the court requires the defendant to demonstrate
that the trial he received was somehow worse than a trial with a

73a

12
different attorney that never happened.

This kind of

counterfactual analysis has been criticized as unworkable by the
United States Supreme Court.

See Gonzalez-Lopez, 548 U.S.

at 150 ("Harmless-error analysis in such a context would be a
speculative inquiry into what might have occurred in an
alternate universe").
Applying this analysis leads to an untenable result here.
The court concludes that "[t]his kind of structural error, as
explained supra, is a peculiar type with subtle effects.

Those

subtle effects, as we have explained, do not amount to a
substantial risk of a miscarriage of justice."

See ante at

.

The court thereby carves out a class of structural errors which,
for the very reason that they are considered structural, will
never result in a new trial once waived.

This truly "flips on

its head" the structural error doctrine, and the presumption of
prejudice that typically attaches to it.
Many structural errors could never meet the standard the
court sets today.

The right to conduct one's own defense, for

example, "usually increases the likelihood of a trial outcome
unfavorable to the defendant."

See Weaver, 137 S. Ct. at 1908,

quoting McKaskle v. Wiggins, 465 U.S. 168, 177 n.8 (1984).
Therefore, a defendant could never show that a deprivation of
this nonetheless essential right created a substantial risk of a
miscarriage of justice.

74a

13
To strike the proper balance that Weaver and our own
decisions require, our analysis of waived claims of structural
error must take into account not only the impact that the error
had on the outcome of the trial, but also its impact on the
administration of justice itself.

Since the decision in Weaver,

many courts have extended this analysis to a wide range of
structural errors.3

As those courts have discovered, giving due

consideration to whether a trial was rendered fundamentally
unfair does not require granting a new trial in every instance,
or even most instances.

See note 3, supra.

Indeed, it is far

from clear that this analysis would have required a new trial in
this case.

One thing, however, is clear:

if we continue to ask

See United States v. Thomas 750 Fed. Appx. 120, 128 (3d
Cir. 2018), cert. denied, 139 S. Ct. 1218 (2019) (freezing
assets pretrial such that right to put on defense was
curtailed); Pirela v. Horn, 710 Fed. Appx. 66, 82-83 (3d Cir.
2017), cert. denied, 139 S. Ct. 107 (2018) (waiver of jury
trial); United States vs. Resnick, U.S. Dist. Ct., No. 2:11 CR
68 (N.D. Ind. Dec. 19, 2019) (ineffective assistance of counsel
in connection with plea agreement); Garcia vs. Davis, U.S. Dist.
Ct., No. 7:16-CV-632 (S.D. Tex. Nov. 9, 2018) (right to choice
of counsel); Durden v. State, 99 N.E.3d 645, 655-656 (Ind. 2018)
(waiver of right to jury trial); Newton v. State, 455 Md. 341,
353-354, 361 (2017), cert. denied, 138 S. Ct. 665 (2018)
(permitting alternate juror to attend deliberations); State v.
Thaniel, 238 Md. App. 343, 367-368 (Ct. Spec. App. 2018), cert.
denied, 139 S. Ct. 2027 (2019) (focusing analysis on specific
harms that flowed from court room closure to determine whether
they "pervade[d] the whole trial" [citation omitted]); Miller v.
State, 548 S.W.3d 497, 500–501 (Tex. Crim. App. 2018) (noting
effect of error on outcome not dispositive); Matter of the
Personal Restraint of Salinas, 189 Wash. 2d 747, 763-765 (2018)
(court room closure).
3

75a

14
the wrong questions about waived claims of structural error, as
the court does here, we inevitably will give the wrong answers.
Accordingly, I respectfully dissent.

76a

77a

78a

79a

80a

81a

COMMONWEALTH OF MASSACHUSETTS
SUFFOLK, ss.

SUPERIOR COURT
SUCR1981-037342
COMMONWEALTH

KEVIN FRANCIS
FINDINGS OF FACT, RULINGS OF LAW, AND ORDER ON
DEFENDANT'S MOTION FOR DISMISSAL OF THE INDICTMENT PURSUANT TO
MASS. R. CRIM. P. 25(b}(2} OR IN THE ALTERNATIVE
A NEW TRIAL PURSUANT TO MASS. R. CRIM. P. 30(b)
On September 21, 1982, a Suffolk County jury convicted the defendant, Kevin Francis,
of first degree murder. On March 7, 1984, the Supreme Judicial Court affirmed the conviction.
See Commonwealth v. Francis, 391 Mass. 369,376 (1984) (Francis). On May 24, 1991, Francis
filed a pro se motion for a new trial that the trial judge (Travers, J.) denied without a hearing.
Twenty-two years later, on September 29, 2015, Francis filed a "Motion for Dismissal of
the Indictment Pursuant to Mass. R. Crim. P; 25(b)(2) or in the Alternative a New Trial Pursuant
to Mass. R. Crim. P. 30(b)." On June 2, 2016, the Commonwealth filed a written opposition to
th� motion. The parties subsequently filed various reply and supplemental memoranda. On
September 29, 2016, the court allowed the defendant's request for an evidentiary hearing on the
motion.
That hearing was held on January 11, 2018. Four witnesses testified: Judge Mark
Newman 1, who was the assistant district attorney who prosecuted the case on behalf of the .
Commonwealth; Attorney Stephen Hrones, who represent�d the defendant at trial and on direct
1

Currently Chief Justice of the Essex County Juvenile Court
-182a

appeal; Yvonne Johnson, who befriended the defendant in 1997, while he was incarcerated;
Robert Selevitch, a private investigator employed by CPCS who investigated certain aspects of
the defendant's current contentions in 2015; and the defendant. Thirteen exhibits were admitted
in evidence. In consideration of the parties' arguments, memoranda of law, supporting materials,
and the evidence offered at the January 11, 2018 hearing, for the reasons that follow, Francis'
motion is DENIED.

FINDINGS OF FACT
The material facts that could have been found by the jury based upon the evidence
presented at trial were summarized by the Supreme Judicial Court in Francis:
We summarize the relevant facts. On September 19, 1981, at approximately 7 :00 P .M.,
Terrence Smith, the eyewitness, was driving along Blue Hill Avenue toward Mattapan
Square, in Boston. It was drizzling slightly, but was starting to clear, and Smith was able
to see by natural light. He saw a young woman on the sidew�lk running toward him.
Although his vehicle was moving at approximately fifteen to twenty miles per hour, he
observed that the woman was carrying a stick and that she was wearing a "rain or shine"
jacket, new boots, and dungarees. Smith then saw a man running about forty or fifty
yards behind the woman. As the man drew closer, Smith noticed a knife in his hand.
Upon observing this, he slowed down his car. Although there is some dispute over his
precise actions at this point, Smith either stopped and opened the door of his automobile,
placing one foot on the ground, or he slowed down to better observe the scene in front of
him. The man then passed Smith, and continued to run along the sidewalk after the
woman. At trial, Smith testified that the man came within fifteen feet of him, such that it
was possible to get "a very good side view." Overall, Smith observed the man for a total
of eight to ten seconds.
About 7: 15 P.M. that evening the police received a call summoning them to the
Franklin Field area, and upon arrival they discovered the body of the victim, Vanessa
Marson. At trial, the medical examiner testified that the victim had died of multiple stab
wounds to her chest and skull.
On September 30, 1981, from an array of ten or twelve photographs submitted to
him by the police, Smith initially identified the defendant as being the man he observed
on the evening in question. The next day, he identified (by means of a photograph)
Vanessa Marson as "the girl that was running up the street." At trial, Smith again
identified the defendant as the man he saw running along Blue Hill Avenue with a knife.
-283a

The defendant was a fonner boyfriend of the victim, and the prosecution introduced
evidence that he had threatened the victim (who was since dating someone else) two
months before the murder occurred.
The defendant alleges that the prosecutor misstated the testimony of a defense
witness, James Stuckey, whose testimony was introduced to cast doubt on Smith's
credibility as an eyewitness. Stuckey, who was a friend of Smith, testified that Smith and
others were visiting him on September 20, 1981, the day after Smith had witnessed the
events on Blue Hill Avenue. During this visit, Stuckey received a telephone call from his
daughter. When he rejoined his guests, he told them that his daughter's girl friend had
been killed on Blue Hill Avenue. Smith then recounted his observations of the prior
evening.
In Smith's various recollections of the incident, both during his initial interview by
police and at trial, he maintained consistently that after seeing the pursuer's knife he
stopped his car and placed one foot on the ground outside the vehicle to gain a view
unrestricted by the interior of the car. He also stated that upon hearing about the murder
from Stuckey he related the same set of events. Stuckey, however, after repeated
questioning at trial, stated that Smith had told him that he only slowed down, but did not
stop, his car.
Francis, 391 Mass. at 370-371.
Certain other evidence introduced at trial will be described below.
The factual dispute2 on which the defendant's motion centers is whether a certain Boston
Police Department report was produced to the defendant during discovery, and, if it was not,
whether this substantially prejudiced the defendant. The report was dated September 21, 1981
and typed. It reads as follows:
About 10:00 PM, Monday 21 Sept a male called the terret and reported that the man who
killed the girl at Franklin field was one Greg Frazier (PS) Frazier was said to be from
NY and he came here some time ago after being involved in an incident where a police
officer was shot. The caller stated that Frazier works at Morgan Memorial.
This caller gave the name Vincent Powell and the phone No. 267-4452 (no longer in
service)
ID has no record of any Greg Frazier (under any spelling), only one V. Powell that is
Victor R. Powell of 497 Huntington Av., DOB 9-8-56
Cadet Paul Oconner took the call
S.Murphy
2

The defendant also makes a purely legal argument on which factual findings are
unnecessary.
-384a

The parties have referred to this report as the Murphy Report. The defendant contends that the
Murphy Report was not turned over during discovery; the Commonwealth maintains that it was.
Judge Newman was an assistant DA in Suffolk County from 1975 to 1984 and prosecuted
this case on behalf of the Commonwealth. He has some memory of the investigation of the case
and the trial, but no memory of any specific reports. During the time that he prosecuted this
matter, it was his practice to place all materials associated with cases to which he was assigned in
brown accordion folders with flaps which he purchased himself for that purpose. Such an
accordion folder was placed in evidence as Exhibit 1. The Commonwealth represented that this
is the case file for the defendant's case recovered from storage. Judge Newman testified that this
was the type of accordion file that he used, and it looked like the file for this case, but he could
not actually identify it as such. The court finds that Exhibit I is the prosecution's file in this
case, although it makes no finding concerning whether any documents were added or removed
from the file over the past 35 or so years.
Judge Newman further testified that he usually received police reports in homicide cases
from the homicide detective assigned to the investigation, but has no specific memory of what
happened in this case. Four copies of the Murphy Report are contained in different subfolders in
Exhibit I.
Judge Newman explained that it was also his practice to present a list of the materials
being turned over in discovery to defense counsel together with the discovery materials being
delivered. He called these lists "Discovery Receipts." He would have defense counsel sign the
Discovery Receipt to acknowledge receipt of the materials. The Francis file contains two such

-4-

85a

Discovery Receipts dated March 29, 1982 and July 12, 1982, respectively, each signed by
Attorney Hrones.
The first three items in the March 29, 1982 receipt are:
1. Report of Sgt. Detective Joe Kelley 9-21-81
2. Report ofDets. Spencer & McManus as to statement of William Twitty3
3. Report ofDets, Spencer & McManus as to Mar Clark's identification of deceased (921-81)
The tenth item in the July 12, 1982 receipt is:
10. Report typed 9-21-81
The Commonwealth points out that the three police reports specifically described in the
March 29th report can be matched to reports in Exhibit 1. The only other typed 9-21-81 report is
the Murphy Report. In consequence, unless item 10 in the July I 2th receipt is a duplicate of a
report turned over in March, and there is nothing to suggest that it is, item 10 refers to the
Murphy Report.
Attorney Hrones testified that he could no longer remember whether he had received the
Murphy Report dwing discovery. He, nonetheless, deduced that he had not because he did not
cross-examine any of the police witnesses concerning it. However, it is undisputed that the
Commonwealth turned over discovery regarding two other possible culprits identified by name
and physical description in an anonymous call to the police: William Twitty and Trio. William
Twitty was the deceased's boyfriend at the time of the murder, and �ones' defense focused on
Twitty as the more likely murderer. 4 Hrones called Twitty's boss as a witness at trial to attempt

3

This report has a September 21, 1981 date on it.
See, Hrones closing argument, e.g., "I suggest to you that Twitty should be the one in
this chair, not the defendant." Trial Transcript VI, 24-30.
4

-586a

to establish that Twitty was geographically close enough to have' gotten to the murder scene
during his break (ifhe had a car), had been arguing with his girlfriend, _and appeared nervous on
the day of the murder. Hrones, however, made no reference to Trio or the anonymous tip
regarding him and Twitty during the trial. In consequence, Hrones' failure to refer to the tip
contained in the Murphy Report during trial, where the phone number provided by the tipster
was out of service and the caller could not be identified, is unpersuasive evidence that the
Murphy Report must not have been produced. As with the Trio tip, reference to the Greg Frazier
tip would not have advanced the. trial strategy that Hrones reasonably adopted.5
The history of Attorney Hrones' case file is somewhat muddled. At the time of the
evidentiary hearing, he no longer had possession ofit. As late as 1997, when the defendant was
incarcerated at the Old Colony Correction Center, the defendant had a box ofdocuments relating
to his case. At that time, he asked Yvonne Johnson to take possession of all these documents. In
2012, when the defendant's current post-conviction counsel began to represent him, Ms. Johnson
gave her all of the defendant's papers that she possessed. Whether the documents Ms. Johnson
received from the defendant were all copies or included original documents from Attorney
Hrones is uncertain. In 1989, while working on his pro se motion for a new trial, the defendant
filed a pro se motion in the Superior Court asking for another copy of the transcript ofhis trial.
In that motion, the defendant averred that he previously had a copy of the transcript but it "was
lost by the Dept. of Correction with other property of the petitioner's during a transfer to another
institution and has yet to be found or located."

5

In 2015, Robert Selevitch, a CPCS investigator attempted to locate Vincent Powell and
Greg Frazier. He found no records suggesting the existence of anyone by the name ofVincent
Powell, anywhere. He found some evidence concerning a Greg Frazier born in 1961 who may
have been a resident of a Veteran's Shelter in Boston off and on from 2009 to 2015.
-687a

Ms. Johnson befriended the defendant in 1997. After taking possession of his case file,
she retained a private investigator with her own funds in an attempt to develop evidence in
support of a post-conviction motion that might have led to the defendant's release. She spent
$30,000 on this effort. The private investigator's invoice reflects the work he did on her behalf;
it contains no reference to a search for either Vincent Powell or Greg Frazier. The court has no
doubt that the investigator would have spent time in an effort to locate these individuals if the
Murphy Report had been among the documents that Ms. Johnson had provided him. The court
also credits the affidavit of the defendant's present counsel in which she attests that the Murphy
Report was not among the documents that Ms. Johnson turned over to her.
Based upon the testimony provided at the hearing and a careful review of all of the
docwnentary evidence, the court finds that the defendant has not carried his burden of proving
that the Murphy Report was not produced to Attorney Hrones during the discovery phase of this
case.
First, the Discovery Receipts are substantial evidence that it was produced, as there are
four 9/21/81 reports listed in those receipts and four such reports in the accordion case file,
including the Murphy Report. Therefore, another 9/21 /81 report would have had to have been
produced twice for the Murphy Report to have been withheld. Second, another anonymous tip
report was produced during discovery suggesting that this type of report was not intentionally
withheld. Third, the court credits Judge Newman's testimony that as a matter of practice, he
turned over police reports to defense counsel after listing them in a Discovery Receipt. While, it
.- is certainly possible that the Murphy Report was inadvertently omitted, it appears in four places
in the accordion file that Judge Newman maintained in this case. Fourth, while Attorney Hrones
did not make reference to the tip contained in the Murphy Report at trial, he also did not refer to

-788a

another anonymous tip contained in the discovery materials. Hrones also did not attempt to
establish some manner of Bowden defense through other evidence produced to him concerning
possible suspects to suggest that the police could have done more to investigate leads concerning
other third-party culprits who might have committed the murder. Rather,he focused the jury on
the deceased's current boyfriend-certainly a reasonable strategy. Under these circumstances,
the fact that Hrones did not use the Murphy Report tip at trial is not compelling evidence that he
did not receive the Murphy Report. Finally, while the court finds that the Murphy Report was
not among the materials that Ms. Jo.hnson received from the defendant in 1997, and eventually
transferred to the defendant's present counsel,under these circwnstances that is also not
compelling evidence that Mr. Hrones never received it; rather it only establishes that by 1997,
the defendant did not have it among his papers.

RULINGS OF LAW
This court may grant the defendant a new trial "at any time if it appears that justice may
not have been done." Mass. R. Crim. P. 30(b). See Commonwealth v. Lane, 462 Mass. 591,597
(2012). The standard under Mass. R. Crim. P. 30(b) is intentionally broad,and the disposition of
the motion for a new trial is left to the discretion of the motion judge. Commonwealth v. Schand,
420 Mass. 783, 787 (1995); Commonwealth v. Moore, 408 Mass. 117, 125 (1990). "Judges are
to apply the rule 30 (b) standard rigorously" and should grant a new trial motion "only if the
defendant comes forward with a credible reason that outweighs the risk of prejudice to the
Commonwealth." Commonwealth v. Kolenovic, 471 Mass. 664,672 (2015).

-889a

The defendant makes two primary arguments in support of his motion. First, he argues
that the indictment should be dismissed or he should be granted a new trial because (i) the
Commonwealth withheld the Murphy Report and (ii) it constituted exculpatory evidence. The
defendant claims that if the Commonwealth had turned over the Murphy Report in a timely
fashion, an investigation could have led to his complete exoneration or, at a minimum, his
attorney could have used the report to impeach the Commonwealth's witnesses at trial. The
defendant's second argument is that his Sixth Amendment right to counsel was violated because
he did not knowingly and intelligently waive his right to court-appointed counsel paid for by the
Commonwealth before proceeding to trial with Attorney Hrones, who had agreed to represent
him pro bono. Each argument is addressed below.
Disclosure or Non-Disclosure of Putative Exculpatory Evidence

Under appropriate circumstances, a failure to disclose exculpatory evidence is a well­
established basis for ordering a new trial. See Commonwealth v. Murray, 461 Mass. 10, 19
(2011). "To secure a new trial on the basis of exculpatory evidence, the defendant must establish
three elements." Id. "First, the evidence must have been in the possession, custody, or control of
the prosecutor or a person subject to the prosecutor's control." Id.
''Next, the defendant must establish that the evidence is exculpatory. Exculpatory in this
context is not a narrow term connoting alibi or other complete proof of innocence, ... but rather
comprehends all evidence which tends to negate the guilt of the accused ... or, stated
affirmatively, supporting the innocence of the defendant." Id. (citations and internal quotation
marks omitted). "Due process of law requires that the government disclose to a criminal
defendant favorable evidence in its possession that could materially aid the defense against the
pending charges." Commonwealth v. Tucceri, 412 Mass. 401, 404-405 (1992), citing Brady v.

-990a

Maryland, 373 U.S. 83,87 (1963). See Commonwealth v. Daniels, 445 Mass. 392, 401 (2005)

(noting that "favorable evidence" need not be dispositive evidence).
Third,"after showing that the withheld evidence was potentially exculpatory,a defendant
seeking a new trial must establish prejudice." Commonwealth v. Murray, 461 Mass. at 20-21.
"Depending on the specificity of the defendant's [pretrial] request for exculpatory evidence,
different standards of judicial review apply." Commonwealth v. Gallarelli, 399 Mass. 17, 20
(1987). See Commonwealth v. Wilson, 381 Mass. 90, 108-109 (1980). When the prosecution
has denied a defendant specifically requested exculpatory evidence, "a defendant need only
demonstrate that a substantial basis exists for claiming prejudice from the nondisclosure."
Commonwealth v. Da,:ziels, 445 Mass. at 404,quoting Commonwealth v. Tucceri, 412 Mass. at

412. See Commonwealth v. Camacho, 472 Mass. 587,598 (2015) (recognizing that "where
specifically requested favorable evidence is not disclosed the defendant need only demonstrate
that a substantial basis exists for claiming prejudice") (citations omitted). In this case,the court
will assume that this standard applies to the Murphy Report. 6
As is evident,the court's first task is to determine whether the defendant has established
that the Commonwealth failed to disclose the Murphy Report to Attorney Hrones prior to trial.
See Commonwealth v. Tucceri, 412 Mass. at 404 n.2 ("It is . .. the defendant who has the burden
of showing prejudice warranting or requiring a new trial order."). For the reasons explained

6

In their memoranda,both the defendant and the Commonwealth seem to agree that
Hrones made a specific request for the particular exculpatory evidence at issue and apply this
standard to the analysis regarding prejudice. If,however,a defendant makes only a general
request for exculpatory evidence prior to trial,the court looks to "whether there is a substantial
chance that the jury might not have reached verdicts of guilty if the undisclosed evidence had
been introduced in evidence." Commonwealth v. Tucceri, 412 Mass. at 413.
- 10 91a

above, the court concludes that the defendant has not carried his burden of establishing non­
disclosure.
Moreover, even if the court were to asswne arguendo that the Commonwealth had either
intentionally or inadvertently withheld the Murphy Report, the defendant would still not be
entitled to dismissal of the indictment or a new trial based on a failure to disclose this

exculpatory evidence. Relying on the principles of law discussed above, the court finds that
while the defendant can establish the first two elements required to obtain a new trial based on a
failure to disclose exculpatory evidence, he could not have established the third element See

Commonwealth v. Murray, 461 Mass. at 19.
First, the Murphy Report was in the possession, custody, or control of the prosecutor-at
least four copies of the document were contained in Newman's original case file (Exhibit 1 ).
Second, the Murphy Report is potentially exculpatory evidence. The Murphy Report suggests
that someone identifying himself by a false name and out-of-service telephone number provided
a tip concerning a possible suspect. While there is no evidence linking this putative suspect to
Ms. Marson, it is possible that in 1981 or 1982, an investigator might have had greater success in
finding Vincent Powell or Greg Frazier than Mr. Selevitch did in 2015. See n.5, supra. 7 It is
also possible that the Murphy Report could have been used in cross examination of certain police
witnesses at trial in an effort to weaken the Commonwealth's case and discredit the police
investigation of Ms. Marson' s murder-even though this tactic would have been inconsistent
with Hrones' adopted trial strategy of pointing to Ms. Marson's current boyfriend as the likely
murderer rather than someone with no prior relationship to her. It is true that the police
investigation quickly focused on the defendant, but this might have been understandable given
7

On the other hand, as Mr. Selevitch noted, the online databases that are available today
to search for an individual did not exist in 1982.
- 11 92a

the eyewitness identification, the defendant's prior threats to Ms. Marson, and the brutal nature
of the attack, with no evidence that it was motivated by robbery or involved a sexual assault.
Nonetheless, although the Murphy Report reflects some effort to search records for the caller
(Vincent Powell), Powell's phone number (267-4452), and the named killer (Greg Frazier), there
does not appear to be any evidence that suggests that the police did anything to determine
whether Greg Frazier existed and actually worked at Morgan Memorial. Thus, the Murphy
Report could be potentially exculpatory evidence.
The defendant, however, has not established the third element: prejudice. As noted
above, when the prosecution has denied a defendant specifically requested exculpatory evidence,
"a defendant need only demonstrate that a substantial basis exists for claiming prejudice from the
nondisclosure.'' Commonwealth v. Daniels, 445 Mass. at 404, quoting Commonwealth v.
Tucceri, 412 Mass.

at 412. The court finds that the Murphy Report contained only highly

speculative information and was likely inadmissible8 and of no substantial probative value at
trial. See Commonwealth v. Cinelli, 389 Mass. 197, 214-215, cert. denied, 464 U.S. 860 (1983)
(determining that new trial was not required based on Commonwealth's failure to provide
defendants with file of anonymous tips compiled by police because tips would not have provided
any significant aid to defendants). As explained above, at trial Hrones focused on establishing
that Twitty was the murderer. Pretrial discovery included reference to other potential suspects:
Ronald Freedman, the man who discovered Marson's body; Michael Diggs who had a criminal
record, a relationship with Marson's cousin and may have once argued with Marson; and "Trio."

See Mass. Guide to Evidence, Section 1105 "Third-Party Culprit Evidence" which
provides as relevant here: "the court must make a preliminary finding ... that there are other
substantial connecting links between the crime charged and a third party or between the crime
charged and another crime that could not have been committed by the defendant." See also
Commonwealth v. Silva-Santiago, 453 Mass. 782, 800-80 I (2009).
8

- 12 93a

Hrones reasonably appears to have concluded that the best strategy, given the grisly facts
surrounding the murder, was to focus on someone who had a direct relationship with Marson.
Another dubious tip concerning a person with no apparent relationship to Marson appears highly
unlikely to have altered Hrones' strategic decisions. The suggestion that Hrones would have
undertaken a more thorough investigation of the tip than the police and this would have
generated admissible evidence is entirely speculative, especially considering the results of the
2015 search for Powell and Frazier using today's comprehensive and sophisticated databases. 9
Sixth Amendment Right to Counsel

The defendant contends that his Sixth Amendment right to counsel was violated because
he did not knowingly and intelligently waive his right to court-appointed counsel paid for by the
Commonwealth before proceeding to trial represented by Hrones, who had agreed to represent
him without any compensation (pro bono). Hrones was present when the defendant was
arraigned in Superior Court. The record contains a one-page transcript from a sidebar
conference that occurred at the time of his Superior Court arraignment.
I would like the record to show that when this case was called for
arraignment, Mr. Rhones [sic] stepped up and asked ifhe and the
assistant district attorney could approach the bench. I allowed
them to do so.
Mr. Rhones said to me that he would represent the young man for
no pay if he could not be appointed and asked me if his
appointment to the list of attorneys who may represent indigents
accused of murder had been approved at the last meeting of the
judges. I told him it had not.

9

Similarly, for generally the reasons stated in the Commonwealth's Opposition, a new
trial is not warranted based on the defendant's argument that the Murphy Report and recent
scientific :findings regarding the unreliability of eyewitness identifications constitute newly
discovered evidence that cast real doubt upon the justice of the conviction.
- 13 94a

As chainnan of the committee involved, I know that Mr. Rhones
has applied three or four times and had been turned down each
time.
This in itself does not prevent him from private representation, and
I am allowing him to represent the defendant privately.
I just want the record to show that at no time throughout the trial
should any judge consider paying him out of public funds.
The judge ordered the sidebar conference
transcribed and placed in the case file. 10
�
The defendant argues that the arraignment judge and later the trial judge had a duty to
protect his right to counsel. He contends that this includes his implicit right to an attorney who
was on the approved counsel list and would be paid by the Commonwealth for his work on the
case. The defendant maintains that he was not aware that Hrones was not actually appointed by
the court and had worked without compensation while representing him prior to and during the
trial until a few years ago when his present attorney brought this to his attention. 11 The
Commonwealth responds that the defendant's Sixth Amendment right to counsel was not
violated because Hrones, an experienced trial attorney, represented him, albeit pro bono, and the
trial judge previously denied the defendant's first motion for a new trial in which he argued,
among other things, ineffective assistance of counsel.

10

At the evidentiary hearing on the pending motion, Attorney Hrones testified that he had
represented defendants, pro bono, in first degree murder cases on four or five occasions. Hrones
explained that at that time, an attorney had to be a member of the Massachusetts bar for at least
ten years to be included on the list of approved attorneys for first degree murder case
appointments and he then did not meet this requirement. Nonetheless, he considered himself
more competent and committed to his clients' defenses than many attorneys who were on this
list.
11
Attorney Hrones also testified that he could not recall if he had told the defendant that
he was representing him pro bono, but it was certainly possible that he had not. This is because
he was eager to defend the defendant and would not have said anything that might cause the
defendant to fire him.
- 14-

95a

"There is no question that the right to counsel in a criminal prosecution is a fundamental
constitutional right." Lavallee v. Justices in the Hampden Superior Court, 442 Mass. 228,234
(2004). The Sixth Amendment to the U.S. Constitution provides that: "In all criminal
prosecutions,the accused shall enjoy the right to a speedy and public trial, by an impartial jury of
the state and district wherein the crime shall have been committed, which district shall have been
previously ascertained by law,and to be informed of the nature and cause of the accusation; to be
confronted with the witnesses against him; to have compulsory process for obtaining witnesses
in his favor,and to have the assistance of counsel for his defense." Moreover, "[t]he United
States by statute and every state in the Union by express provision of law, or by the
determination of its courts, make it the duty of the trial judge, where the accused is unable to
employ counsel, to appoint counsel for him." Powell v. Alabama, 287 U.S. 45, 73 (1932). The
Supreme Judicial Court has recognized that:
This constitutional guarantee of the assistance of counsel "cannot
be satisfied by mere formal appointment." Avery v. Alabama, 308
U.S. 444, 446 (1940). "An accused is entitled to be assisted by an
attorney, whether retained or appointed, who plays the role
necessary to ensure that the trial is fair." Stricldand v. Washington,
466 U.S. 668,685 (1984). The right to counsel means the right to
effective assistance of counsel. See Kimme/man v. Morrison, 477
U.S. 365,377 (1986).
Lavallee v. Justices in the Hampden Superior Court, 442 Mass. at 235. In Massachusetts, the

Committee for Public Counsel Services provides legal representation for indigent criminal
defendants. See G.L. c. 211D, § 5 ("Said committee shall establish, supervise and maintain a
system for the appointment or assignment of counsel at any stage of a proceeding, either criminal
or noncriminal in nature,provided,however, that the laws of the commonwealth or the rules of
·,
the supreme judicial court require that a person in such proceeding be represented by counsel;

- 15 96a

and, provided further, that such person is unable to obtain counsel by reason ofhis indigency.")
(emphasis added).
The question of whether an indigent defendant is entitled to a court appointed,
government compensated attorney, when a competent lawyer has offered to represent the
defendant without compensation is certainly novel. The court finds that, in this case, at all
relevant times, the defendant was represented by a competent attorney. The defendant is unable
to point to anything in the record that suggests that he was ever dissatisfied· with Hrones' legal
representation while he was represented by him, and, as noted above, the judge who presided
over the trial has already rejected the defendant's post hoc claim of ineffective assistance of
counsel when he denied his first motion for a new trial without a hearing.
In a supplemental brief, the defendant asserts both that he (i) "was denied his right to
conduct his own defense because he was denied his right to choose. whether to proceed to trial
with a court-appointed attorney compensated for his work or whether to proceed to trial with a
volunteer;" and (ii) "was denied his right to select his own attorney because he had a right to
court-appointed counsel paid by the government instead of a volunteer." He cites no case in
support of either formulation of his claim, and the court has not been able to find one. Certainly,
when an indigent defendant has counsel appointed for him, he is not given the right to choose
that attorney. While the court agrees with the defendant that under similar circumstances, it
might be better for the trial judge to conduct a colloquy to ensure that the defendant is fully
informed of what is transpiring, the court does not find that a failure to conduct such a colloquy
results in some manner of structural error as the defendant suggests, since the court finds no
constitutional right to court appointed counsel that the defendant has unwittingly waived. 12 By
12

At the hearing on this motion, the defendant introduced a transcript of a hearing that
took place in 1974 in connection with another first degree murder case in which a trial judge
- 16 97a

way of analogy, on a number of occasions, this judge has presided over cases in which family
and friends of a defendant have pooled resources to retain a privately paid attorney when the
defendant himself is indigent and would be entitled to court appointed counsel. The court does
not conduct a colloquy to ensure that the defendant is aware of this.
Remaining Claims

Francis raises several other arguments in support of his new trial motion. More
specifically, he contends that: (1) the prosecutor improperly called a witness solely to elicit a
prior inconsistent statement; (2) the judge erroneously allowed a witness to express certainty as
to his identification; (3) the judge erroneously instructed the jury as to memory and identification
evidence; and (4) the prosecutor improperly vouched for Twitty in his closing argument. See
Defendant's Memorandum at 69-81.
However, all of these claims could and should have been raised on direct appeal to the
Supreme Judicial Court, or in his previous motion for post-conviction relief, and therefore have
been waived. See Mass. R. Crim. P. 30(c)(2). 13 See also Rodwell v. Commonwealth, 432 Mass.
1016, 1018 (2000) (noting that "[i]f a defendant fails to raise a claim that is generally known and
available at the time of trial or direct appeal or in the first motion for postconviction relief, the
conducted a colloquy with the defendant and Mr. Hrones regarding his pro bono representation
of the defendant. See Exhibit 6. However, when the entire transcript is reviewed, it is apparent
that the judge preferred that the defendant accept a court appointed lawyer that the judge
recommended rather than Mr. Hrones, and the judge wanted the record to be clear concerning his
preferences and that Mr. Hrones was not appointed and would not be paid. Mr. Hrones, for his
part, argued to the court that he should be appointed to represent the defendant notwithstanding
the language of Superior Court Rule 53 then in effect. The transcript does not represent some
settled practice of conducting a colloquy when an indigent defendant was going to be represented
by an attorney who the court did not appoint.
13
Under Mass. R. Crim. P. 30(c)(2): "All grounds for relief claimed by a defendant
under subdivisions (a) and (b) of this rule shall be raised by the defendant in the original or
amended motion. Any grounds not so raised are waived unless the judge in the exercise of
discretion permits them to be raised in a subsequent motion, or unless such grounds could not
reasonably have been raised in the original or amended motion."
- 17 98a

claim is waived"); Commonwealth v. Randolph, 438 Mass.290,293-296 (2002) (stating that
waiver rule protects society's interest in the finality of its judicial decisions and promotes judicial
efficiency and explaining exceptions to waiver rule); Commonwealth v. Smith, 460 Mass. 318,
320 (2011) ("It is not wicommon for a Superior Court judge considering a motion for a new trial
in a capital case,after ... [the Supreme Judicial Court] already has affirmed the defendant's
conviction of murder in the first degree in the direct appeal,to reject summarily any basis for the
motion that could have been raised in the direct appeal or considered on plenary review. Indeed
that is a typical approach."). Moreover, having reviewed each of these additional claims,the
court finds them to be without merit. In particular, with respect to the claims addressing alleged
shortcomings in the instructions regarding eyewitness identification,the Supreme Judicial Court
has made it clear that its reconstruction of these instructions in light of more recent scientific
investigation is to have only prospective application. See Commonwealth v. Gomes, 470 Mass.
352,376 (2015); Commonwealth v. Navarro, 474 Mass. 247,252 n.5 (2016). The court properly
instructed the jury concerning such identifications according to the law as it existed when this
case was tried in 1982.

- 18 99a

ORDER

For the foregoing reasons, Defendant Kevin Francis' "Motion for Dismissal of the
Indictment Pursuant to Mass. R. Crim. P. 25(b)(2) or in the Alternative a New Trial Pursuant to
Mass. R. Crim. P. 30(b)" (Paper Number 47) is DENIED.

Dated: February 22, 2018

- 19 100a

From:
To:
Subject:
Date:

Amy Belger
Smith, SJ; Salem, Rana
Fwd: SJC-12683 - Notice of Docket Entry
Tuesday, December 8, 2020 2:16:11 PM

---------- Forwarded message --------From: <SJCCommClerk@sjc.state.ma.us>
Date: Thu, Aug 6, 2020 at 6:01 PM
Subject: SJC-12683 - Notice of Docket Entry
To: <appellatedefender@gmail.com>
Supreme Judicial Court for the Commonwealth of Massachusetts
RE: Docket No. SJC-12683
COMMONWEALTH
vs.
KEVIN FRANCIS
NOTICE OF DOCKET ENTRY
Please take note that the following entry was made on the docket of the above-referenced
case:
August 6, 2020 - DENIAL of Motion for Reconsideration. (By the Court)
Francis V. Kenneally, Clerk
Dated: August 6, 2020
To:
Amy M. Belger, Esquire
Ira Gant, Esquire
Dara Kesselheim, A.D.A.
Craig Iannini, A.D.A.
Chauncey B. Wood, Esquire
Anthony J. Benedetti, Esquire
John M. Thompson, Esquire
Linda J. Thompson, Esquire

101a

12/8/2020

Mass Appellate Courts - Public Case Search

SUPREME JUDICIAL COURT
for the Commonwealth
Case Docket
COMMONWEALTH vs. KEVIN FRANCIS
SJC-12683
CASE HEADER
Case Status
Nature
Appellant
Brief Status
Quorum
Argued Date
AC/SJ Number
DAR/FAR Number
Lower Court
Route to SJC

Status Date
Entry Date
Case Type
Brief Due
Gants, C.J., Lenk, Gaziano, Lowy, Budd, Cypher, Kafker, JJ.
Decision Date
11/04/2019
SJ-2018-0129
Citation
Lower Ct Number
Lower Ct Judge
Suffolk Superior Court
Direct Entry: Single Justice Allows Appeal 278/33E
Decided, Rescript issued
Murder1 appeal - related
Defendant

08/07/2020
02/08/2019
Civil

06/24/2020
485 Mass. 86
8184CR37342
Mitchell H. Kaplan, J.

ADDITIONAL INFORMATION
Transcripts received: 2 volumes (on CD). Transcripts dates: 1/10/18 and 9/28/18. (Scanned)
INVOLVED PARTY

ATTORNEY APPEARANCE

Kevin Francis
Petitioner/Appellant
Blue br, app & reply br led
1 Ext

Amy M. Belger, Esquire
Ira Gant, Esquire

Commonwealth
Respondent/Appellee
Red brief & appendix led
2 Exts, 119 Days

Dara Kesselheim, A.D.A.
Craig Iannini, A.D.A.

The Cato Institute
Amicus
Amicus brief led

Chauncey B. Wood, Esquire

The Massachusetts Assoication of Criminal Defense Lawyers
Amicus
On brief of another party

Chauncey B. Wood, Esquire

Committee for Public Counsel Services
Amicus
Awaiting green brief

Anthony J. Benedetti, Esquire

Thompson & Thompson, P.C.
Amicus
Awaiting green brief

John M. Thompson, Esquire
Linda J. Thompson, Esquire

DOCUMENTS
Appellant Francis Brief
Amicus Cato Institute and MACDL Brief

Appellee Commonwealth Brief
Appellant Francis Reply Brief

DOCKET ENTRIES
Entry Date

Paper

Entry Text

02/08/2019 #1

Entered. Notice to counsel.

02/08/2019 #2

NOTICE OF AVAILABILITY OF ELECTRONIC FILING: The clerk's of ce will accept briefs, appendices, motions, status
reports, and correspondence through eFileMA effective immediately. Please note that after review and docketing of eled briefs and appendices, the clerk will require a limited number of paper copies to be led. Parties are free to le
their briefs and record appendices under the revised rules of appellate procedure prior to their effective date, March 1,
2019.

03/01/2019 #3

ANNOUNCEMENT: The Justices are soliciting amicus briefs. Whether a new trial is required where the defendant,
who was convicted of murder in the rst degree, claims he was denied his right, as an indigent person, to be
furnished with a court appointed, government-compensated attorney and, instead, was represented by an attorney
who, without his knowledge and consent, was essentially a volunteer, purporting to represent him privately yet
without being retained by him.

https://www.ma-appellatecourts.org/docket

102a

1/2

12/8/2020

Mass Appellate Courts - Public Case Search

03/07/2019 #4

MOTION to extend to 07/31/2019 ling of brief of Kevin Francis by Amy M. Belger, Esquire. (ALLOWED, in part, the
defendant's brief is due on or before May 31, 2019.)

05/23/2019 #5

Appendix Vol. 1 led for Kevin Francis by Attorney Amy Belger.

05/23/2019 #6

Appellant brief led for Kevin Francis by Attorney Amy Belger.

05/23/2019 #7

Appendix Vol 2 led for Kevin Francis by Attorney Amy Belger.

05/23/2019

The clerk's of ce has received the appellant's brief and record appendices through e- leMA. The brief has been
accepted for ling and entered on the docket. The appellant shall le with the clerk 4 copies of the brief and 2 copies
of each record appendix within 5 days. The clerk's of ce may require additional copies if necessary.

05/30/2019 #8

Additional 4 copies of appellant's brief and 2 copies of each record appendix volumes 1 to 3 led by Kevin Francis.
(Note: 2 copies of substitute corrected record appendix volume 3 received on June 4, 2019.)

06/04/2019 #9

MOTION to substitute corrected record appendix volume III, led for Kevin Francis by Amy M. Belger, Esquire, Ira
Gant, Esquire. (ALLOWED)

06/04/2019 #10

SERVICE of Substitute Corrected Record Appendix Volume III for Kevin Francis by Amy M. Belger, Esquire, Ira Gant,
Esquire.

06/17/2019 #11

MOTION to extend to 10/11/2019 ling of brief of Commonwealth by Dara Kesselheim, A.D.A.. (ALLOWED to
October 11, 2019.)

08/14/2019 #12

NOTICE of November argument sent.

08/30/2019 #13

ORDERED for argument on November 4. Notice sent.

10/15/2019 #14

Amicus brief led for Cato Institute and MACDL by Attorney Chauncey B. Wood.

10/16/2019

The clerk's of ce has received the Amicus brief led for Cato Institute and MACDL through e- leMA. The brief has
been accepted for ling and entered on the docket. Four copies of the brief shall be led with the clerk's of ce within
5 days. The clerk's of ce may require additional copies if necessary.

10/16/2019 #15

Appellee brief led for Commonwealth by Dara Kesselheim,A.D.A..

10/16/2019 #16

Appendix led for Commonwealth by Dara Kesselheim, A.D.A..

10/16/2019 #17

Motion to le brief late led for Commonwealth by Dara Kesselheim, A.D.A.. ALLOWED.

10/17/2019

The clerk's of ce has received the Appellee's brief and Appendix led for the Commonwealth through e- leMA. The
brief has been accepted for ling and entered on the docket. Four copies of the brief shall be led with the clerk's
of ce within 5 days. The clerk's of ce may require additional copies if necessary.

10/18/2019 #18

Additional 4 copies of appellee's brief and 1 copy of record appendix led by Commonwealth.

10/23/2019 #19

Reply brief led for Kevin Francis by Attorney Amy Belger.

10/23/2019

The clerk's of ce has received the appellant's reply brief through e- leMA. The brief has been accepted for ling and
entered on the docket. The appellant shall le with the clerk 4 copies of the brief within 5 days. The clerk's of ce may
require additional copies if necessary.

10/28/2019 #20

Additional 4 copies of appellant's reply brief led by Kevin Francis.

11/04/2019

Oral argument held. (Gants, C.J., Lenk, J., Gaziano, J., Lowy, J., Budd, J., Cypher, J., Kafker, J.). View Webcast

11/27/2019 #21

Attested copy of docket sheets and CD transcripts of 1/10/18 and 9/28/18 received from Suffolk Superior Court.

03/19/2020 #22

ORDER waiving 130-Day rule.

06/24/2020 #23

RESCRIPT (Full Opinion): For the reasons set forth in the opinion, the denial of the defendant's second motion for a
new trial is af rmed. By the Court)

06/25/2020 #24

Motion to extend time to le motion for modi cation led for Kevin Francis by Attorney Amy Belger. (ALLOWED to
August 17, 2020)

06/25/2020 #25

Certi cate of service led for Kevin Francis by Attorney Amy Belger.

07/02/2020 #26

Motion for Reconsideration or Modi cation led for Kevin Francis by Attorney Amy Belger.

07/02/2020 #27

MOTION to exceed page limit led for Kevin Francis by Attorney Amy Belger. (ALLOWED)

07/02/2020 #28

Certi cate of service led for Kevin Francis by Attorney Amy Belger.

07/16/2020 #29

ORDER: The Appellee is invited to reply to the motion for reconsideration or modi cation of the opinion. Any such
reply shall be led no later than July 28, 2020.

07/24/2020 #30

Amicus brief led for Committee for Public Counsel Services by Attorney Anthony J. Benedetti.

07/24/2020 #31

Motion to File Amicus Brief led for Committee for Public Counsel Services by Attorney Anthony J. Benedetti.

07/24/2020 #32

Anthony J. Benedetti.Certi cate of service led for Committee for Public Counsel Services by Attorney.

07/28/2020 #33

Amicus brief led for Thompson & Thompson, P.C. by Attorney John Thompson, Linda Thompson.

07/28/2020 #34

Motion to File Amicus Brief led for Thompson & Thompson, P.C. by Attorney John Thompson, Linda Thompson.

08/06/2020 #35

DENIAL of Motion for Reconsideration. (By the Court)

08/07/2020

RESCRIPT ISSUED to trial court.

As of 09/21/2020 10:20am

https://www.ma-appellatecourts.org/docket

103a

2/2

Supreme Judicial Court for the Commonwealth

Full Court: SJC-12683

Filed: 7/2/2020 12:26 PM

COMMONWEALTH OF MASSACHUSETTS
SUPREME JUDICIAL COURT
SUFFOLK, SS.

NO. 12683
_______________________________
KEVIN FRANCIS
v.
COMMONWEALTH
_______________________________
_______________________________

MOTION FOR RECONSIDERATION
OF DECISION
_______________________________
On Behalf of Kevin Francis:
Amy M. Belger
Law office of Amy M. Belger
841 Washington Street
Holliston, MA 01746
508-893-6031
BBO # 629694
appellatedefender@gmail.com
JULY 2020

104a

MATTERS FOR RECONSIDERATION
I.

II.

III.

IV.

V.

FRANCIS WAS DENIED THE “EXACTING SCRUTINY”
OF §33E PLENARY REVIEW WHEN THIS COURT
FAILED TO DISCOVER THE “OBVIOUS ERROR”
APPARENT FROM THE ARRAIGNMENT TRANSCRIPT.
THIS DENIAL WAS A VIOLATION OF FRANCIS’S
EQUAL PROTECTION RIGHT.

3-7

THE COURT’S ANALYSIS OF THE DENIAL OF
FRANCIS’S RIGHT TO BE PRESENT AT A CRITICAL
STAGE OF HIS TRIAL PROCEEDINGS DOES
NOT ACKNOWLEDGE OR ADDRESS THE
STRUCTURAL ERROR DERIVING FROM THE
VIOLATION OF FRANCIS’S 6TH
AMENDMENT CONFRONTATION RIGHT
AND 5TH AMENDMENT DUE PROCESS RIGHT
AND FAILS TO EXPLAIN HOW WAIVER
APPLIES TO A VIOLATION OF THESE RIGHTS.

7-9

GONZALEZ-LOPEZ PROHIBITS THE APPLICATION
OF A WAIVER ANALYSIS TO DEFEAT FRANCIS’S
CHOICE OF COUNSEL CLAIM.

9-12

BECAUSE FRANCIS’S PRO SE NEW TRIAL MOTION
WAS THE FIRST OPPORTUNITY FOR “ERROR
CORRECTING REVIEW” OF HIS CONVICTION, HIS
FEDERAL CONSTITUTIONAL RIGHT TO COUNSEL
WAS VIOLATED WHEN CPCS FOLLOWED A
SCREENING ATTORNEY’S RECOMMENDATION
THAT COUNSEL NOT BE ASSIGNED.

12-19

THE COURT RULED WERE THIS CLAIM RAISED IN
1992 BY SCREENING COUNSEL IT WOULD NOT HAVE
BEEN WAIVED AND WOULD HAVE “CULMINATED
IN A RELATIVELY TIMELY NEW TRIAL.”
THEREFORE, IF FRANCIS IS CONSIDERED TO HAVE
BEEN PROVIDED WITH COUNSEL IN 1992,
HE WAS PROVIDED WITH INEFFECTIVE
ASSISTANCE OF COUNSEL IN VIOLATION OF THE
SIXTH AMENDMENT.
19-23
105a

The Court has applied waiver to structural errors caused by the
government that deprived Francis of his fundamental constitutional
rights. Francis did not have counsel to forward his appellate claims
until 2012.1

2

This is because he was deprived of counsel by the

Committee for Public Counsel Services (CPCS). Moreover, the Court
has ruled the rights violated that gave rise to the structural errors were
obvious to anyone reading the arraignment transcript. Yet, the sidebar
transcript was intentionally made a prominent part of the record of this
case by the arraignment judge. Accordingly, this Court deprived Francis
of the §33E plenary review he was entitled to in 1984 when his direct
appeal was decided.
I.

FRANCIS WAS DENIED THE “EXACTING SCRUTINY” OF
§33E PLENARY REVIEW WHEN THIS COURT FAILED TO
DISCOVER THE “OBVIOUS ERROR” APPARENT FROM
THE ARRAIGNMENT TRANSCRIPT. THIS DENIAL WAS A
VIOLATION OF FRANCIS’S EQUAL PROTECTION RIGHT.

References to the appendix of this motion: “(R.__)”; Opening Brief:
“(Br.__)”;the record appendix volumes accompanying Opening Brief:
“(R.[vol.#.].__).”
1

Had it not taken two years of counsel insisting the Suffolk DA’s Office
comply with a public records request, it would not have taken three
years for counsel to file Francis’s new trial motion (R.I.115-127).

2

106a

This Court is “empowered under G.L. c.278, §33E, to consider
questions raised by the defendant for the first time on appeal, or even to
address issues not raised by the parties, but discovered as a result of
[its] own independent review of the entire record. . . . This uniquely
thorough review of first-degree murder convictions is warranted by the
infamy

of

the

crime

and

the

severity

of

its

consequences."

Commonwealth v. Gunter, 459 Mass. 480, 486 (2011) (emphasis added).
Unlike other defendants free to appeal from adverse decisions on
postconviction motions, see, e.g., Mass.R.Crim.P. 30(c)(8), a capital
defendant whose "whole case" has already been reviewed by this Court
pursuant to §33E must first seek and obtain leave from a single justice
to appeal from an adverse decision on a postconviction motion. Id. at
487 citing Dickerson v. Attorney Gen., 396 Mass. 740, 744-745
(1986)("since we have already reviewed the ‘whole case' as required by
… §33E, the capital defendant justifiably is required to obtain leave of a
single justice before being allowed once again to appear before the full
court")(emphasis added).

107a

Francis was denied competent review of his “whole case” and
“entire record” because the issue deemed waived by CPCS was “obvious”
to anyone who read the arraignment transcript (R.31-32,38,47). Yet,
this Court had the arraignment transcript prior to deciding the direct
appeal. Not only did the arraignment judge order that the transcript
remain part of the record (R.103), as he was invested in insuring that
Hrones’ representation of the indigent Francis go uncompensated, but
the issue of Hrones getting paid for the direct appeal after the fact was
determined by this Court, which required this Court to review that
transcript for additional reasons (R.100,104-112).
Francis was denied “the exacting scrutiny of plenary review under
§33E” that this Court guarantees. His right to such review was violated
when this Court missed this “inequity” and did not see what “was
obvious to anyone reviewing the arraignment transcript (R.9,47).”
Plenary review is the justification for blocking those convicted of
first-degree murder from accessing our appellate courts unless they can
satisfy the gatekeeper provision when a post-direct appeal new trial
motion is denied. It sets this class of citizens apart from all other

108a

citizens who have open access to our appellate courts to forward their
appellate rights. Application of the gatekeeper provision denied Francis
an opportunity to forward his actual innocence claim on appeal based
upon a Brady violation committed by the Commonwealth (R.I.60-73).
That claim had to be abandoned in the superior court because it did not
meet the “new and substantial issue” requirement of §33E.
If the Court’s analysis of the issues on the second new trial motion
are correct, with proper and thorough plenary review, this Court would
have identified and resolved Francis’s structural error claims on direct
appeal in 1984. Francis could not possibly have waived these claims, as
he had no counsel on direct appeal that could raise them for him, and
the government deprived him of counsel for more than thirty years
thereafter. See Commonwealth v. Zinser, 446 Mass. 807, 808-809 (2006).
He was denied counsel until 2012, when he at last was given counsel to
screen the case and forward his meritorious appellate claims in the first
instance (R.77-93,118,132). Id. See Issue IV, infra.
By failing to provide Francis with the “uniquely thorough review”
of his conviction that allows §33E to pass the rational basis test for

109a

restriction of access to appellate review, see Dickerson, 396 Mass. at
743-745, this Court violated Francis’s rights pursuant to the Equal
Protection Clause of the 14th Amendment and arts. 1, 6, and 7 of the
Massachusetts Declaration of Rights.
II.

THE COURT’S ANALYSIS OF THE DENIAL OF FRANCIS’S
RIGHT TO BE PRESENT AT A CRITICAL STAGE OF HIS
TRIAL PROCEEDINGS DOES NOT ACKNOWLEDGE OR
ADDRESS THE STRUCTURAL ERROR DERIVING FROM
THE VIOLATION OF FRANCIS’S 6TH AMENDMENT
CONFRONTATION RIGHT AND 5TH AMENDMENT DUE
PROCESS RIGHT AND FAILS TO EXPLAIN HOW WAIVER
APPLIES TO A VIOLATION OF THESE RIGHTS.
The Court states “the sole issue” Francis brought before the Court

in 2015 “was a claim that Hrones’s appointment violated the 6th
Amendment … and art. 12….(R.3).” That is not the case. The exclusion
of Francis from a critical stage of his trial proceedings is a separate and
distinct form of structural error. “The only error identified” was not “the
appointment itself;” exclusion of Francis from a critical stage of his trial
proceedings was a separately identified structural error (R.3-5;Br.31-38,
47-53).

110a

The Court describes Francis’s exclusion from the sidebar where
the arraignment judge, the prosecutor and Hrones deprived him of his
choice of counsel as an “interference” with Francis’s “Sixth Amendment
and art. 12 rights to choice of counsel (R.20).” That is not the argument
Francis brought before the Court. What occurred was a denial of
additional federal constitutional rights guaranteed by the Supreme
Court. The exclusion at a critical stage of the proceedings is a separate
and distinct denial of two additional fundamental rights: the 6th
Amendment confrontation right and the 5th Amendment due process
right, as extensively briefed and argued to this Court (Br.31-38, 47-53).
The Court spends extensive time analyzing this matter as a
violation of Rule 18. While true, the analysis does not address the more
significant and relevant problem (R.22-23). Nowhere does the majority
address the Supreme Court’s ruling in Snyder v. Massachusetts, 291
U.S. 97, 106 (1934), reiterated in Kentucky v. Stincer, 482 U.S. 730, 745-

111a

46 (1987) which serves as binding precedent with respect to this issue.3
The Court provides no explanation for how the waiver doctrine applies
to this claim, as this claim cannot be waived other than by colloquy
(Br.31-38,47-53). This separate and significant violation of federal
constitutional rights was never given meaningful plenary review at the
time of the direct appeal, see §33E, and it remains unacknowledged by
this Court.
III.

GONZALEZ-LOPEZ PROHIBITS THE APPLICATION OF A
WAIVER ANALYSIS TO DEFEAT FRANCIS’S CHOICE OF
COUNSEL CLAIM.
The Court’s ruling violates federal constitutional law as set forth

in U.S. v. Gonzalez-Lopez, 548 U.S. 140 (2006). The waiver analysis the
Court applies to Francis’s choice of counsel claim is prohibited, as no
such diminution of that right is authorized in light of the express
language of the Supreme Court:
[This Court’s] argument in effect reads the Sixth
Amendment as a more detailed version of the Due Process
Clause—and then proceeds to give no effect to the details. It
The nature of this separate constitutional violation was also addressed
on page 14 of the MACDL/Cato amicus brief, which went
unacknowledged in the Decision.

3

112a

is true enough that the purpose of the rights set forth in that
Amendment is to ensure a fair trial; but it does not follow
that the rights can be disregarded so long as the trial is, on
the whole, fair. Id. at 145.
The waiver analysis invoked by the Court is misapplied to the
violation in this case because that analysis disregards the directive of
the Supreme Court to not excuse a violation of this nature for any
reason, including that the trial was fair (R.32). Finality, or expediency,
cannot justify the application of waiver to such a violation, especially
where Francis himself waived nothing. The Court declared CPCS
waived it for him, yet CPCS never represented him (R.31,42-43).4 See
Issue IV, infra. The Supreme Court could not be clearer in its intent to
protect the rights of Francis, and prohibit the application of a waiver
analysis that requires some showing of prejudice:

The majority is under the mistaken impression that CPCS and
“defense counsel” are interchangeable terms (R.43). A screener is a
private attorney who gets paid to advise CPCS as to whether or not to
appoint counsel. A screening attorney is not obligated to represent a
client whose case that attorney screened, even if the attorney advised
CPCS to appoint counsel (R.81,87). Neither CPCS nor any screening
attorney, other than undersigned counsel, was ever appointed as
“defense counsel” for Francis. See Issues IV and V supra.
4

113a

…[T]he Sixth Amendment right to counsel of choice[] …
commands, not that a trial be fair, but that a particular
guarantee of fairness be provided—to wit, that the accused
be defended by the counsel he believes to be best. “The
Constitution guarantees a fair trial through the Due Process
Clauses, but it defines the basic elements of a fair trial
largely through the several provisions of the Sixth
Amendment,
including
the
Counsel
Clause.”
Strickland, supra, at 684–685. In sum, the right at stake
here is the right to counsel of choice, not the right to a fair
trial; and that right was violated because the deprivation of
counsel was erroneous. No additional showing of prejudice is
required to make the violation “complete.” Id. at 146.
The Supreme Court prohibits the prejudice analysis that the
Court engaged in. No prejudice analysis, justified by the application of
waiver or otherwise, is permissible:
The right to select counsel of one’s choice, by contrast, has
never been derived from the Sixth Amendment’s purpose of
ensuring a fair trial. … It has been regarded as the root
meaning of the constitutional guarantee. See Wheat, 486 U.
S., at 159; Andersen v. Treat, 172 U. S. 24 (1898). See
generally W. Beaney, The Right to Counsel in American
Courts 18–24, 27–33 (1955). Cf. Powell, supra, at 53. Where
the right to be assisted by counsel of one’s choice is
wrongly denied, therefore, it is unnecessary to conduct
an ineffectiveness or prejudice inquiry to establish a
Sixth Amendment violation. Deprivation of the right is
“complete” when the defendant is erroneously
prevented from being represented by the lawyer he
wants, regardless of the quality of the representation
he received. Id. at 148.

114a

Weaver v. Massachusetts reiterates that choice of counsel
violations are the type of structural errors that require automatic
reversal (Br.48-53). 137 S.Ct. 1899, 1908 (2017). This week, Chief
Justice Roberts instructively demonstrated the importance of stare
decisis with his concurrence in June Medical Services LLC v. Russo, 591
U.S. ____ (June 29, 2020), notwithstanding his dissent in Whole
Woman’s Health v. Hellerstedt, 579 U.S. ___ (2016).
IV.

BECAUSE FRANCIS’S PRO SE NEW TRIAL MOTION WAS
THE FIRST OPPORTUNITY FOR “ERROR CORRECTING
REVIEW”
OF
HIS
CONVICTION, HIS
FEDERAL
CONSTITUTIONAL RIGHT TO COUNSEL WAS VIOLATED
WHEN CPCS FOLLOWED A SCREENING ATTORNEY’S
RECOMMENDATION
THAT
COUNSEL
NOT
BE
ASSIGNED.
The U.S. Constitution imposes on the States no obligation to

provide appellate review of criminal convictions. McKane v. Durston,
153 U. S. 684, 687 (1894). Having provided such an avenue, however, a
State may not "bolt the door to equal justice" to indigent defendants.
Halbert v. Michigan, 545 U.S. 605, 610 (2005) citing Griffin v. Illinois,
351 U. S. 12, 24 (1956) (Frankfurter, J., concurring in judgment)

115a

("[W]hen a State deems it wise and just that convictions be susceptible
to review by an appellate court, it cannot by force of its exactions draw a
line which precludes convicted indigent persons ... from securing such ...
review.").
As trial counsel and as a culpable actor, Hrones was not in a
position to raise either the right to counsel of one’s choosing or the
exclusion from a critical proceeding claim for Francis on direct appeal.5
Francis was therefore deprived of counsel, in violation of the 14th
Amendment, when CPCS refused to appoint him counsel in connection
with his pro se filed first new trial motion (R.77-88). See Halbert v.

See Commonwealth v. Downey (III), 65 Mass. App. Ct. 547, 553-555
(2006). Hrones’s personal business interest in working his way onto
the approved list for murder appointments required that he manage
his representation of Francis in a way that kept his client ignorant of
that competing interest (R.7-8,11). And the Court finds that he actually
carried out this scheme (R.11-12). While this activity did not actually
constitute the “waiver” that the Court has now discovered, it was a “but
for” cause of it. That is, with independent, competent appellate counsel,
Francis’s present claim would have been adjudicated before any of the
later activity that supposedly waived his rights ever occurred. Hrones’s
actual conflict of interest cost Francis the opportunity to present his
claim on direct appeal.
5

116a

Michigan, 545 U.S. 605, 619-624 (2005) (first chance for first-level
appellate review by an error-correcting court).
It was due to his indigency that Francis was unable to access the
assistance of counsel to pursue his appellate claims. The Court cannot
conclude that Francis waived his right to counsel of choice by failing to
raise this right until thirty-three years later, because thirty-three years
later was the earliest opportunity he had to raise the claims at all
(R.30). As the Court does not “fault” Francis for failing to raise these
claims on direct appeal, id., there is no basis for faulting Francis at any
time thereafter, given the government deprived him of his right counsel
from 1991-2012, which the Court concedes (R.30). If it was the fault of
the trial court, and CPCS, that Francis was deprived of his right to
counsel to pursue his appellate rights, then the blame for the passage of
time it took to provide Francis with competent counsel lies with the
government.6

“The government” includes the trial court, CPCS, and the Supreme
Judicial Court. See (R.31-32,38,47,77-93) & G. L. c. 278, § 33E.

6

117a

Waiver cannot be applied when it was the government who is
responsible for forfeiting Francis’s claims. Francis sought counsel, and
he was denied counsel (R.77). The majority’s waiver finding violates the
rule of Johnson v. Zerbst, 304 U.S. 458 (1938) that, to be valid, a waiver
of the right to counsel must be knowing and voluntary:
The Sixth Amendment withholds from federal courts, in all
criminal proceedings, the power and authority to deprive an
accused of his life or liberty unless he has or waives the
assistance of counsel. Id. at 463.
Francis could not waive his right to counsel without knowing of
that right and intentionally giving it up. Id. at 464-465. Waiver is not
presumed; every reasonable presumption against waiver must be
drawn. Boyd v. Dutton, 405 U.S. 1, 2-3 (1972). The waiver must be on
the record. Commonwealth v. Cavanaugh, 371 Mass 46, 53 (1976);
Faretta v. California, 422 U.S. 806, 835 (1975).
The government is responsible for the thirty-three year delay in
raising the structural error issues that occurred in this case.7 The trial

What occurred was not so much an error as it was a joint contrivance.
It was not inadvertent (R.7-8,11-12,103).
7

118a

court, as well as this Court, was never “deprived of the chance to cure
the violation[s],” see Weaver, 137 S.Ct. at 1912; they both instead “failed
to approach their duties with the neutrality and serious purpose that
our system demands.” Id. See also §33E.
“Cases on appeal barriers encountered by persons unable to
pay their own way, we have observed, ‘cannot be resolved by
resort to easy slogans or pigeonhole analysis.’ M. L. B. v. S
. L. J., 519 U. S. 102, 120 (1996) …. Our decisions in point
reflect "both equal protection and due process concerns." …
"The equal protection concern relates to the legitimacy of
fencing out would-be appellants based solely on their
inability to pay core costs," while "[t]he due process concern
homes in on the essential fairness of the state-ordered
proceedings."
Halbert, 545 U.S. at 610-611 (internal citations omitted).
Unlike most defendants pursuing a new trial motion, Francis had
a right to appointed counsel because that was his first opportunity to
raise his claims. He did not receive counsel, as the screening attorney
assigned by CPCS to screen his case was not his lawyer (R.77-90).
Attorney James Sultan was retained to advise CPCS as to whether or
not to appoint counsel (R.79-88). Nor can CPCS be characterized as
acting as counsel, because CPCS was at no time acting as Francis’s

119a

advocate. Contrast Anders v. California, 386 U. S. 738, 744 (1967) ("[I]f
[appointed] counsel finds [the] case to be wholly frivolous, after a
conscientious examination of it, he should so advise the court and
request permission to withdraw," filing "a brief referring to anything in
the record that might arguably support the appeal.")
Anders requires, in connection with federal appellate rights, that
appointed counsel answer directly to the court, as an advocate for the
defendant, even if counsel is unable to identify a nonfrivolous appellate
issue. Given Hrones’ malfeasance, Francis was never provided with
appellate counsel of any kind until 2012. Until 2012, he was “forced to
go without a champion on appeal.” Douglas v. California, 372 U.S. 353,
356 (1963). CPCS, acting in a gatekeeper role, adopted the opinions of
its hired advisors Sultan (in 1992) and Attorney Richard Shea (in 2000)
and screened out Francis’s case twice, thereby denying Francis access to
counsel in violation of the 14th Amendment due to his indigency (R.8493). Douglas v. California, 372 U. S. 353.
The need for forceful advocacy does not come to an abrupt
halt as the legal proceeding moves from the trial to appellate
stage. Both stages of the prosecution, although perhaps

120a

involving unique legal skills, require careful advocacy to
ensure that rights are not forgone and that substantial legal
and factual arguments are not inadvertently passed over.
Penson v. Ohio, 488 U.S. 75, 85 (1988). With respect to his right to
counsel claim, and his exclusion from a critical proceeding claim,
Francis was left entirely without counsel on appeal. That is per se
prejudicial. Id. at 85-89.
“[T]he State participated in the denial of a fundamental right
protected by the Fourteenth Amendment. The right to counsel
guaranteed by the Sixth Amendment is a fundamental right.” Cuyler v.
Sullivan, 446 U.S. 335, 343 (1980). “The Sixth Amendment does more
than require the States to appoint counsel for indigent defendants. The
right to counsel prevents the States from conducting trials [or direct
appellate review], at which persons who face incarceration must defend
themselves without adequate legal assistance.” Id. at 344. (emphasis
added)
“[T]here can be no equal justice where the kind of an appeal a man
enjoys 'depends on the amount of money he has.'” Douglas, 372 U.S. at
355 citing Griffin v. Illinois, 351 U.S. 12, 19 (1956). “Any real chance he

121a

may have had of showing that his appeal [had] hidden merit is deprived
him when the [government decided] … that the assistance of counsel
[was] not required.” Id. at 356. The merits of the one and only appeal
that the indigent Francis had as of right were denied without benefit of
appellate counsel, given Hrones’ fatally compromised ability to function
as appellate counsel in this situation. See id. at 357. In the eyes of the
Supreme Court, “an unconstitutional line has been drawn between rich
and poor.” Douglas, 372 U.S. at 357. “The indigent, where the record is
unclear or the errors are hidden, has only the right to a meaningless
ritual, while the rich man has a meaningful appeal.” Id. at 358.
V.

THE COURT RULED WERE THIS CLAIM RAISED IN 1992
BY SCREENING COUNSEL IT WOULD NOT HAVE BEEN
WAIVED AND WOULD HAVE “CULMINATED IN A
RELATIVELY TIMELY NEW TRIAL.” THEREFORE, IF
FRANCIS IS CONSIDERED TO HAVE BEEN PROVIDED
WITH COUNSEL IN 1992, HE WAS PROVIDED WITH
INEFFECTIVE ASSISTANCE OF COUNSEL IN VIOLATION
OF THE SIXTH AMENDMENT.8

The documents at (R.77-93) are proffered on this motion for
reconsideration to clarify for the Court what the role of CPCS screening
counsel is. In the event that the majority maintains it position that
Francis was provided “counsel” in 1992 to pursue his pro se new trial
motion, this issue of ineffective assistance is necessary to raise and
preserve on Francis’s behalf.
8

122a

The record on reconsideration elucidates why Francis strongly
disputes the Court’s finding that he received counsel, at any point prior
to 2012, to forward his appellate rights (R.77-112).
On May 24, 1991 Francis filed a pro se new trial motion pursuant
to Rule 30(b). That motion was accompanied by a motion asking the
court to appoint counsel (R.101). Those motions were neglected by the
superior court until March 5, 1992 when a superior court judge
(Travers, J.) made a March 9, 1992 referral of the case to CPCS and
requested that CPCS appoint counsel. The judge ordered within thirty
days from the date counsel is assigned, all papers on the new trial
motion must be submitted. He also ordered: “If the Court does not act,
without a hearing, counsel must set the matter up for a hearing,
without delay, after sixty days from the date counsel is assigned, by
communicating with this Justice’s Clerk (R.77-78, 101).”
That referral went neglected by CPCS until September 29, 1992
when CPCS appointed Sultan to screen this case. Sultan’s role as

123a

screening counsel was to advise CPCS, not to serve as an advocate or
attorney for Francis (R.79-90).
On January 8, 1993 Sultan wrote to William Leahy, Chief Counsel
of CPCS, and recommended that counsel not be appointed to Francis.
Sultan reviewed the arraignment transcript during the course of his
screening,9 and he analyzed the structural error as follows:
The Superior Court file reveals that defense counsel was not
on the "murder list" at the time he entered his appearance.
There is a transcript in the case file in which a Superior
Court judge (Linscott, J.) indicates that he permitted Mr.
Hrones to enter his appearance even though he was not on
the murder list. The judge directed that Mr. Hrones should
not be paid by the state for his work at trial. I do not believe
that this circumstance would entitle Mr. Francis to any
relief unless some shortcoming by Mr. Hrones could be
demonstrated (R.83).
In recommending counsel not be appointed, Sultan noted:
The defendant has steadfastly maintained his innocence in
communications with us. In the absence of some colorable
legal error, however, I cannot conclude that a court is likely
to be convinced that a miscarriage of justice occurred (R.88).

Shea, the second screening attorney appointed by CPCS in 2000,
conducted a screening that did not extend beyond reading the pro se
new trial motion and the trial transcripts. He therefore never provided
CPCS with any analysis of the issues raised in 2015 (R.91-93).
9

124a

Leahy, having the benefit of Sultan flagging the circumstances
that give rise to the multiple structural errors that occurred, also failed
to see there was a fundamental rights violation that likely would have
entitled Francis to “a relatively timely new trial (R.42,82-88).”
Francis filed a pro se motion for an evidentiary hearing on July 12,
1993, because CPCS never provided him with counsel. Francis’s motion
for a new trial was denied without a hearing on September 23, 1993.
Francis filed a pro se notice of appeal on October 12, 1993. On December
8, 1994 he motioned this Court to waive the entry costs and petitioned
“for relief under 211 sect 1-4 (R.101).”
The Court found that it was at the point of filing the first new trial
motion that the errors regarding denial of choice of counsel should have
been raised (R.42).10 “As the issue would not have been waived at this
point, it likely would have culminated in a relatively timely new trial.”
Id. Accordingly, if this Court adheres to its position that CPCS acted as
counsel for Francis in 1992, both prongs of Strickland v. Washington

The 5th and 6th Amendment violations by exclusion from a critical
proceeding also should have been raised. See Issue II, supra.
10

125a

are satisfied: CPCS rendered deficient performance to Francis, and had
it not, there is a reasonable probability the outcome would have been
different. 466 U.S. 668 (1984).
While the issues raised in this motion for reconsideration may
require further briefing and argument by the parties, the matter does
not require remand to the lower court because this Court “is in as good
a

position

as

the

motion

judge

to

assess

the

trial

record,”

Commonwealth v. Drayton, 479 Mass. 479, 486 (2018) and “can make an
independent determination as to the correctness of the … application of
constitutional principles to the facts as found (R.15).” Id.
CONCLUSION
For all of the foregoing reasons, this Court should reconsider its
decision in this case and grant Kevin Francis a new trial.
Respectfully Submitted,
KEVIN FRANCIS
By his attorney,
Amy M. Belger
______________________
AMY M. BELGER

126a

B.B.O. No. 629694
841 Washington Street
Holliston, MA 01746
508-893-6031
appellatedefender@gmail.com
CERTIFICATE OF COMPLIANCE
I hereby certify that the foregoing brief will comply with the rules
of the Court that pertain to the filing of briefs, including Mass. R.A.P.
16(a)(6) and (13), 16(e), 16(f), 18, 20 and 21, upon allowance of the
motion to enlarge the word count filed contemporaneously with this
motion. The length limit was ascertained by automated word count
using Microsoft Word Version 16.38, and the word count totaled 3783.
Amy M. Belger

127a

COMMONWEALTH OF MASSACHUSETTS

SUPERIOR COURT
INDICTMENT
NO. 037342

SUFFOLK, ss.

COMMONWEALTH
...

··.·::.

KEVIN S. FRANCIS

--

;-;;.�·�: ..

ORDER

The defendant on May 24, 1991 filed a pro se motion (received
by this Justice March 5, 1992) under Mass. R. Crim. P., Rule 30,
together with a motion to appoint counsel.

The Court this date

ordered the Clerk to request the Office of Public Counsel to assign
an attorney. The defendant and counsel are Ordered to complete all
papers relating to the above motion within thirty {30) days from
the date counsel is assigned.

If the Court does no� act, without

a hearing, counsel must set up the matter for a hearing, without
delay, after sixty (60) days from the date counsel is assigned, by
communicating with this Justice's Clerk.

DATED:
[s.d.]

March

1

F. Travers, Jr.
the Superior Cour
, .. 1992.

128a

(

J

I

COMMORWEALTB OF MASSACHOSET'l'S
SUPERIOR COURT DEPAR'l'MEN'l' OF THE.
TRIAL COURT, FOR THE TRAIISACTIOB
OP CRIMIIIAL BOSIBESS

SUFFOU, ss.

March 23, 1992 , llS&k
TO:

, Justice of the Superior Court
bepartment of the Trial Court

TO:

,

Assistant District Attorney

TO:

,

Esquire

COMMOBWBALTH

vs.
Kevin Francis
on- ·March 16, 1992
Order dllowing defendant's motion for appointment of Counsel
endorsed·Ma.rch 9�, 1992.
Travers, J.
( NOT:f'F.TED?:_WITH

No ( s).

COPY)

037342

rp
Daniel F. Pokaski
Clerk-Magistrate

129a

I

!Yk<t�<>/�
�� fo< 9'eik 1� .9'�
ffl"J'4'- y� Y-111. -�-1/l#I

Ill

WILLIAM J, WHY
CJ,ieJ Cot,nuf

Nl7H■Zfl1Z·

court/

court,

. · Justip�• Clf the Supr_; .Jutficiai
Appeai ■
superior court Departaent and Di■triC,. coµrt Department

!'ROM:

Willi�·l.,.f·1"'ahy. Chief .coun■el

RE_:

JI.EYtBID qPQS PQL;tCY RJIGMPUfG l,BB;rtnaml'l' OF CQtTHSEL %H

DJL'l'E:

.tanuary 23, 1992 ·

ZOST-CO�IOR-QOLQTIBIJe·MJ\fflRI

until recently,. it had been the practice o:f the, Committee for
Public . Counsel services, to assign counsel. in any._ indigent post­
convicti,on collateral challenge where a :Judge had a111signed the
case to CPCS by issuing .a Notice of Assign111ent of counsel (NAC)
form. . While there. is no· right to. counsel in such cases, some
judges have assigned the co-ittee to provide counsel in .all
indigent defendant collateral challen!res-often on the basis that
inadequate :Judicial re�ources do not permit meaningful screening
of such cases . to separate -the possibly meritorious from the
fri,volous. For its part, CPCS had, in practice, assigned counsel
in ·every such case-also without review.

However, G.L. c.211D, S5 authorizes auch -��tered>'assignments ·
only:when ·the •laws _of the co-onweaJth or•. the· J:illes of, the
s11preme judicial court" set forth a .right -to counsel,; . Since .
there JE3 no right to counsel for Rule 30 · and related collateral
challetjges, the only authority under which CPCS can properly
assign counsel in such. cases is tbe authorization vested in its
chief counsel by S6(b) (iii)' to appoint priva.te counsel llin such
proceedings as the chief ..counsel. shall · determine to be
necessary." The former practice of automatic assignments did not
provide any basis upon whiclt such
finding couid be made, an_d
has proved in certain cases to be wasteful and costly.

a

Therefore, on December 4, 1991, the C0111111ittee for Public cou11sel
service� approved a new ppllcy, described below, which we inte11d
to· implement beginning KoncSay, Febr11ary 10, 1992. : The new
procesEJ begins as before, upon receipt by Cl'CS. ot a Notice of
Assign111ent (NAC) form from a court,* Instead of autcimaticolly
assigning counsel for what may be a repetitious or meritless
. motion, CPCS will refer the matter to an experienced member of
.

.

* Please ,note that the new policy does not detract in any way
fro111 a judge's discretion Jl2t to assign counsel.
Rather, the
a
olicy
change
applies
only
where
judge
has,
in
the
exercise of
p
his or her discretion, assigned CPCS by completing a NAC form '.
130a

- 2 -

the CPCS . post-conviction panel who "7ill undertalte . a thorough
review of . the matter incl1.1din9 . obtainin9 docket entries
reviewin9 the motion and affidavit and, . for first Rule 30
111otions, re11,din9 the transcript., . J:;f th• l•wyer•s review of �e
aatter shows. 1) • miscarriage o:f Justice may hitYe occurred or 2J
the case contains meritorious i11sues not previously presented to
a court or 3J the defendant ba• not h.ad hia./her direct · e,ppeal,
the chief co1.1n111el wili be advised that
. it• •�-• counsel is
necessary in the particular case and should be. appointed pursuant
to. c.211D, 5(6) (b) (iii). J:f counsel••• review of the c:a.se di;,es
11ot indicate tJiat any of the. three criteria are met, the chief
:counsel will be SI? advised.
In either instance,. the assigning judge will .. b.e int"ormed of the
··· chief ci;,unsel • s de,::ision. J:f . jUdge il!I . notified that . the chief
counsel will not assign counsel but the judge still 1orishes to
Jiavi;n;ounsel appointed, the judge will be rei;ueste4 to inform the
chief counsel, upon the coUJ;'.t;•s review of the record; of ·the
groun\is for his .. or her·view that a.lawyeir ... should be appointed.
�ch defendant vill be similarl)' notified of: the. •Chief counsel •s
.decision. I:n any case, where the chief counsel decides not to
·app.;dnt counsel, the defendant.will ..be provided with information
. and form pleadings i� the defendant's first language.

a.

)lttprneys appointed to review 1;lJese c:11-ses will be c,hosen from a
!1t'OUp of experienced post-conviction counsel who have agreed to
Jlerform the required analysis an.d make detailed recommendations
to the chief counsel. Attorneys agreeing to be so appoil)ted will
be trained. by CPI:$ and will . have CP.CS public division attorneys
available. as. a: reso�ee.

This pt>licy chan9e . is necessary in order to ach.i.eve full
· co1119lial)ce witlf c •.2111>. J:t is intended also to conserve scarce
fisc:al resources; to enhance our -ability. to attract al)d retain
the services of sltilled . priva.te attorneys for meritorious
iJJdigent post-convietion cases; ,and to clireot those services, to
the .extent feasible, toward the representation of those indigent
prisoners whose convictions may be infected with injustices which
�re remediable. ·. rt .should also benefit judicial e,ffieiency, by
judge time spent on clearly nonmeritorious
repucing the. amount.of
. Jliatters. We wish to thank those judges who have on occasior.
. c,�Jlllllunicated to us the need for such a screening procedure.
i;luestions about this policy or its applicability to a particular
case may be directed to me or to Attorney Leslie Walker, Director
of Legal Resources and S1.1pport Services, at the al:x)ve address or
telephone numl:>er .. putside the Boston area, one may call tollfree (l-800-882-2095).

131a

5k

�I/Y¥I/YYI

v�1vv,

o/'

<(/rmvmdte,e fo PJuliic <(/� y�
JJo 88()/1� !/bed, !:luae 6'fJO 88od<Yn, Jlsd 0-2110
TEL: (617) 482-6212

WILLIAM J. LEAHY

FAX: (617) 695-0930

CHIEF COUNSEL
NANCY GIST

DEPUTY CHIEF COUNSEL
PRIVATE COUNSEL DIVISION

September 29, 1992

JAMES M. DOYLE

DEPUTY CHIEF COUNSEL
PUBLIC COUNSEL DIVISION

James Sultan, Esquire
Rankin & Sultan
One Commercail Wharf North, 2nd Floor
Boston, MA 02110
Re:

Commonwealth v. Kevin Francis
Suffolk Superior Court No(s). 037342

Dear Attorney Sultan:
Thank you for agreeing to review the above-entitled matter.
Your responsibilities are to determine whether 1) a miscarriage
of justice may have occurred, 2) the case contains meritorious
issues not previously presented to a court, or 3) the defendant
has not had his/her direct appeal. After your review, please
advise the chief counsel whether or not counsel should be
appointed.
I am enclosing a copy of the Committee's policy regarding
the post-conviction collateral matters for your convenience.
Also enclosed is the Notice of Assignment of Counsel form for the
above case (C0562681-0). Please use this number when submitting
your bill.
If you have any questions, do not hesitate to contact me.
Sincerely,
��

Denise Simonini
Post-Conviction
Assignment Coordinator

:ds
Enclosure

132a

RANKIN & SULTAN
ATTORNEYS AT LAW
CHARLES W. RANKIN
JAM ES L. SULTAN
MARGARET H. CARTER

ONE COMMERCIAL WHARF NORTH
SECOND FLOOR
BOSTON, MASSACHUSETTS 02110
(617) 720-0011
FAX (617) 742-0701

January 8, 1993

William R. Leahy, Esq.
Chief Counsel
Committee for Public Counsel Services
80 Boylston Street
Boston, MA 02116
Re:

Commonwealth v. Kevin Francis, Suffolk No. 037342

Dear Mr. Leahy:

I

133a

William R. Leahy, Esq.
January 8, 1993
Page 2

The Superior Court file reveals that defense counsel was not on the "murder list"
at the time he entered his appearance. There is a transcript in the case file in which a
Superior Court judge (Linscott, J.) indicates that he permitted Mr. Hrones to enter his
appearance even though he was not on the murder list. The judge directed that Mr.
Hrones should not be paid by the state for his work at trial. I do not believe that this
circumstance would entitle Mr. Francis to any relief unless some shortcoming by Mr.
Hrones could be demonstrated.

134a

William R. Leahy, Esq.
January 8, 1993
Page 3

135a

William R. Leahy, Esq.
January 8, 1993
Page 4

136a

William R. Leahy, Esq.
January 8, 1993
Page 5

137a

William R. Leahy, Esq.
January 8, 1993
Page 6

Under the Committee's January 23, 1992 policy, I am supposed to evaluate the
matter and recommend that counsel be appointed if 1) a miscarriage of justice may have
occurred or 2) the case contains meritorious issues not previously presented to a court or
3) the defendant has not had his/her direct appeal.

138a

William R. Leahy, Esq.
January 8, 1993
Page 7

With respect to the first criteria, I assume that the "miscarriage of justice"
standard draws meaning from the standard employed by the SJC and the Appeals Court
in reviewing cases. In Mr. Francis' case, the evidence was not overwhelming. The
Commonwealth presented a key identifying witness who had a remote connection to the
victim's family. The jury apparently found him to be credible. Reading the cold
transcript leads me to believe that he came across in a credible manner. The
Commonwealth presented evidence that the defendant had made some threatening
remarks to the victim a couple of months earlier. That was about it. The defendant has
steadfastly maintained his innocence in communications with us. In the absence of some
colorable legal error, however, I cannot conclude that a court is likely to be convinced
that a miscarriage of justice occurred.
With respect to the second criteria - meritorious issues- I do not think that any
of the issues identified by Mr. Francis or discussed in this letter are likely to result in
relief. I do think that the judge's charge on second degree murder was weak, though
probably not in error. In any event, that issue faces a procedural default argument since
it was not objected to at trial or raised on direct appeal. The Benoit issue is arguably
error. Again, it was not objected to at trial or raised on direct appeal. If I were serving
a first degree sentence, would I want the issue raised now? Certainly. Is it likely to lead
to relief? Probably not. At this point I think that Mr. Francis does not have an
evidentiary basis to go forward on the other issues. I think he is probably better off
withdrawing the motion until such time as he can make a showing of what the alibi
witnesses would have said, or describe the circumstances of his not testifying.
With respect to the third criteria, Mr. Francis has had his direct appeal.
I hope that this letter is responsive to our assignment. I am sending a copy to Mr.
Francis so that he can have the benefit of my thinking. If you or members of your staff
would like to discuss the case, I would be happy to do so.
Sincerely yours,

1�1

James L. Sultan
JLS:pcb
cc:

Kevin Francis

139a

140a

141a

Attorney Richard J. Shea
PMB63
398 Columbus A venue
Boston, MA 02118-6008
Tel. 617-283-6293

April 14, 2000
Attorney Donald Bronstein
Committee For Public CoW1sel Services
470 Atlantic Avenue
Boston, MA 02210
Re: Kevin Francis - Screening Assistnment
Dear Don:
Kevin Francis has requested counsel be assigned to file a second new trial motion.
Mr. Francis was convicted of first degree murder in the September 1981 stabbing death of his
former girlfriend. The SJC affirmed his conviction. Commonwealth v. Francis, 391 Mass.
369 (1984). Mr. Francis filed a pro se new trial motion in 1991. The trial judge (Travers, J.)
denied it in 1993 after CPCS private counsel screened it and the chief counsel of CPCS
declined to appoint counsel. Mr. Francis apparently tried to notice an appeal but the Superior
Court docket sheet leaves off with 1992.

I have reviewed the pro se new trial motion and related pleadings. I agree that there was no meritorious issue
deserving counsel. The most serious point was one line of the jury instructions which, in an apparent lapse, told
the jury, if they found defendant guilty, to return a verdict of the highest degree of murder 'charged'. Later the
judge correctly said to return a verdict of the highest degree 'proved'. The only contested issue in the case was
identity. The circumstances of the killing point to premeditation and extreme atrocity or cruelty. There would
not be a substantial risk of a miscarriage of justice since the evidence pointed only to first degree murder.
1

142a

.,

143a

him.

Because I have corresponded with Mr. Francis, l am sending a copy of this letter to
Very truly yours,

cc: Mr. Kevin Francis

Richard J. Shea

144a

Commonwealth

vs.

037342

Kevin Francis

NO..................................................

O.ff�nse

Murder First Degree
(Dorchester District Ct.#33478)
Paper No.

1

Date of Filing

Dec. 17, 1981
Dec. 18, 1981

. Indictment returned�
Copy of indic_tment an.d notic.e o� the find.ing of. indictment sent to the
.
Chief Just ice and A,ttorney Gen,=ral.
·_1

-•

..

.

Cppy of ipdi�tmeri.�. with p.qtice of fin4=i:-ng o� indictment and that it
wo�ld b_� �J:1-!=er.�d _;for_thwith on do�ket of _this Cou:i;:-t sent by Clerk to Sheriff
for services. �n def�n_dant_ in Cotmnon Jail.
Dec. 22, 1981
Dec. 31,1981

Q:rder o;E not.ice. without. _ret:u.rn of service on ��.f.enclant received· from Sheriff.
Defe�danr -�q�

:t.�

�ou�t ·. - cot1,tinued to January 8, .1982 for arraignment.

. McGuire,. .J.., ..- J3 • .. :Dwyer,. A.D .A� - H. McKenna,. Court Reporter.·
. .
-· .
.
. . of :·s.e:rvice on defendant
Brought into Court -: . Q:,;g�:r;. of�_nQtiqe with ��t�_rn
:
en_dorsed there_oIJ... :bx_ �het"i.f 1; �.il-ed.
.

2

Jan.

8,1982

.

Indictment read.
Pleads-.not .. iuilty ..
Prior bail ..9.t.cl�:i;-� . :r_evo.k.ed
over
145a

Paper No.
·
-·-·····•-·•

···- ··· --·

Date of Fiijng
-·

.. .. ·····--

J

Jan. ··-'
8 1982
________ _ Defendant ordered to re�ggnize in. the sum of $50 , .' OO ... with.... sure�Y.·.-· ·-··· -·· ·-·------··-··-·--

----•-·•·••·•·

,.

.

''i.t• t:im1tA

···-···· -· ..... -· ···•--·•·-·····-· -------·-· ,-J.:I.

-r�_st.1Pn
-------------------··----··---·••·•··

....i...g

•• .•. ········-····-·· ··----·-----···-·····--·---··--··-•--·· ............... .

.. ·--····--··-··-·--··--·--•p�� .

-·..- ·- -···-····---- ·----···· ....... ···-···· ... ·-···-·--·-·--·- -l.i.ns.co.tt.,-J____�_M. _Newman, _A!.P._�_A'.' .... �--·�- ·�····_go]:d}?_erg_!_._Court R�p_Q.;-:t.�;.- .-.. __ �.�. ... Hrone. s '-··--· .
attorney for defendant.

.. 4.

----·· ·-· . ·--- .

. .

·•·-

-· -- ···-----·-·------ ·-·------··-·-·-·····--···-·· ••···· .. - ---·-···
....

-

... ··••·-

--- ··---·---··--

_: :, · .L·L. . ·, . Ch t . .
· ........ .. .... ···--··- . .......G.
.... _____ ..... _.... .....
. _en.e.r.a. . .aw..s ..,....... . ap...e.r.... 261
.. . ... .., ... . s·. .e.c ..... ion ...,·.2. =.1.:c·. .... ·-···----···· ... .... .. ...... --·--· ······ ·---•-.......... .
..

. ... '·

5.

� :�-.C�t!itf·�.·§.]..l9_!is .:.�.?9. __g9:ys_ . f.9_�

�h�. fili�g. 9£'. �P��c:ia.1 µiotio��,

i.e. matters not

. ...... ag;(_�_e..d ....t.o. . _a.$. . .. :r.(:ipo�.t�
- 4· .in __f�¢.:.'.t:ria:L ...�o.n.£�.t.e..ric� .. ��.P..o.+t... �. thi..s .�.t . req:ue.s.t.. . of
...">d:e£Jii.e .··c·o�.el ... . cburt:. ·al.lows. Mbt:ton .for Investigative E-unds. a nd, .a fter
· hii�rihg_:, · takes Mo.t:.io.n ·:for Allowa nc�. ·df Extr.a Fees a nd. Costs under .advisement .
.
.. .
·.:
·
.
.::A..::Llns.cate; J .. - M. Newman, ADA - E. Go.ldberg, Court Reporter
.
.
. . s.>1Hrbhe:S., attorney.
£.d.r defendant.
.

Jan. 29,

1982 ...

..

.

··
'")

_:

.

'

:

Mo.tion .f.�r. .Investigative .Fund:s deriied .
.(S .. Hrones, attorney notified)

. 6

·
Defen.dant . . not in Court. - . Defenda nt's. . Motion . f o.r.. Ac.q�5=s to Criminal Rec.ords
of Commonwealth Witnesses· fil'ed and ·all'c>:we¢l.
CONTINUED
146a

I

I

j

.'.tPaJ?erNo
·:·:..:.:-.::..:: ·-: ;::: :·...:::....· ".�rr-:.· =:.: ·;::·:-.: =�::

:::.:7.:.. :.:·--·-:-····

=··. ··--·

~rr· ·--··--·-

____ Date of Fi�·•-··•· ·-·.l.--·-·--------------__;;;;2'---___________________N..,__Q.,___Q.3_]342

7

·'

Jtme

23,

:I Defendant
I

1982

8

10
11
12
13

:: Motion to Suppress Statements of defendants;

:!

ij

I.

9

files: Motion for excplp�tory evidence;

•i

.'·

i:

d

Affidavit in support; and

! Memo randum;

,:

d Motion to Suppres·s· Identification. of defendant by Witness Terrance Smith;

.!

·i Affidavit

jl
1·

i�l� Memo

li
14

il

t;

and

randum·

Continued

in support· of same.

to July 12, 1982 fo r s ta-tus.

d Kelley, J. - M. Newman,.· A.D·.A. - G. Letoile, Court Reporter -

;j

:! S.
'I

ii

\�;July 14, 1982

ii

H rones,· ,A.ttorney for . the defendant

Brought into· Court - Neal Terr elonge, a· witness,

recognizes

personally

d without surety in the �um of $100.
i;

Heari�g Re:

defendant's �otion,to. Supp ress Statements of defendants

and Motion to Suppress Identification of defendant by witness Terrance
j

i/

July 15, 1982

Smith.

On oral motion of defenda�t, all witnesses sequester ed.

Brought into Court.- .aear ing on Motion

r esumed.

;; July 15, 1982

Brought into Court

H�ar ing on.Motion . r esumed.·

16, 1982

B rought into.Court

Hec;tr ing· on Mqtion .. r e$umed.

l July
·.1

ti

,.

i

After hea�ing, defendant's _Mo·tion for Excu.lpat.ory Evidence--Items 112,3,10,

14, 15 ,. 18

and.

19

each. allowed· by agreement.
OVER

147a

Items

1149

and

1/21

allowed.

====ff=======tt===================---==- ::::::::.--::::-:. .. ==========--=·:=.
___

Paper No.
Date of Filing
-----tt----- ----+lf------------------------------------------

t

Items· 4/1, 5, 6, 7 ,·9 � li'/i2, 13·, 16, 7 , 20, 22, and

July·16, 1982

23

·each denied - Item

418

denied

without pre'ju;�i'ce.:
Brought into Court - After ·further he·aring on defendant's Motion to Suppress

July 19 , 1982

statements of defendants and Motion to Suppress·identification of defendant

py

�tnes·s·, Terr-a.nce�:•Smith, each ·tak_e� under advisement.

Kelley, .J. - G. Letoile,· Court Reporter

14

Aug.

30, 198.2

Kelley, J. Findi�gs, R�li�gs, and 0rder of the Court on defendant's Motion
to Suppress, filrea� an.d 'den�e-d.
: :- .. (M� - -·Newm.an> ·A:-�:E>-iA-_. '. ;: and: S _.,:Hr.ones,. a'.tt�·rney_ each notified_ with copy)

15

Sept. 10, 1982

Defendants moti'cm;•;pur:suant to· General Law_s, Chap-te� 277, section 6 6 filed by
� ,: -agreem�nt� :·all_owed 1 ·a..�0to 1tem-·1/:1;2 and 4 - Process issued for September 10,
1982.

Travers, J. :

-.- S. Hrones·,
:Sept. 13, 19'82
Sept. 14, 1982
16

7

--·

•

��\M-�

Newman, · ADA - H. McKenna, court reporter-

-·attetney-· fbr: d·�fenda.nt

Brcnigh:t <into:>-court_·s ::•:..-,c·ourc· orders a: jury of fourteen members -impanelled.
Bro-q.ght into Court·.-:_ ·,.J'ury _;impanelment continued- jury trial before Travers, J.
--

Commonwealths' ·motionti for a · view filed and allowed.
Exhib;Lts··:on the - hea�rirtg re: motio_n to suppress returned to the District
Atto,;:�:1iey ·-f<�r-� appr0pri�te::action, by order of the Court - Receipt filed.
Sept.· ·15, 19-82

. B:I90U:�h•t:_:iJ?-•�o;•
. _Cour� �:-�tri�l resumed .:. On oral motion- of the defendant,
Connnon.wealth::·hav.irrg,1no·:•object:ions, · all witnesses s�questered.

/.

.

.
contintted

148a

Paper No.

S�pt, 16,

1982

Sept. _17, 1982

17

No. 037342

-3-

Date of Filing

_Bro�ght into Court- .... trial_ x-e�um�d
Brought into Court - tr,t,.al .
.......�t �!J,� co�clusi:9� of the Comme>l}w�al th' s
. res��d
.
evidence, Def_endapt' � motion. fo::r ·di. .re
. ct.ed verdict. filed, after hea:i;ing.,denied
Trial. continued.

Sept.

20, 1982

Brought i�:to _Court the jury, the C9.ur�

t���.l. ;-_����4 . -� . it .. .th:e fi'.!l�;i. s�b�i_ ssj;.on ·of the case
ord;ere,d t:� J:uxy _re_q.qc�d t.o. twelve in numbe� and t.h e.

. .•. __liill.
names of f:r;e.deri,.ck .. V. :_I,,.e.yd,en.-::�(1!2.9_l).... Q.n�;L.J.o.h.P....E.

UJZ33)

to

.we.�.e dr�wn....

anq. desi
_ g-g.�te:d �lte.rnate _j;µrof�.! . . .. .... .
Sept.

21, 1982

. .
Brough_t into Court �. Jury A�li��;�tiqns.. �9µ.tipue .·.
V�rdict Guilty .- Ver�ict,:__ AJ;f�n;ne.4 ...

18

Ve.�dict slip filed ..
. .io.t1;,.
C.omrrionwealth .moves . f9-r .di.s.p.Q�.it
M.C.I., Walpole - l�fe
.. D.efend.a nt ___ci.e_emed .. to. .

hav.e __ s_erved .. l.94

. days

:�-f

sa:f.<:i sentence.

c. P..

Defendant ..notified .. Qf ...r.ight. _ to ... ap_pe.al ..in. acc.ordance wi.th rule 28;. M;. R., ..
Mittimus issued
Tr.a:v.ers..,.· J� .... "."' .. .M •. Newman,. ADA .. !: .. H. __ McKe�a, . c.ourt reporter
..S..... Hrones ., .a .tto.rne.y.-��fe.rid��- ---•··•· __ ....... ........

19

Defendant I s motion for the ·examination o.;e prospective ju:t'ors r·eceived _
from Court and filed,· allowed and deriied in part .. see ·Transcript. T.rave:rs, J.
(OVER)

149a

Paper No.

Date of Filine;

S ept . 29, 1982 ·

20

-�:-S:ept; ..

�_9/

1982

D efendant� s Notice of App-�al fil ed.

��PY

�f.no t .�� e 0�

�_p_p�a1:....���!�4

tC?_??rave rs, J. and M. Newman, ADA.

·
1.�.t.ter _-sent to..- G:Ourt. .. Jepor:t�rs, Gotdb e·�g, Le toile, · and McKe nna, for pr�paratio�
�� transcript;s..
.
· �fic�t.� j;�f· ci e;r�.. .fil�tt.
G�rt
.
. .

21

:p�fend.a.nt '· s -�ro

2. 2.

.... 2_3. ..

Se

·
M;c;,tt�� :f;or '---a ·1 copy of free transcripµ file d.

·
(T��:ver�, ·J � · �qt;i;f .� e.�

. . P.ec. 1, 198.2
..
19 83

. Feb ...
. 9., 1983
. f�b � .

15 , l. 983

Mar. 2, 1983
,
.Ma�.11,
1983

Jie: f ·I)efe11,9an�.' s

1
. :ti�m�>:1;:9-nd�-- 9£ T.?;�V:��.�-'· �)\ .,

trans��ipt"l

.. _J�!> .. 9- ..�

�W!tH :�co:py)

motion for a copy of fr ee

·:reced�ved'.··;·�haf ·trt�4( · ·(De'fendarit ·uotifi

e.d)

Notice s ent to . atto��e_1._··���0nes.·. /r e ·: :.�ost_ O·f. transcripts.

Notice sent to. 1:1 •. Newman, A.. D .A. tha.t. transcrtpts . a
_ re . available .
.
trc3:nscript •
Le. tte:i;_ ..�ent tp atto.fu.�i.)lignes

·t�·-=

Motion to withdraw ?,S c;ouns�l fil.ed ..

... Defendant: not:·1n>Cotitt i ·�-.-Aft.er .hea:ting,<court orde rs a copy of transcript

···· ····---- - --·-·.-····-·-···· ·--··-�-· ·····--· _J:;_��j).�_Q_._pye,);__to _A:tto_rng_y�Hro.n�.S....withdtit.costs.
Motion #24 denie d .

. Dwyer., ..

:J. ......- _ B:.: _Dwyer ., .�.�A�·:::

J ..

:B.ro:wn, . .Cour.t.Rep.

.

e.r.
o rt.

-.

·
, . •··-··· ----·-··· ·· ............... -····· .. ··- . S_.____ Hr.ones_,____ at.to.:t:ne¥-·a e'feridant •" . ··--·------····-·�-· .. . . .... . ...... _.. .
aila l e .
Noti.ce ·se�t _.to
___ ____ �ijar .. · 15, 1983
. _.At.tor.1:�Y.�:_!"!=:���·�····��-�� ..
��
b

.£.or

··-•· ..

- ----·-···

.. _____ ,._ _
..'

•• •

J

t:��-���:����-}�--�.� .

. � .. ..___ ··-·. -.! �

,

150a

continued

Paper No,

Mar. 18, 1983

Notice sent to M. Newman, ADA that transcripts are available.
Certificate of delivery of transcript qy Clerk - filed.

25
26

No. 037342

-4-

Date of Filing

Mar. 24, 1983
April 5, 1983

Certificate of delivery of transcript by Clerk - filed.
t;:o Clerk of Supreme Judicial
of record sent
Notice of completion of assembly
,
.
r:
Court and Attorneys for Commonwealth and defendant.
Two certified copies of docket entries, origina� and copy of transcript,
two copies of exhibit list and list of documents, each transmitted to Clerk
of Appellate Court.
Attorney Hrones and M. Newman, A.D.A. notified.

27

A pr. 5 ,19 84.

Rescript received �rom SJC "Jud_gem�nt affirmed", filed.
(S. Hro�es, attorney for defendant and M.Newman,ADA each notified)

28

May 31, 1984

(gs)

Attested copy of Supreme Judicial Court .Order re: payment of $1400 to
Stephen Hrones, Esquire, filed.

29

Attested copy of Supreme Judicial Court re; paym�nt of $1,186.60 to
(gs)

Stephen Hronesi Esquire, fil�d.
Sept. 5, 1989
31

Defendant files: Pro Se Motion for copy.of traqscripts and affidavit in
support of.

Sept. 8,198 �

(Travers, J. notified with copy)
Defendant's Pro Se Motion for copy of h is trial transcripts, allowed.

( jv)

(gs)

Travers, J.
(OVER)

151a

Poper No.

Date of Filing

Ma.t 24,1991

Def�riddnt files; Motion·fbr a New' �rial;
Affiddvit in su��ort thereof;
Memorc1.11uum of Law' in Slli:,>port thereof;
Motion for the ai:,>j:>Oint1nent of cou11sel �

33

Affidavit in Su��ort·thereof;.
Statement of indigency.
(Travers, J. notified
· 34

wftn

COi:,>ies)

Order a.l loY1in.1::1 defendant's 1"1otion for A�,t:Jo·i11.tment of counsel endorsed
March 9 ,. 1992.

..

Travers ,.J •.
' \

.

(uffice of Pi1blic counE,;el notified vli�h
35

July 12, 1993

Defendant files Prose:

COJ:lj

of Order of Travers, J.)

hJS)

Motion for an evidentiary hearing on pending rule 30(b) motion for a new trial, Mass Rules
Criminal Procedure Rule 30.
(rp)

(Travers, J. notified with1 copy)
36

Sep. 23, 1993

Motion for a new trial is-denied without a hearing, Travers, J., filed.
(K. Francis, d�fendant notified-'.with copy)

(rp)
(rp)

37

Oct. 12, 1993

Defendant fil•es Pro·se: Notice of appeal.

38

Dec. 8, 1994

Defendant files: Motion with Supreme Judicial Court waiver entry cost;

39

. _l��i-�ion for_ r�l;�� -��d�_r ..�..!.!. -���t 1-4 af�-i��y�_t__ i_� suppo:�. o_�.· ...
(Travers, J. notified with copies)

152a

(rp)
(CONTINUED)

Commonwealth
Offense

Paper No,

40

41

-5-

vs.

NO •. g-3.7-342 ..............................

Attorney

Date of Filing

Nov. 18, 1996

Defendant files Prose: Motion to correct docket ent�ies oversight.
(Volterra, J. notified with copy}

{rp)

May 9, 1997

Paper #40 denied without a hearing. Volterra, RAJ.

(rp)

Feb. 17,2000

notice received from CFCS that

attorney Richard Shea has been assigned to screen the

the case and report to cief counsel and advise chief counsel whether or not counsel
should be appointed.
42

May 9, 2000

(rp)

Notice received from CPCS that Attorney Richard Shea has been assigned to

screen

the the case for new trial and report to chief counsel and advise chief counsel
whether or not counsel should be appointed. (defendant notified)

153a

(rp)

154a

155a

156a

157a

158a

159a

160a

161a

162a

163a

COMMONWEALTH OF MASSACHUSETTS
SUFFOLK, ss

SUPERIOR COURT
CRIMINAL ACTION
NO.: 1981-037342

COMMONWEALTH
v.
KEVIN FRANCIS

MEMORANDUM OF LAW IN SUPPORT OF APPLICATION OF SJC
RULE 3.7(a) (3) TO ALLOW DEFENSE COUNSEL TO TESTIFY AS
A WITNESS ON BEHALF OF THE DEFENDANT AT AN EVIDENTIARY
BEARING AS TO FACTS RELEVANT TO CHAIN OF CUSTODY OF
FILE DOCUMENTS AND THE DEFENDANT'S REACTION TO THE
MURPHY REPORT SHOULD THIS COURT ALLOW ORAL EXAMINATION
OF THE CONTENTS OF COUNSEL'S AFFIDAVIT.
INTRODUCTION
On September 29, 2016 the Court ordered an
evidentiary hearing in this case on the defendant's
new trial motion. {Kaplan, J.) The judge ordered the
parties to work together on scheduling, a list of
witnesses who would testify, and on various issues
related to evidence to be presented at the evidentiary
hearing. The judge asked the parties to communicate
with the Clerk of the Court during January or February
as to scheduling for a hearing. The parties have been
working on scheduling, discovery issues and a witness
list periodically since December 2016.

164a

Undersigned counsel is informed by the
Commonwealth that the Commonwealth objects to this
Court accepting for consideration the contents of
counsel's affidavit filed in support of the defendant,
Kevin Francis's, new trial motion in this case. The
Commonwealth seeks an opportunity to cross-examine
counsel as to the chain of custody of file documents
and Francis's reaction to receiving a copy of The
Murphy Report. Further, the Commonwealth takes the
position that because undersigned counsel would
testify as a witness as to these topics at its
insistence, counsel can no longer serve as Francis's
attorney, counsel must be disqualified, and Francis
must accept another attorney as a replacement.
The evidence the Commonwealth wishes to challenge
in counsel's affidavit is essential evidence Francis
needs before the Court on his Rule 30 motion: the
evidence relates to the chain of custody of documents
and Francis's reaction to seeing The Murphy Report, a
document not produced in pre-trial discovery, for the
first time. If this Court is not going to consider
that evidence without granting the Commonwealth an
2

165a

opportunity to cross-examine on it, counsel must
testify as a witness. Without the evidence, Francis's
factual showing on his motion, as to The Murphy Report
withholding claim, is eviscerated.
It is Francis's position that, were this Court
not inclined to simply consider counsel's affidavit as
evidence on the new trial motion without permitting
cross-examination, in accordance with Rule of
Professional Conduct 3.7 - Lawyer as Witness - his
attorney should be permitted to remain as his attorney
and become a witness solely in order to provide the
Commonwealth with an opportunity to cross-examine her
as to certain topics addressed in her affidavit.
Attorney Ira Gant, who has a notice of appearance on
file as co-counsel on behalf of Francis in order to
assist at the evidentiary hearing, can handle a direct
examination and any issues that occur during cross­
examination of undersigned counsel at the evidentiary
hearing on this matter.
RELEVANT FACTS
The circumstances under which counsel came to
represent the defendant in this case are unique and
3

166a

extraordinary. Those facts, supported by affidavits
accompanying this memorandum, are recounted here as an
offer of proof as to why Francis would suffer a
substantial hardship were counsel to be disqualified
from his case.
In 2010, undersigned counsel represented a
defendant named Terrance Reeve in connection with the
Commonwealth's appeal of a Superior Court justice's
grant of Reeve's motion to revise and revoke his
sentence.

(Commonwealth v. Terrance R. Reeve, 10-P-

924, December 8, 2010). Throughout the course of
counsel's representation of Reeve, Reeve implored
counsel to investigate the conviction in this case, as
Reeve had known Francis for more than ten years and
Reeve had come to believe over those years that
Francis was innocent. Counsel developed a strong
attorney-client relationship with Reeve, whose case
had virtually no chance of success at all in the
appellate courts, but was nonetheless hard fought.
Counsel informed Reeve through 2010 and 2011 that
she was too busy to investigate this case, and
recommended Reeve advise Francis to write to the CPCS
4

167a

Innocence Program and ask that a screening attorney be
assigned from the list of available murder screeners.
Francis refused to take that advice, as he decided he
wanted undersigned counsel as his attorney, and no one
else, based upon Reeve's commentary and recommendation
to him.
Throughout the latter part of 2010 and 2011,
Reeve persisted in his efforts to convince undersigned
counsel to investigate Francis's case. Counsel
repeatedly refused, explaining her workload was such
that she could not accept new clients.
In early 2012, Reeve was released from prison. In
March, he contacted undersigned counsel to set up a
lunch meeting. At the meeting, Reeve explained he had
obtained a good paying job, and had steady employment.
He offered to hire undersigned counsel privately to
screen Francis's case and pay her with his own money.
It was at that point undersigned counsel agreed to
accept appointment from CPCS to screen Francis's case,
as Francis was indigent and eligible for court­
appointed counsel, provided Francis was willing to
wait several months until counsel had time to begin

5
168a

work. Francis agreed to wait, and in July 2012 counsel
was appointed by CPCS to screen Francis's case. That
screening resulted in the filing of the new trial
motion currently pending.
It is Francis's position, based upon his prior
experience with lawyers, that had undersigned counsel
not agreed to screen his case, he would not have
pursued post-conviction relief with any other lawyer.
It would therefore work a substantial hardship on him
were this Court to disqualify undersigned counsel as
his attorney at the Commonwealth's request. If the
Court exercises its discretion to allow examination of
counsel on her affidavit, Francis asks that this Court
permit counsel to testify pursuant to SJC Rule 3.7(a)
(3) based upon a finding that disqualification would
result in substantial hardship to him.

ARGUMENT
Pursuant to Mass. R. Crim. Pro. 30(c)(3), this
Court has the discretion to accept the evidence
contained in undersigned counsel's affidavit in this
case and consider it without oral testimony from
counsel at all. ("The judge may rule on the issue or
6
169a

issues presented by such motion on the basis of the
facts alleged in the affidavits without further
hearing if no substantial issue is raised by the
motion or affidavits.") The Commonwealth seeks
examination of counsel on her affidavit, and takes the
position that its request should result in
disqualification of counsel in this case. It is
counsel's position that were this Court to grant the
Commonwealth's request for cross-examination, this
Court should allow counsel to remain as Francis's
attorney, for to disqualify counsel would work a
substantial hardship on Francis.
SJC Rule of Professional Conduct 3.7 - Lawyer as
Witness - provides as follows:
(a)

A lawyer shall not act as advocate at a trial in
which the lawyer is likely to be a necessary
witness unless:

***

(3)

disqualification of the lawyer would work a
substantial hardship on the client.

The Comments to the Rule state:

[l]

[2]

Combining the roles of advocate and witness
can prejudice the tribunal and the opposing
party and can also involve a conflict of
interest between lawyer and client.
The trier of fact may be confused or misled
by a lawyer serving as both advocate and
witness.

***

7

170a

[4]

... [P]aragraph {a) (3) recognizes that a
balancing is required between the interests
of the client and those of the tribunal and
the opposing party. Whether the tribunal is
likely to be misled or the opposing party is
likely to suffer prejudice depends on the
nature of the case, the importance and
probable tenor of the lawyer's testimony,
and the probability that the lawyer's
testimony will conflict with that of other
witnesses. Even if there is risk of such
prejudice, in determining whether the lawyer
should be disqualified, due regard must be
given to the effect of disqualification on
the lawyer's client. It is relevant that one
or both parties could reasonably foresee
that the lawyer would probably be a witness.

It is Francis's position that disqualification of
undersigned counsel would work a substantial hardship
on him for the reasons set forth in his affidavit
accompanying this memorandum. Affidavits are also
submitted from Reeve and from undersigned counsel
relative to this argument.
In balancing the interests at issue here, counsel
notes there is no risk that the motion judge, unlike a
trial jury, could be confused or misled by counsel
serving as both advocate and witness for a brief
period of time. The Commonwealth has requested cross­
examination on chain of custody and facts related to
the defendant's reaction to seeing The Murphy Report
8

171a

for the first time. Should this Court be inclined to
grant that request, such examination can be
accommodated without confusion to the motion judge.
The motion judge would not be misled by any such
arrangement.
Were counsel to serve as both attorney and
witness in this case for this limited purpose, the
Commonwealth would suffer no prejudice. The testimony
counsel would give relates to chain of custody of
documents and observations of the defendant that are
detailed in counsel's affidavit submitted in support
of the new trial motion, which the Commonwealth has
had for almost a year and a half. These facts are the
type of facts that are typically part of affidavits of
counsel in post-conviction cases. For this reason, it
was unforeseeable that counsel would end up as a
witness in this matter, as such affidavits are
routinely accepted as a matter of course without
examination, and even were it foreseeable, it would
have been unavoidable.
Counsel, a solo practitioner, was the only person
in a position to investigate and review the file
9

172a

documents collected and retrieved in this 35+ year old
case. Counsel was the only person present when the
defendant saw The Murphy Report for the first time, as
that event took place during an attorney visit at
MCI-Norfolk. Attorneys do not routinely meet with
clients with witnesses present, as the attorney-client
privilege applies only to confidential communications.
In addition, unless a law practice is structured in a
manner that has multiple members of the practice
reviewing and working on the same issues in a case
contemporaneously, there is never a witness to a chain
of custody-type document review like the one that took
place in this case.
As set forth in the affidavits accompanying this
memorandum, disqualification of counsel would work a
substantial hardship on the defendant. At the same
time, counsel's evidence as to certain facts is
essential to forward the defendant's claim. This Court
should not force the defendant to choose between his
attorney and his evidence.

10

173a

CONCLUSION
For all of the foregoing reasons, if this Court
decides to afford the Commonwealth an opportunity to
cross-examine counsel on her affidavit submitted on
the new trial motion, Kevin Francis requests that this
Court allow his attorney to serve as both lawyer and
witness in this case for that narrow and limited
purpose, and not disqualify her as his attorney.

RESPECTFULLY SUBMITTED,
On behalf of the Defendant
Kevin Francis
By his

841 Washington Stre
Holliston, MA 01746
508-893-6031
appellatedefender@gmail.com

11

174a

COMMONWE ALTH OF M A S S A CHUSETT S
SUPERIOR COURT
CRIMINAL A CTION
NO.: 1981-037342

SUF F OLK , ss

COMMONWE ALTH
v.
K E V IN F R AN CIS

_________________

)
)
)
)
)
)
)
)

MON DAY FEBRUARY 20, 2017

AF FIDAVIT OF KEVIN FRANCIS

I, Kevin Francis, hereby depose and state:
That I met Attorney Amy Belger, through a friend of mine
by the:_ name of Mr. Terrence Reeve.

Mr. Reeve was a client

of Attorney Belger at the time.
Mr. Reeve and I were incarcerated together for about lO(ten)
years.

It was during the time that Attorney Belger was

assigned represent Mr. Reeve for his "Revise and Revoke"
that I first became aware of her.
It was over the next few years, through numerous conversations
with Mr. Reeve in which he continuously reiterated the level
of expertise and effort Attorney Belger was putting forth
to obtain justice for him.

On several occasions I openly

wondered how I might be able to get Attorney Belger to represent
me in my quest for justice.

After some time, and many more

"in-depth" conversations with Mr. Reeve it became clear
that l needed Attorney Belger.
Over the Past 35\ years, I've had to deal with numerous
attorneys with regards to my case.

175a

All to no avail.

I've

-2always known, in my heart, that they really didn't care
about the truth or justice.

They all seemed to be more

concerned with their own reputation as opposed to doing
their due diligence on my behalf.

With this being my history

with attorneys I had basically come to the conclusion that
I would never be able to receive justice.

That no attorney

would ever put forth the effort required to uncover the
injustices in a 35� year old case••• That is until I met
Attorney Belger.
I decided that would turn my case (and life) over to
Attorney Belger.

In 2011 I wrote to The Committee For Public

Counsel Services requesting that Attorney Belger (specifically)
be assigned to screen my case.

If I couldn't have Attorney

Belger assigned to my case then I would've continued to
bide my time until she became available.
If Attorney Belger is removed from my claim because of
her being required to testify I would opt to drop my ''Murphy
Report" claim and try to proceed without it just so that
I might be able to keep my attorney of record, and I steadfastly
refuse to proceed without Attorney Belger.
As anyone can see, the effort that Attorney Belger has
put forth on this 35� year old case exceeds extraordinary.
At no time during my quest for justice has ARY attorney
been able to uncover "The Murphy Report" or any of the other
violations that Attorney Belger has uncovered.

Because

no other attorney is Attorney Belger.
Attorney �elger has been more involved with this case
than any attorney.

Ever.

The loss of My Attorney, Attornrey Amy M.
cause irrepatable harm to my legal defense.

176a

Belger, would
A defense which

-3has been constrQcted by Attorney Belger, through years of
tireless research and dogged determination.

The removal

of Attorney Belger f rom my case, a case in which her intimate
knowledge of the entire case file is un-equaled is unheard
of .

It is tantamount to or even more egregious than a grave

miscarriage of justice•••
I just don't see how something li ke this can be called
"justice".

SIGNED UNDER THE PAINS
AND PENALTIES OF �RJURY
ON THrsdL_DAY

2017.

M. C. I. Norfolk

P.O. Box ff 43
Norfolk, MA 02056

177a

OF\-�'

178a

179a

180a

i�r·�· ,�

(--=-,.....---t:r.��-

:�.. :·�:.. . :.·,,.,:.:.·� . �.
. : .

.

:·· ..

. - . -� .... - . ...
. I:
_

.

,· :;�ilt,,�

. . .::,::...--:.:

• .:1:.----"T'.' •o,.f

: .: ...
l

181a

Cl3/\I3:::>3c!

• -- --· ·

··:•

....

..=-

• 4

.._��-

I

COMMONWEALTH OF MASSACHUSETTS
SUFFOLK, ss

SUPERIOR COURT
CRIMINAL ACTION
NO.: 1981-037342

COMMONWEALTH
v.
KEVIN FRANCIS

AFFIDAVIT OF ATTORNEY AMY M. BELGER IN SUPPORT OF APPLICATION OF
RULE 3. 7 (a) (3)

I, Amy M. Belger, hereby depose and state:

1) I accepted assignment from the Committee for Public
Counsel Services as post-conviction screening counsel in
this case at the specific request of the defendant, who
wanted me to screen his case based upon what he learned
about me from his friend, Terrance Reeve. Mr. Reeve is a
former client of mine.

2) Mr. Francis waited a long time for me to become
available to screen his case. Beginning in 2010, I
encouraged him, through Mr. Reeve, to work with another

182a

attorney, who would be available sooner, to screen his
case. Mr. Francis refused to do so.

3) In March 2012, I finally agreed to screen this case for
Mr. Francis when Mr. Reeve tried to hire me privately to
do so. I explained to Mr. Reeve it was not lack of
money, but competing demands on my time, which
repeatedly led me to urge another attorney on Mr.
Francis. I did, however, understand at that point the
level of desire Mr. Reeve had to have me screen this
case, as he explained to me that he was unable to fully
enjoy his freedom while Mr. Francis remained in prison
without an attorney Mr. Reeve trusted to help him. As a
criminal defense attorney, it is difficult to say no to
a client you represented, who finally has gained his
freedom, who says he cannot fully enjoy it without your
assistance.

4) When I was notified by the Commonwealth that they would
move to disqualify me as Mr. Francis's attorney if I
needed to testify as a witness, I contacted Mr. Reeve
and I explained to him the status of the case. I
received a handwritten affidavit in support of this
memorandum in the mail from Mr. Reeve on February 25,

2

183a

2017, and I have included it with this filing. The last
page of what I received on February 25 was not signed. I
contacted Mr. Reeve and explained that such submissions
to a court need to be signed under oath. I sent a
scanned copy of the affidavit back to Mr. Reeve on
February 26, 2017. I asked him to read it over again,
and if it was accurate, to add his signature to the last
page indicating he was signing under the penalties of
perjury, and fax it back to me. He did so. I recognize
Mr. Reeves' handwriting and his signature. The original
of the signed page is on its way to me in the mail.

5) Over the years since July 2012, when I began work on
this case, I have developed a strong attorney-client
relationship with Mr. Francis. He has expressed to me
many times the sentiments he sets forth in his affidavit
accompanying this memorandum about how he views his work
with me. In light of those sentiments, I ask that this
Court not disqualify me as his attorney if it allows the
Commonwealth to examine me as to the contents of my
affidavit submitted on the new trial motion. Based on
what Mr. Francis has stated with respect to this matter,
I do believe it would work a substantial hardship on Mr.
Francis were this Court to disqualify me, and I

3

184a

therefore believe the standard under Rule 3.7(a) (3) is
satisfied.

SIGNED UNDER THE PAINS AND PENALTIES OF PERJURY THIS
�DAY OF�.(

4
185a

2-0J7

Supreme Judicial Court for the Commonwealth

Full Court: SJC-12683

Filed: 5/23/2019 2:21 PM

COMMONWEALTH OF MASSACHUSETTS
SUPREME JUDICIAL COURT
SUFFOLK, SS.

NO. 12683
_______________________________
KEVIN FRANCIS
Petitioner/Appellant
v.
COMMONWEALTH
Respondent/Appellee
_______________________________

ON APPEAL FROM A JUDGMENT AND DENIAL OF
A NEW TRIAL MOTION IN
THE SUFFOLK SUPERIOR COURT
PURSUANT TO G.L. CHAPTER 278, §33E
_______________________________
BRIEF
OF THE PETITIONER/APPELLANT
_______________________________
FOR THE PETITIONER:
AMY M. BELGER
LAW OFFICE OF AMY M. BELGER
841 Washington Street
Holliston, MA 01746
508-893-6031
BBO # 629694
appellatedefender@gmail.com
MAY 2019

186a

IRA L. GANT
INNOCENCE PROGRAM
COMMITTEE FOR PUBLIC
COUNSEL SERVICES
21 McGrath Highway
Somerville, MA 02143
617-607-5771
BBO # 678706
igant@publiccounsel.net

TABLE OF CONTENTS
2-8

TABLE OF AUTHORITIES
ISSUE

9

INTRODUCTION

9-13

STATEMENT OF THE CASE

13-14

STATEMENT OF FACTS

14-20

SUMMARY OF THE ARGUMENT

20-24

ARGUMENT

23-55

I.

MR. FRANCIS’S SIXTH AMENDMENT RIGHT TO
COUNSEL WAS VIOLATED WHERE THE COURT
PERMITTED AN ATTORNEY HE DID NOT
RETAIN, DEEMED UNQUALIFIED TO TRY
COURT-APPOINTED MURDER CASES, TO
REPRESENT MR. FRANCIS FOR FREE, ABSENT
A WAIVER COLLOQUY OR ANY INDICATION
THAT MR. FRANCIS WAS MADE AWARE OF HIS
RIGHT TO CHOOSE BETWEEN COMPENSATED
COURT-APPOINTED COUNSEL AND AN
UNPAID VOLUNTEER LAWYER.

23-31

A. Mr. Francis did not choose or retain Attorney
Hrones, and the trial court did not inform Mr.
Francis that Attorney Hrones was not a courtappointed lawyer.

23-28

B. The trial court failed in its duty to provide the
indigent Mr. Francis with court-appointed
counsel qualified to handle first-degree murder
cases.

28-31

187a

II.

THE EXCLUSION OF MR. FRANCIS FROM
THE SIDEBAR WHERE ATTORNEY HRONES
WAS PERMITTED TO REPRESENT HIM
DENIED MR. FRANCIS HIS CONSTITUTIONAL
RIGHT TO BE PRESENT AT A CRITICAL STAGE
OF THE TRIAL PROCEEDINGS.
A.

B.

III.

The trial court failed in its duty to provide
Mr. Francis with a fair trial by excluding
Mr. Francis from discussions and decisionmaking about whether the court would
appoint Attorney Hrones to represent him
at his murder trial.

31-33

An attorney, not retained by an indigent
defendant, asking the trial court for
permission to try the defendant’s firstdegree murder case for free, and the trial
court granting that request, constitutes a
“critical stage” in the trial proceedings.

33-38

THE VIOLATIONS OF MR. FRANCIS’S
CONSTITUTIONAL RIGHTS TO COUNSEL
AND TO BE PRESENT AT A CRITICAL STAGE
OF HIS PROCEEDINGS ARE STRUCTURAL
ERRORS REQUIRING A NEW TRIAL.
A.

B.

C.

31-38

38-53

The right to court appointed counsel due to
indigency is a fundamental right that is
unlikely to be waived freely.

42-47

The right to be present at a critical stage of
one’s trial is a fundamental right unlikely
to be waived freely.

47-48

Weaver confirms these violations are

188a

IV.

structural errors of the type requiring
automatic reversal.

48-53

THIS COURT SHOULD EXERCISE ITS
AUTHORITY PURSUANT TO G.L. c. 278, §33E
TO ORDER A NEW TRIAL.

53-55

CONCLUSION

55
[

Addendum

58-88

TABLE OF AUTHORITIES
Table of Cases
Commonwealth v. Amirault,
424 Mass. 618 (1997)

37

Commonwealth v. Anderson,
448 Mass. 548 (2007)

44,51

Commonwealth v. Angiulo,
415 Mass. 502 (1993)

35

Commonwealth v. Caldwell,
45 Mass. App. Ct. 42 (1998)

35,36

Commonwealth v. Campbell,
83 Mass. App. Ct. 368 (2013)

34,47

Commonwealth v. Colon,
SJC-12362 (May 3, 2019)

35,36

Commonwealth v. Dosanjos,
52 Mass. App. Ct. 531 (2001)

35,36

Commonwealth v. Dyer,
460 Mass. 728 (2011)

35

189a

Commonwealth v. Fernandes,
390 Mass. 714 (1984)

37

Commonwealth v. Fontanez,
SJC-12469 (April 16, 2019)

36,37

Commonwealth v. Gomes,
470 Mass. 352 (2015)

54

Commonwealth v. Kater,
388 Mass. 519 (1983)

55

Commonwealth v. L’Abbe,
421 Mass. 262 (1995)

34

Commonwealth v. Lacy,
SUCR1974-79994

12,27,28,39,43

Commonwealth v. Maldonado,
766 Mass. 742 (2014)

54

Commonwealth v. Myers,
82 Mass. App. Ct. 172 (2012)

37

Commonwealth v. Olszewski,
401 Mass. 749 (1988)

55

Commonwealth v. Pavao,
423 Mass. 798 (1996)

37

Commonwealth v. Robichaud,
358 Mass. 300 (1970)

35

Commonwealth v. Torres,
442 Mass. 554 (2004)

44

Robinson v. Commonwealth,
445 Mass. 280 (2005)

47

190a

Arizona v. Fulminante,
499 U. S. 279 (1991)

40,49

Brewer v. Williams,
430 U.S. 387 (1977)

43,44

Chapman v. California,
386 U.S. 18, 43 (1967)

46,51

Crawford v. Washington,
541 U.S. 36 (2004)

39

Edwards v. Arizona,
451 U.S. 477 (1981)

42,43

Faretta v. California,
422 U.S. 806 (1975)

32,40,50

Gideon v. Wainwright,
372 U.S. 355 (1963)

passim

Glasser v. U.S.,
315 U.S. 60 (1942)

44

Holden v. Hardy,
169 U.S. 366 (1898)

29

Illinois v. Allen,
397 U.S. 337 (1970)

40

Johnson v. Zerbst,
304 U.S. 458 (1938)

42,43,44

Kentucky v. Stincer,
482 U.S. 730 (1987)

48

Lafler v. Cooper,
566 U.S. 156 (2012)

22,41,47

191a

McKaskle v. Wiggins,
465 U.S. 168 (1984)

49

Michigan v. Jackson,
475 U.S. 625 (1986)

45

Missouri v. Frye,
566 U.S. 134 (2012)

22,41,47

Montejo v. Louisiana,
556 U.S. 778 (2009)

45

Moore v. Michigan,
355 U.S. 155 (1957)

44

Powell v. Alabama,
287 U.S. 45 (1932)

passim

Snyder v. Massachusetts,
291 U.S. 97 (1934)

21,22,33,38,48

Taylor v. United States,
414 U.S. 17 (1973)

34

U.S. v. Gonzalez-Lopez,
548 U.S. 140 (2006)

passim

Vasquez v. Hillery,
474 U.S. 254 (1986)

50

Von Moltke v. Gillies,
332 U.S. 708 (1948)

44

Weaver v. Massachusetts,
137 S. Ct. ___(2017)

22,49,50,51,53

192a

United States Constitution
6th

Amendment

passim

14th Amendment

32,47

Massachusetts Declaration of Rights
Article 12

passim

Article 68

52
Massachusetts General Laws

G.L. c. 278, §33E

13,53,55
Other Authorities

Mass. R. Crim. Pro. 18(a)

34

Mass. R. Crim. Pro. 30(b)

13,53

3 Wayne R. LaFave et al., Criminal Procedure
§11.4(a) (2d Ed. 1999)

10

Garrett, Convicting the Innocent, Where
Criminal Prosecutions Go Wrong (2001)

54

193a

ISSUE
Does the Sixth Amendment require: 1) that an indigent nineteen-yearold defendant, charged with murder in the first degree, be present at a
critical stage of the trial proceedings where a volunteer lawyer is
substituted for court-appointed counsel; and 2) a knowing and
voluntary waiver of the indigent defendant’s right to court-appointed
counsel, before the court allows a volunteer, who the defendant did not
retain, to represent the defendant for free?
INTRODUCTION
The victim in this case was viciously stabbed multiple times. 1,2 Her
body was found in Dorchester’s Franklin Field on September 19, 1981.
(T.3/15-16,21) Over the more than thirty-six years that have passed
since Mr. Francis was convicted of first-degree murder, he has
steadfastly maintained his innocence. Among the many trial errors
enumerated in Mr. Francis’s new trial motion (see Issue IV infra),
following the trial court’s denial of the motion, only the claim presented

References: record appendix of this brief “(R.[Vol.#]. [page#])”;
addendum “(A.[page#])” (although included herein and continuously
paginated with this brief, references to it will be cited as noted); jury
trial transcripts “(T. [Vol.#/page#])”; evidentiary hearing transcript
“(H. [page#])”.
1

The victim was Mr. Francis’s former girlfriend. Their romantic
relationship ended approximately two years prior to her death, when
Mr. Francis was seventeen years old. (T.4/57;R.I.111)
2

194a

in this appeal provides grounds for reversal. The issue raised by this
appeal was not identified until 2014. (R.I.140-141)
In our criminal justice system, judges are mandated to appoint an
attorney to represent an indigent defendant facing possible
imprisonment, or conduct a colloquy with the defendant about his
desire to represent himself. Where counsel is appointed, defendants do
not choose specific attorneys to represent them unless they hire and pay
them, or otherwise retain their services. “[J]udges are better able to
choose an attorney than the indigent defendant ‘because they know the
abilities of the available local counsel.’” 3 Wayne R. LaFave et al.,
Criminal Procedure §11.4(a) at 550 (2d Ed. 1999). When a defendant
does not retain his own lawyer, the court must choose a lawyer
experienced enough to handle the case - and compensate that lawyer
accordingly.
Attorney Stephen Hrones, who was not retained by the defendant,
volunteered to try this case for free so as to gain experience in murder
trials and further his career. At a sidebar conference attended by the
arraignment judge, the prosecutor,

195a

and Hrones, the judge specifically found that Hrones was not qualified
for court appointment, and remarked that Hrones’s application to
receive appointments in murder cases had been rejected three times.
Consequently, he ordered that Hrones not be paid with public funds for
his representation of Mr. Francis.
Such representation is only in accord with the Sixth Amendment
if the defendant knows this is the situation, agrees to have an attorney
represent him under such circumstances, and the Court ensures the
defendant fully understands the right to the certified, court-appointed
counsel he is foregoing.
Mr. Francis was excluded from the sidebar discussion where it
was decided that Hrones would try his murder case for free. The court
then allowed the case to move forward without conducting any colloquy,
or informing Mr. Francis of the possibility that he could have counsel,
certified to handle murder trials, appointed. As a result, Mr. Francis
never knew such a critical decision, impacting his fundamental right to
counsel of his own choosing, was made at that sidebar.

196a

This Court has never ruled on the issue raised by this appeal, and
as far as counsel is aware, no appellate court has ever ruled on it. This
case has an unusual set of.facts. Hrones's practice of trying murder
cases for free to gain experience was unique to him. He engaged in this
practice decades ago, in only a handful of cases. (A.14, n.10)
The facts here raise an issue of significant constitutional
dimension in an unexpected context. While the arraignment judge in
this case did not recognize the nature of the rights at stake, three of his
colleagues on the bench did, as far back as 1974, in the case of

Commonwealth v. Leonard Lacy. See (R.III.186-214) Faced with an
identical situation, three Superior Court judges saw the clear need to
engage in a colloquy with defendant Lacy, to make sure he understood
the rights he was giving up by going to trial with an unpaid Hrones,
instead of appointed counsel, certified to handle his murder trial.
Mr. Francis had a right to be present for the discussions regarding
whether to allow a volunteer to try his murder case. He was owed the
same information and colloquy given to Lacy. See (R.III.186-214) This

197a

choice of counsel decision was his alone to make.
If informed of the proposed arrangement, Mr. Francis would not
have agreed to be represented by Hrones. Unlike Lacy, Mr. Francis had
no prior relationship with Hrones.3 Contrast (R.III.201-206) Mr.
Francis’s decision would have been based on concerns about the quality
of the representation to be provided by an uncertified, unpaid attorney.
(H.81-82) By stripping Mr. Francis of his right to make that critical
decision, the court violated his fundamental constitutional rights.
STATEMENT OF THE CASE
Nineteen-year-old Kevin Francis was arraigned December 17, 1981
and charged with first-degree murder. He was convicted after trial. (R.I.712) Although indigent at the time of arraignment and trial, Mr. Francis
was not appointed counsel by the court because, unknown to Mr. Francis,
trial counsel, who Mr. Francis did not retain, took on his case pro bono.
(R.I.168-169)

Whereas Mr. Francis first met Hrones at his arraignment, Lacy
had a longstanding relationship with him, having been in front of three
judges with Hrones as counsel: Tamburello, Roy, and then Sullivan.
(R.III.197-198)
3

198a

Mr. Francis filed a pro se Rule 30(b) motion in 1991, which was
denied by the trial judge without a hearing in 1993. (R.II.87-106)
The errors complained of herein were raised by a motion for a new
trial filed in September 2015. An evidentiary hearing was held on
January 10, 2018 and the motion was denied on February 22, 2018.
(A.1-19)
On March 23, 2018, a G.L. c. 278, §33E petition was filed with a
single justice of the Supreme Judicial Court. (Gants, J.) (R.III.153-214) A
hearing was held in the single justice session on August 28, 2018, after
which the matter was remanded back to the motion judge for further
findings of fact. (A.20-27) Following the submission of further factfinding,
the single justice allowed the §33E petition on February 5, 2019. The case
was docketed for hearing and decision by the full bench.
STATEMENT OF FACTS
Mr. Francis was arraigned on January 8, 1982.4 He met Attorney
Hrones, who he did not retain, for the first time at his arraignment. He
neither asked Hrones to represent him, nor did he specifically seek out

4

The arraignment transcript can be found at (R.I.317-321).

199a

his services. Hrones volunteered to represent Mr. Francis because, as the
motion judge found on remand, “it was his practice to be on the look-out
for arraignments in first-degree murder cases so that he could offer his
services . . . as he was personally convinced that he would more
effectively and diligently represent defendants in these cases than many
attorneys on the ‘murder list.’” (A.25-26)
After arraignment, the judge (Linscott, J.) made a record reflecting
there was a sidebar conference prior to arraignment between himself,
Hrones and the prosecutor. Mr. Francis was not present. Hrones stated if
he could not be appointed, he would represent Mr. Francis “for no pay.”
Hrones also asked “if his appointment to the list of attorneys who may
represent indigents accused of murder had been approved at the last
meeting of judges.” The judge stated Hrones had not been approved. The
judge further noted he was Chairman of the committee involved in
appointing attorneys to the murder list, Hrones “had applied three or four
times, and had been turned down each time.” He noted this does not
prevent Hrones from private representation, but he wished to make

200a

certain the record reflected “that at no time throughout the trial should
any judge consider paying him out of public funds.” (R.I.171,320-321)
No colloquy was conducted with Mr. Francis to ensure he was
making a knowing and intelligent waiver of his right to court-appointed,
compensated counsel. No colloquy was conducted to even inform him of
his right to have court-appointed counsel in lieu of Hrones. Mr. Francis
did not agree to forego certified, paid counsel for unpaid counsel at his
murder trial, nor did he know the judge made that decision for him, or
the reasons for the judge’s refusal to appoint Hrones. (R.I.111112,171,181-183,320-321)
Mr. Francis testified at the evidentiary hearing held on his new
trial motion that he had no knowledge at the time of arraignment or trial
that Hrones was representing him pro bono.5 (H.94) It is undisputed that

The motion judge on remand ruled that the defendant “has not
proved that, at or about the time of his arraignment, he was unaware
that the court had not appointed Mr. Hrones to represent him, or that
Mr. Hrones was not being paid by the Commonwealth.” (A.26) There
was a substantial amount of evidence and an extensive record made at
the trial level to establish these facts, which the motion judge neglects
to mention. See (R.I.141-142,181-183;R.III.122-124)
5

201a

Hrones did so. (R.I.168-169) Hrones testified at the evidentiary hearing
to having no recollection of discussing this issue with Mr. Francis, and
testified he would not have discussed it, out of a fear that Mr. Francis
would fire him and opt for court-appointed counsel. Hrones did not want
to get fired; he wanted to try the case. (H.48-49)
Nineteen-year-old Mr. Francis, as the motion judge ruled, did not
understand how appointment of counsel worked, and what his rights
were in this regard. (R.I.317-321;R.III.122-124;A.27) He believed Hrones
was appointed by the court to represent him. His August 18, 1999 letter
to CPCS’s Leslie Walker requesting assignment of post-conviction
screening counsel bears this out. In answer to the question, “Was your
trial level attorney hired by you or court appointed?” Mr. Francis
Hrones, in fact, testified that he was personally incentivized
NOT to tell Mr. Francis that he was trying the case for free, because he
was afraid if Mr. Francis knew the truth, Mr. Francis might fire him.
(H.48-49) The motion judge further found that the issue of how Hrones
came to be his lawyer “would not have been a noteworthy matter to the
defendant in 1982. . . . the defendant was totally unaware of the
significance of the distinction between being represented by a court
appointed a lawyer or a private attorney appearing pro bono ….” (A.27)
That is, of course, why it was necessary for the arraignment
judge to conduct a colloquy to ensure Mr. Francis understood
what was happening. Compare (R.III.186-214)

202a

answered, “Court appointed.” (R.I.182-183)6 This 1999 correspondence is
compelling corroborative evidence of Mr. Francis’s stated belief as to
this issue, as there was no conceivable motive to fabricate at the time
that correspondence was sent. Mr. Francis could not have known that
sixteen years later, that this issue would be raised on his behalf. The
issue is novel; it does not suggest itself easily.7
Mr. Francis testified at the evidentiary hearing that if he knew
Hrones was not getting paid, because the court had rejected his
application to take appointed murder cases and thus refused to pay him,
he would not have agreed to proceed to trial with Hrones. Instead, Mr.
Francis explained, he would have chosen an attorney who, due to his
Hrones was subsequently appointed by the court to represent
Mr. Francis on appeal on May 6, 1983. He was compensated for
appellate representation in this case. (R.II.62-66) Importantly, when
noting that Hrones was appointed as his counsel, Mr. Francis was
responding to a question about his attorney at trial. (R.I.182-183)
6

When Mr. Francis filed his pro se new trial motion in 1991, he
did not recognize this issue, despite having a copy of the arraignment
sidebar transcript and other case documents (H.82-83,94), nor should
anyone expect he would have. The novelty of the issue, and the Sixth
Amendment analysis that applies to it, is so rarely invoked that the
motion judge did not initially make factual findings regarding the
matter. (A.20-22)
7

203a

experience with murder cases, had been certified and would be paid to
conduct his defense. Mr. Francis noted that because “the state was paying
him; there had to be a good reason. You know, I wanted to win ... I
woulda took the paid attorney. It’s just ... to me, it just makes sense. I just
think he would – no disrespect to anybody, but I just think he probably
would have been more qualified.” (H.81-82)
In Commonwealth v. Leonard Lacy, Hrones gave additional validity
to Mr. Francis’s concerns by acknowledging, “it is very difficult for
counsel to try a case without getting paid. It presents a tremendous
hardship.” (R.III.196)
In Lacy, under circumstances identical to those presented here, the
trial judge conducted an exhaustive colloquy8 with the defendant, on the
record, to ensure he understood the rights he was giving up in proceeding
The of Transcript of Colloquy, SUCR1974-79994 (Sullivan, J.,
Dec. 3. 1974), came into evidence as Exhibit Number 6 at the
evidentiary hearing. The relevant excerpts are contained in the record
appendix at (R.III.186-214). The Lacy transcript reflects that two other
Justices of the Superior Court in addition to Sullivan: Tamburello and
Roy, also addressed Lacy’s understanding of the constitutional rights he
was giving up by foregoing paid, certified counsel at his murder trial.
(R.III.197-198)
8

204a

to trial with Hrones, an uncertified and unpaid volunteer. The decision to
forego court-appointed counsel, in favor of a volunteer lawyer, was a
significant decision.9 As was argued below, (R.I.13), just as in Lacy, the
trial judge here had a duty to ensure Mr. Francis made this decision
knowingly and intelligently.
SUMMARY OF THE ARGUMENT
In denying Mr. Francis’s new trial motion, the judge abused his
discretion and committed an error of law where he failed to recognize that
the Sixth Amendment right to choice of counsel and the Sixth
Amendment Right to assistance of counsel are separate and distinct
rights afforded to those accused of crimes. Powell v. Alabama, 287 U.S. 45
(1932), places a duty on judges to appoint counsel for indigent defendants.
The right to counsel is an inherent fundamental right guaranteed by
The situation here is distinguishable from those where indigent
defendants, eligible for court-appointed counsel, choose to pay an
attorney to represent them, or have family and friends pool money to
pay an attorney on their behalf. However, the motion judge erroneously
equates the two situations. See (A.16-17). Mr. Francis did not hire or
retain Hrones, nobody paid Hrones on his behalf, and Mr. Francis did
not waive his right to an attorney who would be paid to defend him.
Had Mr. Francis known Hrones was not being paid, he would not have
gone to trial with Hrones as his lawyer. (H.81-82)
9

205a

Gideon v. Wainwright, 372 U.S. 355 (1963). Mr. Francis did not retain
Attorney Hrones; he did not choose Hrones as his lawyer. The trial court
failed in its duty to afford Mr. Francis the right to choose court-appointed,
compensated counsel to assist him at his murder trial, or to accept the
services of an uncertified volunteer lawyer. The trial court should have
conducted a colloquy with Mr. Francis to make sure he was knowingly
and intelligently waiving his right to court-appointed counsel, on these
facts, before proceeding to trial with Hrones as Mr. Francis’s lawyer. pp. 15-23
Mr. Francis was excluded from a sidebar discussion that took place
at his arraignment during which the judge ruled Attorney Hrones would
not be appointed by the court to try Mr. Francis’s murder case, because
the judge deemed Hrones to be unqualified for court appointment. It was
then decided that Hrones would try the case for free. The significance of
that decision, in light of the Sixth Amendment inherent fundamental
right to counsel of one’s choosing, made that arraignment sidebar a
“critical stage” in the trial proceedings. See Snyder v. Massachusetts, 291

206a

U.S. 97 (1934). Because Mr. Francis was excluded from that critical stage
in his trial proceedings, his conviction cannot stand. pp.23-31

The right to counsel of one's choosing and the right to be present at

critical stages of the trial proceedings are fundamental rights, unlikely to
be waived freely. Violations of these rights amount to structural errors.
See U.S. v. Gonzalez-Lopez, 548 U.S. 140 (2006); Missouri v. Frye, 566

U.S. 1�4 (2012); Lafier v. Cooper, 566 U.S. 156 (2012); Snyder v.

Massachusetts, 291 U.S. 97; and Weaver v. Massachusetts, 137 S. Ct. _

(2017). pp.31-46

If this Court does not rule in favor of Mr. Francis on the issues

raised in this appeal, it should grant relief to Mr. Francis pursuant to
G.L. c. 278, §33E in the interests of justice. Numerous errors and
injustices occurred at the trial level. Evidence of guilt, while sufficient
to sustain the verdict, was scant. Mr. Francis has spent more than
thirty-seven years in prison for a murder he maintains he did not
commit. Given the totality of this record, taking into consideration the
punishment arrived at and served, along with the fundamental

207a

unfairness of the trial proceedings which placed Mr. Francis at risk for
wrongful conviction, this Court should set aside the verdict. pp.46-48
ARGUMENT
I.

MR. FRANCIS’S SIXTH AMENDMENT RIGHT TO
COUNSEL WAS VIOLATED WHERE THE COURT
PERMITTED AN ATTORNEY HE DID NOT RETAIN,
DEEMED UNQUALIFIED TO TRY COURT-APPOINTED
MURDER CASES, TO REPRESENT MR. FRANCIS FOR
FREE, ABSENT A WAIVER COLLOQUY OR ANY
INDICATION THAT MR. FRANCIS WAS MADE AWARE OF
HIS RIGHT TO CHOOSE BETWEEN COMPENSATED
COURT-APPOINTED COUNSEL AND AN UNPAID
VOLUNTEER LAWYER.
A.

Mr. Francis did not choose or retain Attorney Hrones,
and the trial court did not inform Mr. Francis that
Attorney Hrones was not a court-appointed lawyer.

As Mr. Francis has testified, and the motion judge has found to be
true, Mr. Francis did not choose Attorney Hrones to represent him, and
Hrones was not retained by the defendant or any member of his family.
(H.94;A.25-26) As a poor teenager from a family with no money, Mr.
Francis was entitled to choose court-appointed, paid counsel over nonappointed, pro bono counsel as a matter of basic and fundamental
constitutional right. Violating a criminal defendant’s right to choice of

208a

counsel amounts to structural error because to do so affects “the very
framework within which the trial proceeds.” Gonzalez-Lopez, 548 U.S.
at 150. See Issue III infra.
It was incumbent upon the court to ensure Mr. Francis understood
he had a right to court-appointed counsel, paid to represent him by the
state, that he was waiving. In other words, the trial court should have
notified Mr. Francis of his right to either have appointed-counsel,
approved to handle indigent murder cases in Massachusetts, or to accept
Hrones’ pro bono representation. The court did not do so. Contrast
Commonwealth v. Lacy (where no fewer than three Superior Court judges
(Tamburello, J., Roy, J. and Sullivan, J.) conducted colloquy with the
defendant to make sure he knew that he was foregoing a court-appointed
attorney before allowing him to proceed to trial with Hrones as pro bono
counsel). (R.III.186-214) For as the motion judge has ruled, Mr. Francis
“was totally unaware of the significance of the distinction between being
represented by a court appointed lawyer or a private attorney appearing
pro bono.” (A.27) That is certainly a distinction every defendant, but

209a

especially an indigent teenaged defendant standing trial for murder in
the first-degree, should understand before moving forward. In fact, the
Sixth Amendment requires it.
While there is nothing improper about pro bono representation, Mr.
Francis did not choose to proceed to trial with unpaid counsel. (R.I.111112,171,181-183,320-321) The arraignment judge was aware that
Attorney Hrones, who offered to try the case for free, was not certified
to try murder cases. In fact, the arraignment judge made a specific
record at sidebar indicating he was on the committee that approved
attorneys for court–appointed murder work, he knew from his own
personal knowledge that trial counsel was not murder-certified despite
numerous attempts by counsel to become so certified. (R.I.171,320-321)
This determination by the arraignment judge necessarily leads to
the conclusion that Mr. Francis had a right to understand his option to
have a more experienced, duly certified attorney who was accepted onto
the panel of attorneys who were qualified to try murder cases. Whether
Mr. Francis wanted to give up his right to court-appointed counsel and

210a

proceed to trial with Attorney Hrones was his choice to make, not the
Court’s, and not Attorney Hrones’s. An indigent man’s right to defend
himself against the power of the government, with a lawyer appointed
to him that is compensated by the state, is the very essence of a
fundamental right in the context of our criminal justice system. See
Sixth Amendment, United States Constitution and Powell, 287 U.S. at
73.
The Commonwealth’s focus on the Sixth Amendment guarantee
of “assistance of counsel” is misplaced, and seemingly misunderstands
the issue of depriving Mr. Francis of his right to choice of counsel.
(R.II.50) The United States Supreme Court has interpreted the Sixth
Amendment guarantee of the “assistance of counsel” to include the right
to be represented by counsel of one’s own choosing.10 See Gonzalez-Lopez,
548 U.S. 140.
Even the dissent in Gonzalez-Lopez speaks of the right to choice
of counsel, by acknowledging that “assistance of counsel necessarily
mean[s] the right to have the assistance of whatever counsel the
defendant was able to secure.” 548 U.S. at 154 (Alito, J. dissenting)
(emphasis added). In this case, Mr. Francis was deprived of his “ability
to secure” the court-appointed attorney he was entitled to under
Gideon. He was denied his right to court appointed counsel, because the
10

211a

The phrase “assistance of counsel” encompasses the right of courtappointed counsel for indigent defendants who will be paid by the court
for that representation. That is Gideon’s promise. In this context, Mr.
Francis’s “choice of counsel” means:
a)

the choice to proceed to trial with counsel who has
failed to meet the murder panel certification
requirements, yet is willing to represent you for free
because he is motivated to use the representation as a
vehicle to get on the court-appointed murder panel; or

b)

the choice to proceed to trial with counsel already
certified by the Court as experienced enough to try
your murder case and therefore will be paid by the
Court to do so.

This was a decision for Mr. Francis to make, and nobody else,
consistent with due process protections, fundamental fairness, the right
to counsel of one’s choosing, and the promise of Gideon. Were his choice
in this regard presented to him by the trial court in the terms described
above, following a colloquy like the one conducted in Lacy, (R.III.186214), Mr. Francis would not have proceeded to trial with non-certified,
uncompensated counsel ineligible for court appointment. (H.81-82,94)
court allowed a volunteer, that Mr. Francis never retained, to try his
case instead. (R.I.162-163;H.94;A.25-26)

212a

Mr. Francis worried that an attorney that the court refused to pay
was “probably less qualified.” (H.81-82,94) Those sentiments about
Attorney Hrones, regarding his qualifications to try this case, were
certainly strongly expressed at sidebar by the arraignment judge, who
nevertheless did not inform the defendant of these concerns.
(R.I.171,320-321) Further, in the Lacy case, Hrones himself stated on
the record that pro bono murder cases were “very difficult” and
presented “a tremendous hardship.” (R.III.196)
Even if Hrones had convinced Mr. Francis (as he had convinced
Lacy) to allow him to be his trial attorney, it was still the obligation of
the trial court (as was recognized in Lacy) to inquire of Mr. Francis
whether he wanted pro bono counsel, he did not retain, to represent him
at his murder trial, and whether he understood he had a choice. It was
incumbent upon the court make sure Mr. Francis understood the right
he was giving up. The trial court’s failure to do so failed to protect Mr.
Francis’s right in violation of the federal and state Constitutions.
B.

The trial court failed in its duty to provide the
indigent Mr. Francis with court-appointed counsel
qualified to handle first-degree murder cases.

213a

In 1932, the U.S. Supreme Court imposed a duty on all trial
judges to appoint counsel for indigent citizens facing criminal charges.
“The United States by statute and every state in the Union by express
provision of law, or by the determination of its courts, make it the duty
of the trial judge, where the accused is unable to employ counsel, to
appoint counsel for him.” Powell, 287 U.S. at 73. This is an inherent
fundamental right. Id.
[I]n a capital case, where the defendant is unable to employ
counsel, and is incapable adequately of making his own defense
because of ignorance, feeble mindedness, illiteracy, or the like, it is
the duty of the court, whether requested or not, to assign counsel
for him as a necessary requisite of due process of law…. To hold
otherwise would be to ignore the fundamental postulate, already
adverted to, "that there are certain immutable principles of
justice which inhere in the very idea of free government
which no member of the Union may disregard…." Holden v.
Hardy, [169 U.S. 366, 389 (1898)] In a case such as this, whatever
may be the rule in other cases, the right to have counsel
appointed, when necessary, is a logical corollary from the
constitutional right to be heard by counsel.
Powell, 287 U.S. at 71-72 (emphasis added, further citation omitted).
But when the defendant is not choosing his own lawyer, and the
Court is choosing his lawyer for him, the Court must choose a lawyer

214a

experienced enough to handle the matter at hand, in this case a firstdegree murder case, and compensate that lawyer accordingly. It was
specifically because the Court had found Attorney Hrones was not an
attorney of such experience that the judge specifically ordered that
Attorney Hrones was not to paid with public funds for his
representation of Mr. Francis. (R.I.171,320-321)
The promise of Gideon is the constitutional right that trumps and
dwarfs all others. See Gideon, 372 U.S. 335. Gideon’s promise is of a
voice for the voiceless. It is a promise of equal justice, making it one of
the most important rights in our entire criminal justice system. It
requires that the Court appoint an attorney to an indigent defendant,
unless the defendant chooses to proceed to trial with his own counsel,
either privately retained and compensated, or retained pro bono- or
chooses to proceed by representing himself. Mr. Francis did not elect to
waive counsel, he did not retain Attorney Hrones, and he certainly did
not choose Attorney Hrones as his volunteer lawyer. (R.I.111112;H.94;A.25-26) Simultaneously, the arraignment judge found that

215a

Attorney Hrones could not be appointed to represent defendants, like
Mr. Francis, charged with murder. Thus, by permitting Attorney
Hrones to represent Mr. Francis as a volunteer, the court neglected to
appoint Mr. Francis counsel from a list of attorneys the court considered
qualified to handle murder trials. Under Powell and Gideon, Mr.
Francis’s right to court-appointed counsel was violated.
II.

THE EXCLUSION OF MR. FRANCIS FROM THE SIDEBAR
WHERE ATTORNEY HRONES WAS PERMITTED TO
REPRESENT HIM DENIED MR. FRANCIS HIS
CONSTITUTIONAL RIGHT TO BE PRESENT AT A
CRITICAL STAGE OF THE TRIAL PROCEEDINGS.
A.

The trial court failed in its duty to provide Mr.
Francis with a fair trial by excluding Mr. Francis
from discussions and decision-making about whether
the court would appoint Attorney Hrones to represent
him at his murder trial.

It was the duty of the trial court to ensure Mr. Francis “was
denied no necessary incident of a fair trial.” Powell, 287 U.S. at 52.
Surely, “an incident of a fair trial” entitles an indigent teenager standing
trial for murder to appointment of counsel deemed qualified to try the
case.

216a

At a minimum, Powell required the trial court to fulfill
its duty by ensuring Mr. Francis was informed that Attorney Hrones
was not qualified for court appointment to his case and had offered to try
the case for free because of his lack of qualifications. “The Sixth
Amendment does not provide merely that a defense shall be made for an
accused; it grants to the accused personally the right to make his
defense.” Faretta v. California, 422 U.S. 806, 819 (1975) (emphasis
added).
Everyone involved, except for Mr. Francis, knew his attorney was
not certified to try indigent murder cases. (R.I.171,320-321) Mr. Francis
was completely excluded from the discussions regarding his right to
appointed counsel that were so germane to his right to choose how to
defend himself against a first-degree murder charge. By denying Mr.
Francis his right to participate in the sidebar proceedings at this
“critical stage,” the Court violated his rights under the Confrontation
Clause of the Sixth Amendment, the Due Process Clause of the
Fourteenth Amendment and his rights under Article Twelve of the

217a

Massachusetts Declaration of Rights.

B.

An attorney, not retained by an indigent defendant,
asking the trial court for permission to try the
defendant's first-degree murder case for free, and the
trial court granting that request, constitutes a
"critical stage" in the trial proceedings.

In Snyder v. Massachusetts, 291 U.S. 97 (1934), the United States

Supreme Court assumed the Fourteenth Amendment assur�d the
defendant to be present "whenever his presence has a relation,

reasonably substantial, to the fullness of his opportunity to defend
against the charge." Id. at 106. As the person most affected by the
decision to proceed to trial with a pro bono attorney not permitted to be
court-appointed to murder cases, Mr. Francis was entitled to at least as
much information as known to the judge, who was permitting this
arrangement, before deciding to forego the court-appointed counsel to
which he was entitled. 11

The evidence confirms no colloquy was conducted with Mr.
Francis, nor was he informed by Hrones of the constitutional right he
was forfeiting by foregoing court-appointed counsel. (R.l. l l l· 112,171, 317-318) The motion judge also made findings to this effect in
his decision. (A.14, n.11)
11

218a

If a hearing on a motion to suppress is considered to be a “critical
stage” of the proceedings under Mass. R. Crim. Proc. 18(a),12 see
Commonwealth v. Campbell, 83 Mass. App. Ct. 368, 372 (2013), as is
the right to be present at competency hearing and at trial and waiver of
that right, see Commonwealth v. L'Abbe, 421 Mass. 262, 268 (1995),
then there is no question that there is a right afforded an accused to be
present when a decision is made to forego his Sixth Amendment right to
court-appointed counsel and allow an uncertified attorney, who the
defendant did not retain, to try his murder case for free. Mr. Francis did
not waive his right to be present at this critical stage; indeed he had no
idea what was even transpiring. (H.94)
Recently, this Court ruled:
Rule 18 does not define which court proceedings are critical,
leaving the issue to judicial determination. Commentary to the rule
explains that "fairness demands that the defendant be present when his
substantial rights are at stake." Reporter’s Notes to Rule 18. “Where a
stage of the proceedings is deemed critical, the defendant's presence is
required and the court is not to proceed in his absence without
determining that he has effectively waived or forfeited the right to be
present. Taylor v. United States, 414 U.S. 17 (1973).” See Commentary
to Rule 18(a). Mr. Francis did not waive or forfeit his right to be present
at the sidebar discussion where the decision for counsel was made for
him, and his right violated.
12

219a

When a judge conducts an inquiry about a consequential matter,
such as an allegation of serious misconduct of a juror or a
suggestion of juror bias, the defendant is entitled, based on
confrontation and fair trial rights, to be present. Commonwealth v.
Dyer, 460 Mass. 728, 738 (2011) …. See Commonwealth v. Angiulo,
415 Mass. 502, 530 & n.26 (1993) (reversal required under art. 12
of Massachusetts Declaration of Rights where names of jurors
were withheld and defendant and defense counsel were barred
from voir dire regarding jurors' fear of defendant); Commonwealth
v. Robichaud, 358 Mass. 300, 301–303 (1970) (reversal required
under art. 12 where defendant was excluded from hearing on juror
misconduct).
Commonwealth vs. Colon, No. SJC-12362, slip op. at 17 (May 3, 2019).
These Article Twelve violations, requiring reversal where the
defendants were excluded, rise nowhere near the level of significance of
the Sixth Amendment violation alleged in this case. This Court further
discussed this issue as follows:
While the trial judge may perform minor administrative
formalities outside the presence of the defendant, . . . the judge
may not bar the defendant from a voir dire during which jurors'
impartiality may be discussed" (citation omitted). Angiulo, 415
Mass. at 530. See, e.g., Commonwealth v. Dosanjos, 52 Mass. App.
Ct. 531, 535 (2001) ("serious error" for judge to exclude defendant
from individual questioning of deliberating jurors);
Commonwealth v. Caldwell, 45 Mass. App. Ct. 42, 45 (1998) (error
where deliberating juror was dismissed during colloquy held
outside defendant's presence).
Counsel's presence at sidebar and intention to relay

220a

information to a defendant does not substitute for the
defendant's presence. 13 See Robichaud, 358 Mass. at 301, 303
(counsel's presence insufficient in defendant's absence); Dosanjos,
52 Mass. App. Ct. at 535 (error despite counsel's presence);
Caldwell, 45 Mass. App. Ct. at 45 (error notwithstanding counsel's
presence). . . . Indeed, this does not appear to be a case in which a
defendant was "fully informed of everything that occurred" in his
absence ....
Colon, No. SJC-12362, slip op. at 17-18 (May 3, 2019).
If Colon is a case where this Court was concerned that the
defendant was not "fully informed of everything that occurred" in his
absence from a sidebar, then surely this Court must harbor similar
concern that Mr. Francis was not "fully informed of everything that
occurred" in his absence from his arraignment sidebar.
Also recently, this Court has stated that a defendant may waive
his right to be present at a critical stage of the proceedings.
Commonwealth vs. Fontanez, No. SJC-12469, slip. op. at 3 (Apr. 16,

In this case, there was no express intentiG>n on the part of
Hrones to "relay information" from the arraignment sidebar to Mr.
Francis. In fact, there is evidence that Hrones's intention was the
opposite: he did not want Mr. Francis to find out that the court did not
appoint him as counsel, for fear Mr. Francis would have fired him.
(H.48-49)
13

221a

2019) (case implicated fundamental constitutional rights that arise
from an unusual fact pattern). Waivers are secured by colloquies.
In Fontanez, this Court referenced “a very short list of rights . . .
that must be waived personally by a defendant and cannot be waived by
his counsel.” No. SJC-12469, slip. op. at 5. In showcasing that list, this
Court cited Commonwealth v. Amirault, 424 Mass. 618, 632 (1997) and
Commonwealth v. Myers, 82 Mass. App. Ct. 172, 182-183 (2012). Id.
Amirault notes that the following rights are not waivable by
counsel, and must be waived personally by a defendant: Commonwealth
v. Pavao, 423 Mass. 798, 802 (1996) (waiver of jury trial must be
knowing and voluntary and come "directly from the defendant");
Commonwealth v. Fernandes, 390 Mass. 714, 715-718 (1984) (guilty
plea must be voluntarily tendered by defendant aware of
circumstances). Amirault, 424 Mass. at 651 n.23. In keeping with its
prior precedent, this Court should find that absent a personal waiver by
Mr. Francis, secured by colloquy, his right to court-appointed counsel in
this case was not waivable.

222a

On these facts, absent a colloquy that: 1) advised Mr. Francis of
Hrones’s proposal that Hrones try his case for free; 2) advised Mr.
Francis he had a choice to accept the services of an uncertified
volunteer or a court-appointed and paid lawyer; and 3) required Mr.
Francis to make a knowing, voluntary and intelligent waiver of his
right to court-appointed counsel before proceeding to trial with a
volunteer lawyer, the trial court denied Mr. Francis his right to
participate in the proceedings at a “critical stage” in violation of the
Confrontation Clause of the Sixth Amendment, the Due Process Clause
of the Fourteenth Amendment and under Article Twelve of the
Massachusetts Declaration of Rights. See Snyder, 291 U.S. 97 and
Gideon, 372 U.S. 335.
III. THE VIOLATIONS OF MR. FRANCIS’S CONSTITUTIONAL
RIGHTS TO COUNSEL AND TO BE PRESENT AT A
CRITICAL STAGE OF HIS PROCEEDINGS ARE
STRUCTURAL ERRORS REQUIRING A NEW TRIAL.
Mr. Francis was unconstitutionally denied his right to choose to
proceed to trial with court-appointed counsel who was murder certified,
or to choose volunteer attorney Hrones, who he never retained, and who

223a

was deemed unqualified by the trial court to try his case. This is a
structural error that warrants a new trial. Gonzalez-Lopez, 548 U.S.
140 (denial of right to retained counsel of choice is structural error).
“The right to select counsel of one’s choice ... has never been derived
from the Sixth Amendment’s purpose of ensuring a fair trial. It has
been regarded as the root meaning of the constitutional guarantee.” Id.
at 147-48. “[T]he Sixth Amendment right to counsel of choice …
commands not that a trial be fair, but that a particular guarantee of
fairness be provided- to wit, that the accused be defended by the counsel
he believes to be the best.” Id. at 140 citing Crawford v. Washington,
541 U.S. 36, 61 (2004). “That right was violated here; no additional
showing of prejudice is necessary to make the violation ‘complete.’” Id.
It is the criminal defendant who absolutely controls the decision to
waive constitutional rights, and that decision is routinely protected in
our criminal justice system by the requirement of a knowing, intelligent
and voluntary waiver by the defendant. See, e.g., Commonwealth v.
Lacy (R.III.186-214).

224a

Excluding Mr. Francis from the discussion and decision-making
process regarding his right to choice of counsel, and his right to be
represented by court-appointed counsel, was structural error requiring
automatic reversal. See Faretta, 422 U.S. at 834 (“Personal liberties are
not rooted in the law of averages. The right to defend is personal.”) “We
have little trouble concluding that erroneous deprivation of the right to
counsel of choice, with consequences that are necessarily unquantifiable
and indeterminate, unquestionably qualifies as structural error.”
Gonzalez-Lopez, 548 U.S. at 150, citing Arizona v. Fulminante, 499 U.
S. 279, 282 (1991) (internal quotations omitted) (Gideon errors are
structural defects). See also Faretta, 422 U.S. at 834 (respect for the
individual is “the lifeblood of the law”), citing Illinois v. Allen, 397 U.S.
337, 350-351 (1970) (Brennan, J. concurring).
This is that rare case where the defendant’s trial involved specific
and unique circumstances, intruded upon a fundamental right in a
dramatic way, violated core notions of fundamental fairness, and should
therefore result in the reversal of the conviction.

225a

The relatively recent Sixth Amendment jurisprudence embodied
in the decisions of Frye, 566 U.S. 134 and Lafler, 566 U.S. 156, defeat
the Commonwealth’s misplaced lower court argument, see (R.II.50), and
the trial court’s similarly flawed legal analysis and analogy, see (A.1617): the purpose of the right to counsel is not merely to ensure a fair
trial. The fairness of the conviction and the reliability of the trial are
not dispositive to the Sixth Amendment inquiry. The Sixth Amendment
right to counsel is “not designed simply to protect the trial….” Lafler,
566 U.S. at 165. The Sixth Amendment has a fairness orientation when
it ensures us our right to counsel.
Here, Mr. Francis had a constitutional right to court-appointed
counsel, as provided by the Sixth Amendment. He was denied his right
to be present at the critical stage in the process when his Gideon right
was forfeited. Mr. Francis did not waive his substantial right under the
Sixth Amendment to court-appointed counsel and choose Attorney
Hrones instead. He did not retain Attorney Hrones. Denying him his
right to choice of counsel amounts to a structural error. As Justice

226a

Scalia so aptly stated, “To argue otherwise is to confuse the right to
counsel of choice ... with the right to effective counsel which imposes a
baseline requirement of competency on whatever lawyer is chosen or
appointed.” Gonzalez-Lopez, 548 U.S. at 148. Accordingly, no prejudice
or harm need be shown, and the fact that trial counsel was “competent”
and “not ineffective,” see (R.II.50;A.16-17), is irrelevant. Because Mr.
Francis never competently waived his right to court-appointed counsel,
the Sixth Amendment stood as a jurisdictional bar to the judgment of
conviction. See Johnson v. Zerbst, 304 U.S. 458, 467-468 (1938). He
must receive a new trial.
A.

The right to court appointed counsel due to indigency
is a fundamental right that is unlikely to be waived
freely.

In 1938, the United States Supreme Court recognized criminal
defendants are unlikely to waive their Sixth Amendment right to
counsel freely and voluntarily. Zerbst, 304 U.S. 458 (overruled in part
on other grounds, Edwards v. Arizona, 451 U.S. 477 (1981)). Waiver
requires not merely comprehension, but relinquishment of a known

227a

right. Brewer v. Williams, 430 U.S. 387, 405-406 (1977) and Edwards,
451 U.S. at 482. For this reason, courts are to "indulge every reasonable
presumption against waiver of fundamental constitutional rights" and
not "presume acquiescence in the loss of fundamental rights." Zerbst,
304 U.S. at 464 (emphasis added). In light of this presumption, doubts
must be resolved in favor of protecting the constitutional claim, and any
waiver of a defendant’s right to counsel invokes the protection of the
trial court and must be shown to be knowing and intelligent. Id. at 464465. (emphasis added) Such a waiver is defined as the "intentional
relinquishment or abandonment of a known right.” Id. at 464. While an
accused may waive his right to counsel, a proper waiver should be
secured by the trial court. It would be fitting and appropriate for that
waiver to appear upon the record. Id. at 465. See, e.g., Lacy Colloquy at
(R.III.186-214).
The purpose of the constitutional guaranty of a right to counsel is
to protect an accused from conviction resulting from his own
ignorance of his legal and constitutional rights, and the guaranty
would be nullified by a determination that an accused's ignorant
failure to claim his rights removes the protection of the
Constitution.
Zerbst, 304 U.S. at 464.

228a

“Where the right to counsel is of such critical importance as to be
an element of Due Process under the Fourteenth Amendment, a finding
of waiver is not lightly to be made.” Moore v. Michigan, 355 U.S. 155,
161 (1957), citing Zerbst, 304 U.S. at 464; Glasser v. U.S., 315 U.S. 60,
70 (1942); Von Moltke v. Gillies, 332 U.S. 708, 723 (1948). “To be valid,
the waiver must be voluntary, and there must be an informed and
intentional relinquishment of a known right.” Commonwealth v. Torres,
442 Mass. 554, 571-572 (2004), citing Brewer, 430 U.S. at 404.
In evaluating the validity of a waiver, a court is to consider the
"totality of the circumstances" under which it was made ...
indulging "in every reasonable presumption against" it. ... The
Commonwealth bears the burden of proving a valid
waiver beyond a reasonable doubt.
Commonwealth v. Anderson, 448 Mass. 548, 554 (2007) (emphasis
added, internal citations omitted). In this case, the Commonwealth has
produced no evidence of a valid waiver.
Although only nineteen, Mr. Francis was familiar with
appointment of counsel due to indigency. As the Commonwealth pointed
out at the trial court level, this was not his first experience with the

229a

criminal justice system; he had some prior knowledge of his rights.
(R.II.52) When Mr. Francis was charged in this case and Attorney
Hrones, a lawyer he did not retain, showed up to represent him, he
reasonably assumed based upon his prior experience that Hrones was
his court-appointed, certified, paid lawyer. No defendant, including this
one, would be likely to freely waive his right to an attorney deemed
qualified to try murder cases, and instead accept the services of a
volunteer he did not retain. This is a right of a fundamentally
important nature solidly ingrained in our law. Moore, 355 U.S. at 161.
Moreover, Mr. Francis’s right to be furnished counsel did not
depend upon a request. See, e.g., Michigan v. Jackson, 475 U.S. 625, 633
(1986) (overruled on other grounds by Montejo v. Louisiana, 556 U.S.
778 (2009) (as distinguished from a 5th Amendment right to counsel for
purposes of interrogation, which must be invoked).
[I]n our adversary system of criminal justice, any person haled
into court, who is too poor to hire a lawyer, cannot be assured a
fair trial unless counsel is provided for him. This seems to us to
be an obvious truth. Governments, both state and federal, quite
properly spend vast sums of money to establish machinery to
try defendants accused of crime. Lawyers to prosecute are
everywhere deemed essential to protect the public's interest in
an orderly society.

230a

Similarly, there are few defendants charged with crime, few
indeed, who fail to hire the best lawyers they can get to prepare
and present their defenses. That government hires lawyers to
prosecute and defendants who have the money hire lawyers to
defend are the strongest indications of the wide-spread belief
that lawyers in criminal courts are necessities, not luxuries.
The right of one charged with crime to counsel may not be
deemed fundamental and essential to fair trials in some
countries, but it is in ours. From the very beginning, our state
and national constitutions and laws have laid great emphasis
on procedural and substantive safeguards designed to assure
fair trials before
impartial tribunals in which every defendant stands equal
before the law.
Gideon, 372 U.S. at 344.
Gideon has been cast as the paradigmatic example of structural
error. As such, it is a claim “too fundamental and absolute to allow
courts to indulge in nice calculations as to the amount of prejudice
arising from its denial.” Chapman v. California, 386 U.S. 18, 43 (1967).
Violating a defendant’s choice of counsel rights amounts to structural
error requiring automatic reversal because it affects “the very
framework within which the trial proceeds.” Gonzalez-Lopez, 548 U.S.
at 150.
The trial court abused its discretion where it erroneously denied

231a

Mr. Francis a new trial by adopting the Commonwealth’s flawed legal
analysis and ruling a failure to claim or demonstrate ineffective
assistance in this context is dispositive. (R.II.50;A.16-17) See Frye, 566
U.S. 134 and Lafler, 566 U.S. 156. No prejudice or harm need be shown,
and the fact that trial counsel was not ineffective is irrelevant. Mr.
Francis is entitled to a new trial.
B.

The right to be present at a critical stage of one’s trial
is a fundamental right unlikely to be waived freely.

“The right to be present derives from the confrontation clause of
the Sixth Amendment to the United States Constitution, the due
process clause of the Fourteenth Amendment to the United States
Constitution, and art. 12 of the Massachusetts Declaration of Rights.”
Robinson v. Commonwealth, 445 Mass. 280, 285 (2005). “It is a
fundamental right, and waiver of it is not lightly presumed.” Campbell,
83 Mass. App. Ct. at 372.
Mr. Francis was not present at the sidebar where the discussion
took place regarding the circumstances under which Attorney Hrones
would represent him. Hrones was not an attorney Mr. Francis had

232a

retained to represent him. His presence at that sidebar, held off the
record, was essential, and no criminal defendant, including this one,
would be likely to freely waive his right to participate. At no time was
the content of that sidebar discussion placed on the record, in open
court, where Mr. Francis could hear it and participate in it. (R.I.111112,171, 320-321) The trial court failed in its duty to insure Mr. Francis
“was denied no necessary incident of a fair trial.” Powell, 287 U.S. at 52.
“[A] defendant is guaranteed the right to be present at any stage
of the criminal proceeding that is critical to its outcome if his presence
would contribute to the fairness of the procedure.” Kentucky v. Stincer,
482 U.S. 730, 745–746 (1987). See also Snyder, 291 U.S. at 107-08.
Attorney Hrones injected himself into the proceedings,
volunteered to try the case for free, and by doing so hoped to increase
his chances of achieving his career goal of murder panel appointment.
That is certainly information Mr. Francis was entitled to have, and he
would not likely have freely waived, his right to receive it.
C.

Weaver confirms these violations are structural errors
of the type requiring automatic reversal.

233a

234a

make his own choices about the proper way to protect his own liberty.”
Id., citing Faretta, 422 U.S. at 834. “Because harm is irrelevant to the
basis underlying the right, the Court has deemed a violation of that
right structural error. Id., referencing Gonzalez-Lopez, 548 U.S. at 149,
n.4.14
For many reasons, a first-degree murder defendant may not want
to have an attorney trying his case for free, not the least of which are
the specific concerns Mr. Francis expressed at his evidentiary hearing
and through his supplemental affidavit in support of his new trial
motion. (H.81-82;R.III.122-124) It was for Mr. Francis to decide how to
best “protect his own liberty.” Id., citing Faretta, 422 U.S. at 834.
Second, the error here is structural because “the effects of the
error are simply too hard to measure. For example, when a defendant is
denied the right to select his own attorney, the precise ‘effect of the
violation cannot be ascertained.’” Id., citing Gonzalez-Lopez, 548 U.S. at
149, n.4, and quoting Vasquez v. Hillery, 474 U.S. 254, 263 (1986).
This legal precedent reiterated in Weaver further defeats the
Commonwealth’s assertion that because trial counsel was an
experienced trial attorney, there was no harm resulting from his pro
bono representation of Mr. Francis. (R.II.48)
14

235a

236a

237a

238a

There was no forensic evidence connecting the defendant to this
crime, he made no incriminating statements, and there were no
eyewitnesses to the murder. Unreliable stranger identification
testimony, that was central to the prosecution’s evidentiary
presentation, could not be challenged at the time of the 1982 trial in the
way it could be challenged in a trial today. The law affords Mr. Francis
no relief, however, because favorable changes in the law regarding
identification are applied prospectively only, Commonwealth v. Gomes,
470 Mass. 352, 376 (2015), and the motion judge deemed the claim
waived. (R.I.67-78; A.17-18)
Mr. Francis was convicted with the use of improper, prejudicial
and inadmissible testimony by a prosecution witness called solely for
the purpose of impeachment by prior inconsistent statements in
violation of Commonwealth v. Maldonado, 766 Mass. 742, 758 (2014). In
addition, a witness was allowed to testify as to his certainty of his
identification of Mr. Francis, which is a leading cause of wrongful
convictions. See, e.g, Garrett, Convicting the Innocent, Where Criminal
Prosecutions Go Wrong (2001).

239a

Exacerbating the prejudice Mr. Francis suffered from the
unreliability of the stranger eyewitness identification, the trial judge
improperly instructed the jury on the nature of memory, see
Commonwealth v. Kater, 388 Mass. 519, 527-528 (1983), and the
prosecutor improperly vouched for one of his key witnesses in his
closing argument. See Commonwealth v. Olszewski, 401 Mass. 749
(1988). The witness the prosecutor vouched for was a defense focus at
trial as a third-party culprit. The motion judge also dismissively
dispensed with all of these claims on waiver grounds. (R.III.231232;A.17-18)
Accordingly, pursuant to G.L. c. 278, §33E, should this Court deny
relief to Mr. Francis on the claims he forwards, he alternatively asks
that this Court afford him the relief he seeks pursuant to G.L. c. 278,
§33E.
Conclusion
For all of the foregoing reasons, this Court should grant Kevin
Francis a new trial.

240a

Respectfully Submitted,
KEVIN FRANCIS
By his attorneys,
Amy M. Belger

______________________
AMY M. BELGER
B.B.O. No. 629694
841 Washington Street
Holliston, MA 01746
508-893-6031
appellatedefender@gmail.com

Ira L. Gant
__________________________
IRA L. GANT
B.B.O. No. 678706
Innocence Program
Committee for Public
Counsel Services
21 McGrath Highway
Somerville, MA 02143
617-607-5771
igant@publiccounsel.net
May 23, 2019
CERTIFICATE OF COMPLIANCE
I hereby certify that the foregoing brief complies with the rules of
the Court that pertain to the filing of briefs, including Mass. R.A.P.

241a

16(a)(6) and (13), 16(e), 16(f), 18, 20 and 21. The length limit was
ascertained by automated word count using Microsoft Word
Version 16.24, and the word count totaled 8629 words.
Amy M. Belger

CERTIFICATE OF SERVICE
I hereby certify that a copy of this brief and its accompanying
three-volume record appendix was served on ADAs Dara Kesselheim
and Craig Iannini, Office of the Suffolk County District Attorney, 1
Bulfinch Place, Boston, MA 02114 on May 23, 2019 via electronic mail.

Amy M. Belger

242a

INDEX TO ADDENDUM
FINDINGS OF FACT, RULINGS OF LAW, AND ORDER ON
DEFENDANT'S MOTION FOR DISMISSAL OF THE INDICTMENT
PURSUANT TO MASS. R. CRIM. P. 25(b}(2} OR IN THE ALTERNATIVE
A NEW TRIAL PURSUANT TO MASS. R. CRIM. P. 30(b)

A.1-19

HEARING NOTICE

A.20-21

FINDINGS OF FACT IN RESPONSE TO THE ORDER OF REMAND FROM THE
SUPREME JUDICIAL COURT FOR SUFFOLK COUNTY

A.22-27

SIXTH AMENDMENT

A.28

FOURTEENTH AMENDMENT

A.28

ARTICLE TWELVE

A.28

ARTICLE THIRTY-EIGHT

A.29

G.L. c. 278, §33E

A.29

MASS. R. CRIM. PRO. 18(a)

A.29

MASS. R. CRIM. PRO. 30(b)

A.29-30

243a

COMMONWEALTH OF MASSACHUSETTS
SUPREME JUDICIAL COURT
FOR SUFFOLK COUNTY
No. SJ-2018-0129

SUFFOLK, SS.

Suffolk Superior Court
No.8184CR37342

COMMONWEALTH
v.

KEVIN FRANCIS
HEARING NOTICE
This matter is scheduled for hearing before the Court
(Gants, C.J.) on Tuesday, August 28, 2018 at 2:30 PM in
Courtroom Two.
The single justice believes that the following factual
questioas need to be answered before the single justice can rule
on the defendant's gatekeeper petition.

At the hearing, please

be prepared to advise the single justice whether the answers to
these questions can be resolved through stipulation, or require
remand to the Superior Court for further factual findings and,
possibly, a further evidentiary hearing.
1.

On or about January 8, 1982, when Mr. Hrones filed an

appearance to represent the defendant as his private attorney,
had he been retained by the defendant or any member of his
family?

244a

2. Did the defendant believe at the time of arraignment
that the court had appointed Mr. Hrones to represent him as his
attorney?

If so, when and how did the defendant learn that the

court had not appointed Mr. Hrones?
3. Did the defendant believe at the time of arraignment
that Mr. Hrones was being paid by the court to represent him? If
so, when and how did the defendant learn that Mr. Hrones was
representing him pro bono?
By the Court ,

/;Z;r. /4

;/�
(Assist�nt-e::
ENTERED: August 24, 2018

245a

DOCKET NUMBER

�ERK'S NOTICE

8184CR37342

CASE NAME:

Maura A. HenniQan. Clerk of Court

Commonwealth vs. Kevin S Francis
TO:

Trial Court of Massachusetts
The Superior Court

COURT NAME & ADDRESS

Amy Seiger, Esq.

Suffolk County Superior Court - Criminal

Law Office of Amy M. Seiger

Suffolk County Cour thouse. 14th Floor

841 Washington St

Three Pemberton Square

Holliston, MA 01746

Boston, MA 02108

You are hereby notified that on 11/09/2018 the following entry was made on the
above referenced docket:
Findings of Fact and Rulings of Law:
in response to the court order of remand from the Supreme Judicial Court for Suffolk County
Judge: Kaplan, Hon. Mitchell H

DATE ISSUED

ASSOCIATE JUSTICE/ ASSISTANT CLERK

11/09/2018
Datemme Printed: t 1-09-2018 11 :26:35

SESSION PHONE#

Hon. Mitchell H Kaplan

246a

(617)788-8160
SCR016\ 06/2014

UNITED STATES CONSTITUTION
Sixth Amendment
In all criminal prosecutions, the accused shall enjoy the right to a
speedy and public trial, by an impartial jury of the State and district
wherein the crime shall have been committed, which district shall have
been previously ascertained by law, and to be informed of the nature
and cause of the accusation; to be confronted with the witnesses against
him; to have compulsory process for obtaining witnesses in his favor,
and to have the Assistance of Counsel for his defence.
Fourteenth Amendment
In all criminal prosecutions, the accused shall enjoy the right to a
speedy and public trial, by an impartial jury of the State and district
wherein the crime shall have been committed, which district shall have
been previously ascertained by law, and to be informed of the nature
and cause of the accusation; to be confronted with the witnesses against
him; to have compulsory process for obtaining witnesses in his favor,
and to have the Assistance of Counsel for his defence.
MASSACHUSETTS DECLARATION OF RIGHTS
Article XII
No subject shall be held to answer for any crimes or offence, until the
same is fully and plainly, substantially and formally, described to him;
or be compelled to accuse, or furnish evidence against himself. And
every subject shall have a right to produce all proofs, that may be
favorable to him; to meet the witnesses against him face to face, and to
be fully heard in his defense by himself, or his council at his election.
And no subject shall be arrested, imprisoned, despoiled, or deprived of
his property, immunities, or privileges, put out of the protection of the
law, exiled, or deprived of his life, liberty, or estate, but by the judgment
of his peers, or the law of the land.
And the legislature shall not make any law, that shall subject any
person to a capital or infamous punishment, excepting for the
government of the army and navy, without trial by jury.

247a

Article XXVIII
No person can in any case be subject to law-martial, or to any penalties
or pains, by virtue of that law, except those employed in the army or
navy, and except the militia in actual service, but by authority of the
legislature.
MASSACHUSETTS GENERAL LAWS
G.L. c. 278, §33E:. In a capital case as hereinafter defined the entry in
the supreme judicial court shall transfer to that court the whole case for
its consideration of the law and the evidence. Upon such consideration
the court may, if satisfied that the verdict was against the law or the
weight of the evidence, or because of newly discovered evidence, or for
any other reason that justice may require (a) order a new trial or (b)
direct the entry of a verdict of a lesser degree of guilt, and remand the
case to the superior court for the imposition of sentence. For the
purpose of such review a capital case shall mean: (i) a case in which the
defendant was tried on an indictment for murder in the first degree and
was convicted of murder in the first degree; or (ii) the third conviction of
a habitual offender under subsection (b) of section 25 of chapter 279.
After the entry of the appeal in a capital case and until the filing of the
rescript by the supreme judicial court motions for a new trial shall be
presented to that court and shall be dealt with by the full court, which
may itself hear and determine such motions or remit the same to the
trial judge for hearing and determination. If any motion is filed in the
superior court after rescript, no appeal shall lie from the decision of that
court upon such motion unless the appeal is allowed by a single justice
of the supreme judicial court on the ground that it presents a new and
substantial question which ought to be determined by the full court.
MASSACHUSETTS RULES OF CRIMINAL PROCEDURE
Rule 18(a) Presence of defendant
In any prosecution for crime the defendant shall be entitled to be
present at all critical stages of the proceedings.
Rule 30 (b) New Trial
The trial judge upon motion in writing may grant a new trial at any
time if it appears that justice may not have been done. Upon the motion

248a

the trial judge shall make such findings of fact as are necessary to
resolve the defendant's allegations of error of law.

249a

COMMONWEALTH OF MASSACHUSETTS
SUPREME JUDICIAL COURT
NO. 12683
_______________________________
KEVIN FRANCIS
Petitioner/Appellant
v.
COMMONWEALTH
Respondent/Appellee
_______________________________
ON APPEAL FROM A JUDGMENT AND DENIAL OF
A NEW TRIAL MOTION IN
THE SUFFOLK SUPERIOR COURT
PURSUANT TO G.L. CHAPTER 278, §33E
_______________________________
BRIEF
OF THE PETITIONER/APPELLANT
_______________________________
SUFFOLK, SS.

250a

